<html>
<title> - SOUTHEAST REGIONAL PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION</title>
<body><pre>[Senate Hearing 113-670]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-670

SOUTHEAST REGIONAL PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-418 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
                                     TIM SCOTT, South Carolina
                                     TED CRUZ, Texas
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 14, 2013................................     1
Statement of Senator Begich......................................     1
Statement of Senator Nelson......................................     2
Statement of Senator Rubio.......................................     3
Statement of Senator Scott.......................................    32
Statement of Senator Blumenthal..................................    42

                               Witnesses

Dr. Roy E. Crabtree, Southeast Regional Administrator for the 
  National Marine Fisheries Service, National Oceanographic and 
  Atmospheric Administration, U.S. Department Of Commerce........     5
    Prepared statement...........................................     7
Douglass Boyd, Chairman, Gulf of Mexico Fishery Management 
  Council........................................................    13
    Prepared statement...........................................    15
Ben C. Hartig, Chairman, South Atlantic Fishery Management 
  Council........................................................    18
    Prepared statement...........................................    20
Carlos Farchette, Chairman, Caribbean Fishery Management Council.    27
    Prepared statement...........................................    29
Hon. Kelly Windes, Commissioner, District Five, Okaloosa County, 
  State of Florida, and Owner-Operator, Sunrise Charters.........    38
    Prepared statement...........................................    40
John D. Brownlee, Upper Keys Representative, International Game 
  Fish Association...............................................    42
    Prepared statement...........................................    44
Captain Robert A. Johnson, Owner-Operator, Jodie Lynn Charters, 
  St. Augustine Florida; Chairman, SAFMC Snapper Grouper Advisory 
  Panel..........................................................    45
    Prepared statement...........................................    47
William E. ``Bill'' Tucker, Commercial Fisherman, Gulf of Mexico 
  Reef Fish Shareholders Alliance................................    50
    Prepared statement...........................................    52
Lee Crockett, Director, U.S. Oceans, The Pew Charitable Trusts...    55
    Prepared statement...........................................    56

                                Appendix

Written statement of the Gulf Seafood Institute..................    73
Letter dated November 18, 2013 to Hon. Mark Begich and Hon. Mark 
  Rubio from Matthew Ruby, Commercial Fisherman and President, 
  South Atlantic Fishermen's Association.........................    74
Letter dated December 1, 2013 to Chairman Mark Begich and Fellow 
  Committee Members from Michael S. Merrifield, Cape Canaveral 
  Shrimp Co., d.b.a., Wild Ocean Seafood; Sherylanne McCoy, Cape 
  Canaveral Shrimp Co., d.b.a., Wild Ocean Seafood; Jim Busse, 
  Seafood Atlantic; Linda Busse, Seafood Atlantic; and Jeanna 
  Merrifield, Cape Canaveral Shrimp Co., d.b.a., Wild Ocean 
  Seafood........................................................    77
Response to written questions submitted to Dr. Roy E. Crabtree 
  by:
    Hon. Marco Rubio.............................................    78
    Hon. Tim Scott...............................................    80
Response to written questions submitted by Hon. Marco Rubio to:
    Douglass Boyd................................................    80
    Ben C. Hartig................................................    83
    John D. Brownlee.............................................    87

 
SOUTHEAST REGIONAL PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2013

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:37 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. This hearing is called to order. This is 
the U.S. Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard. This is the Southeast Regional 
Perspectives on Magnuson-Stevens Act reauthorization. We thank 
you all for being here. We thank the panel as well as others 
that are going to testify shortly.
    Again, welcome to all our witnesses and other guests in the 
hearing of the Senate Commerce Committee on Oceans, Atmosphere, 
Fisheries, and Coast Guard. This hearing marks the second in a 
series of hearings we are holding on the reauthorization of the 
Magnuson-Stevens Fisheries Conservation and Management Act.
    The Magnuson-Stevens Act, or otherwise known as the MSA, 
named after two forward-thinking members of this committee, 
provides the architectural framework for the conservation and 
management of our Nation's fisheries. MSA was last reauthorized 
in 2006, at which time significant improvements were made, most 
notably the requirement that fisheries management plans include 
annual catch limits and measures to ensure accountability if 
those limits are exceeded.
    Another important improvement is the requirement that catch 
limits not exceed the fishing levels recommended to the 
councils by their scientific and statistical committees. The 
revisions also provided fishermen and the councils with new 
management tools to rationalize fisheries if they wished to do 
so.
    These reforms, combined with rebuilding plan requirements 
added to the Act in 1996, put us on a firm footing for the 
sustainable management of our fisheries and our fisheries 
resources. Many now even argue that finfish and shellfish 
caught under a Federal fisheries management plan are by 
definition sustainably caught.
    The 2006 reauthorization also made important changes to MSA 
aimed at improving the accuracy and reliability of data on the 
recreational fishing activities so we can better manage 
fisheries that support charter and private recreational fishing 
as well as commercial fishing. This includes the authorization 
of the new Marine Recreational Information Program and the 
National Salt Water Angler Registry.
    That said, implementing these reforms has not been easy. 
This comes as no surprise because fish issues have never been 
easy. Our challenge today is how to properly balance the need 
for responsible stewardship of our fisheries for future 
generations with the needs of individuals, businesses, and 
communities who rely on them. Today we will hear testimony from 
two distinguished panels of witnesses regarding MSA 
reauthorization from the Southeast regional perspective, 
specifically addressing management issues in the South 
Atlantic, the Caribbean, and the Gulf of Mexico.
    We hope to learn more about the impacts MSA is having on 
this region's important fisheries and individuals, businesses, 
and communities who depend upon them and how, if at all, the 
Act can be modified or improved. I look forward to hearing from 
our witnesses today on how these and other changes and updates 
to MSA are being implemented and what effects they're having.
    Before we start, I know Senator Rubio, the Ranking Member, 
is on his way, so we will continue the meeting, but I'd like to 
see if Senator Nelson has some opening comments, and then we'll 
go right to the panel until Senator Rubio attends.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Senator Rubio is giving a speech on the 
floor, so I would ask consent that his remarks be entered in 
the record, and then he can be addressed whenever he gets here.
    Senator Begich. Without objection.
    Senator Nelson. And I want to thank you for having this 
hearing as it examines the concerns of fishing and conservation 
interests in the southeastern U.S. Over and over since I've 
been in the Senate, I have been asking this full committee and 
the Subcommittee, asking the leaders of NOAA and the National 
Marine Fisheries for a full-blown benchmark stock assessment 
for the managed species in the Gulf and in the South Atlantic. 
Naturally, I'm very pleased that now in 2013 NMFS and the 
Southeast regions have completed a benchmark assessment for 
Gulf red snapper for the first time since 2009.
    Recreational, charter, and commercial sector fishermen all 
reap the rewards of the best science, and that science then 
translates into an acceptable catch. Bottom line: better 
science means more days on the water. So when we were doing the 
RESTORE Act, where was the money going to go once the court 
decides in New Orleans what the fine is for BP? Naturally, I 
wanted a specific source of funding coming from the RESTORE Act 
to go for data collection for the Gulf. Budgets are tight and 
the RESTORE Act is going to be able to have a dedicated source 
of funding coming for that.
    As we are reviewing these items in the Magnuson-Stevens, I 
recommend, Mr. Chairman, that we do not take our eyes off the 
importance of good science. And I look forward to the hearing 
today.
    Senator Rubio, I've already spoken for you.
    [Laughter.]
    Senator Nelson. And I've already inserted your comments in 
the record.
    Senator Begich. There we go. Thank you, Senator Nelson.
    He has spoken about the health of fish, which is important. 
We thank you.
    Senator Rubio, Ranking Member, we'll go ahead and go to 
your opening statement.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Well, thank you. All kidding aside, one of 
the great advantages in Florida we have is a pretty good 
partnership between Senator Nelson and myself, especially on 
issues like this--it's hard to be partisan about fishing and 
the health of our oceans.
    So thank you so much for the opportunity. Thank you, 
Chairman, for holding this hearing. This is the second in our 
regional hearings that we're doing that I hope guide members of 
the Subcommittee as you work toward reauthorizing the Magnuson-
Stevens Act. I have to admit that I think this hearing's my 
favorite.
    Anyway, I'd like to welcome Dr. Crabtree and the Council 
Chairman for being here. I'm thankful in particular for several 
witnesses that will be on the second panel who have traveled up 
from Florida to be with us today: Commissioner Windes, Captain 
Johnson, Captain Tucker, and John Brownlee. Thank you for being 
here today to share Florida's experience under the Act.
    Let me just say at the outset that I may have to leave for 
a few minutes because I have a bill up before Foreign 
Relations, but I plan to return if that finishes in time.
    Let me go on to say, Mr. Chairman, that I know that I 
benefit from reading the testimonies of all of you that are 
here today, and I greatly appreciate the opportunity to 
continue this dialogue with the three industries from Florida 
represented here today on the issues we need to address in the 
next reauthorization. Many of the issues raised in your 
testimony are issues that I've raised before in this 
subcommittee and so has Senator Nelson, issues such as the 
accurate and up to date data, up to date science, which is so 
fundamental to proper fishery management, and the need for 
greater flexibility in management that accounts for not only 
the economic costs of regulating an industry, but also the 
different ecosystems and the species that are federally 
managed.
    These are both issues I raised at the first hearing we held 
and are issues I'm committed to addressing in the next 
reauthorization. However, each region has its own unique 
fisheries and its own unique set of issues. The Gulf of Mexico 
and the South Atlantic are no exception. I think the biggest 
takeaway from the testimony that you will give today is that 
Magnuson-Stevens as currently drafted simply does not work for 
the recreational fishing community. The Southeast Region, 
blessed with generally beautiful weather and several different 
stocks, probably has the largest recreational fishing industry 
in the entire United States. In Florida saltwater fishing 
generates about $7.1 billion and it supports thousands of jobs 
both directly and indirectly across the state.
    Yet, faced with concerns over allocation and uncertainty in 
the seasons, in some cases in the South Atlantic no season at 
all, our recreational fishermen have lost any semblance of 
faith in the Federal management system. Their concerns are so 
wide-reaching that it's led some Members of Congress to 
introduce legislation that shifts management away from NOAA to 
the states and has even been recently vocalized by Senator 
Vitter's temporary hold on Dr. Sullivan's nomination.
    So it's clear that the issues of the recreational community 
cannot be ignored in the next iteration of Magnuson-Stevens, 
and I'm committed to reforming the law so that it works for 
every fisherman in Florida and across the United States, the 
commercial fishermen, the recreational fishermen, and charter 
fishermen, all alike.
    Finally, Mr. Chairman, I'd like to close by offering a few 
policy priorities that I'm examining and I would like to 
discuss in more detail during our question period if, God 
willing, I'm around. With regard to the science, we need to 
make sure that funding levels are adequate and we need to 
explore ways to make fishermen a larger part of data collection 
so what they see on the water is appropriately reflected in a 
fishery management plan.
    Notably, the law calls for the ``best available science,'' 
but, as we'll hear today, sometimes the science is simply not 
available. As we work to address this shortcoming, we should 
consider in these data-poor cases whether or not it is prudent 
to require annual catch limits for certain stocks.
    We also need to look at the arbitrary ten-year rebuilding 
time line under the Act. Every council chair that has appeared 
before this subcommittee has stated that they need increased 
flexibility in rebuilding stocks. Their call was recently 
mirrored by a National Research Council study recommending 
alternative management strategies for rebuilding.
    I think addressing flexibility in management should be a 
top priority in reauthorization. Also, we need to focus in 
particular on innovative ways not only to account for our 
recreational fishermen and their catch, but to do so in a way 
that provides a more consistent and longer season, both in the 
Gulf and in the South Atlantic.
    Finally, we need to ensure that the economic well-being of 
commercial, recreational, and charter fishermen alike and the 
communities they support is prioritized among national 
standards that guide fishery management in the United States.
    Mr. Chairman, if I had to name another state where the 
fishing industry is as important as it is in Florida, that 
state would be Alaska. I know that you are a strong advocate 
for the fishermen in your state. I think together we can work 
toward a reauthorization that reflects the several interests 
that have been and will be represented throughout these 
hearings and I'm confident that we can work together toward 
another bipartisan Magnuson-Stevens Act that will fit the needs 
of all.
    So thank you for holding this hearing. As I said earlier, I 
may have to step away because I have a bill before Foreign 
Relations. But I've read your testimony and I look forward to 
being back in time for the questions.
    As I said, it may not be a perfect law, but it certainly 
has had some substantial success, and I look forward to 
perfecting it with you, Mr. Chairman. So thank you.
    Senator Begich. Thank you very much. Thank you, Senator 
Rubio. And it is a great partnership when you think of Alaska 
and Florida. We may be literally across the country from each 
other; the issues that we face are pretty important with 
regards to our fish and how they impact us on an economic 
standpoint. So I'm looking forward to--and I do believe that 
this subcommittee has been known to bring the bills forward, as 
we did last year on Coast Guard, in a bipartisan approach with 
strong support. So I'm looking forward to this.
    It's a little slower, to be frank with you, than the House 
because they've laid down a bill. But we're trying to take a 
much more methodical look at every issue before we put a piece 
of legislation down. So, Senator Rubio, thank you for you and 
your staff, for the work that you've been doing already.
    Senator Scott, do you want to say any opening remarks 
before I go right to the members?
    Senator Scott. No, go ahead.
    Senator Begich. OK. Thank you very much. Thank you for 
attending.
    What I'm going to do if that's okay, Dr. Crabtree, I'm 
going to go from this side down and, again, I'll introduce you 
as your time comes up for your presentation. Again, we have two 
panels today and the first panel--again, Dr. Crabtree is the 
Regional Administrator of the Southeast Regional Office, 
National Marine Fisheries Service, National Oceanic and 
Atmospheric Administration. This is why we always abbreviate 
everything on this end of the equation.
    But we're very happy to have you here. So please, your 
testimony.

          STATEMENT OF DR. ROY E. CRABTREE, SOUTHEAST

         REGIONAL ADMINISTRATOR FOR THE NATIONAL MARINE

         FISHERIES SERVICE, NATIONAL OCEANOGRAPHIC AND

    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Crabtree. Thank you. Good morning, Chairman Begich, 
Ranking Member Rubio, and members of the Committee. Thank you 
for the opportunity to testify before you today. My name is Roy 
Crabtree and I am the Southeast Regional Administrator for 
NOAA's National Marine Fisheries Service.
    Fisheries such as snapper and grouper in the Southeast are 
vital to the prosperity and cultural identity of our coastal 
communities. They also play an enormous role in the economy. 
Recreational fishing is an important social activity for 
individuals, families, and communities and is a critical 
economic driver both locally and nationally. Commercial fishing 
supports fishermen and their communities and provides Americans 
with a sustainable, healthy food source.
    Since its initial passage in 1976, the Magnuson-Stevens Act 
has charted a groundbreaking course for sustainable fisheries. 
Today the law requires rebuilding plans for overfished stocks 
and annual catch limits and accountability measures to prevent 
overfishing. Ending overfishing and rebuilding depleted 
fisheries brings significant biological, economic, and social 
benefit. But doing so takes time, persistence, and sacrifice 
and adherence to scientific information.
    While significant progress has been made since the last 
reauthorization, we recognize that this progress has not come 
without a cost and that challenges remain. Fishermen, fishing 
communities, and the councils have had to make difficult 
decisions and many areas have had to absorb the costs of 
conservation and investment in long-term sustainability.
    In some cases, as with the Gulf of Mexico red snapper 
fishery, we have achieved biological success, but it has not 
led to the increased fishing opportunities that recreational 
fishermen value. In these cases, we need to address management 
challenges and explore new opportunities in a holistic, 
deliberative, and thoughtful way.
    There are many examples of what fishermen, scientists, and 
managers can do by working together. In the Southeast Region, 
NOAA, the Gulf of Mexico, South Atlantic and Caribbean 
councils, the fishing industries, recreational anglers and 
other partners have successfully ended overfishing and rebuilt 
a number of stocks. We continue to see remarkable progress in 
rebuilding other stocks, including the Gulf of Mexico red 
snapper.
    Both fishermen and scientists agree, and the most recent 
stock assessment confirms this, there are more red snapper in 
the Gulf of Mexico today than there has been in decades. This 
is because the rebuilding measures put in place for red snapper 
in 2007 are working. The stock is rapidly recovering and now 
supports the largest combined commercial and recreational catch 
quota ever specified. Commercial fishermen directly benefit by 
receiving additional pounds of quota. But recreational 
fishermen, who simply desire the opportunity to fish, have seen 
seasons grow shorter because they're able to reach their quota 
in fewer and fewer days. This has contributed to a very 
polarized atmosphere for dealing with issues of red snapper 
management.
    However, there are innovative ideas currently under 
consideration that could provide relief. For example, all five 
Gulf Coast States have expressed support for moving to a 
regional management strategy. Such a system could provide 
States greater flexibility in tailoring management to meet 
constituent needs. The council is also considering reallocating 
red snapper catches between the commercial and recreational 
sectors and exploring other innovative approaches, such as 
inter-sector trading and establishing separate sub-quotas for 
for-hire and private boat fishermen.
    NMFS fully supports the consideration of management options 
that have broad stakeholder support and provide the fishery 
greater stability while meeting conservation objectives. 
However, a lasting management strategy for red snapper in the 
Gulf, and indeed for all of our stocks, requires broad 
agreement, equitable application, and support at both State and 
Federal levels.
    Another issue we face in the Southeast is the number of 
fisheries that are extremely data-limited. This makes it 
challenging to manage and monitor annual catch limits. A 
primary goal for the Southeast Region is to bring more 
stability to recreational fisheries and ensure the fishery 
managed response to recreational catch trims is appropriate.
    A key component of our efforts to improve the ways--a key 
component will be our efforts to improve the ways we collect 
and use recreational catch data. We understand that we must 
continue to improve the quality and quantity of scientific data 
and that is why we so highly value the partnerships we have 
formed with the States, fishermen, and other interest groups. 
We'll continue to work with them and the council to achieve the 
best possible alignment of science and management for each 
fishery.
    With some of the largest and most successful fisheries in 
the world, the U.S. has become a global model of responsible 
fishery management. This is a critical time and we must move 
forward in a thoughtful and disciplined way to ensure our 
Nation's fisheries are able to meet the needs of both current 
and future generations.
    Thank you again for the opportunity to testify before you 
today and I'm happy to answer any questions you may have.
    [The prepared statement of Dr. Crabtree follows:]

     Prepared Statement of Dr. Roy E. Crabtree, Southeast Regional 
   Administrator for the National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce
Introduction
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify before you today. My name is Roy 
Crabtree and I am the Southeast Regional Administrator for the National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Fisheries Service (NMFS). NMFS is dedicated to the stewardship of 
living marine resources through science-based conservation and 
management. Much of this work occurs under the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act), which sets 
forth standards for conservation, management and sustainable use of our 
Nation's fisheries resources.
    Marine fish and fisheries, such as red snapper in the Gulf of 
Mexico and salmon in the Pacific Northwest, have been vital to the 
prosperity and cultural identity of coastal communities in the United 
States (U.S.). U.S. fisheries play an enormous role in the U.S. 
economy. Commercial fishing supports fishermen and fishing communities, 
and provides Americans with a sustainable, healthy food source. 
Recreational fishing is an important social activity for individuals, 
families and communities, and is a critical economic driver of and 
contributor to local and regional economies, as well as the national 
economy. Subsistence fishing provides an essential food source and is 
culturally significant for many people. Our most recent estimates for 
2012 show that the amount landed and the value of commercial U.S. 
wildcaught fisheries remained near high levels posted in 2011 while 
recreational catch remained stable.\1\
---------------------------------------------------------------------------
    \1\ See NOAA Annual Commercial Fisheries Landings Database, 
available at http://www
.st.nmfs.noaa.gov/commercialfisheries/commercial-landings/annual-
landings/index
---------------------------------------------------------------------------
    The Federal fishery management system is effectively rebuilding 
overfished fisheries. We continue to make progress towards long-term 
biological and economic sustainability and stability. Since its initial 
passage in 1976, the Magnuson-Stevens Act has charted a groundbreaking 
course for sustainable fisheries. When reauthorized in 2007, the Act 
gave the eight Regional Fishery Management Councils (Councils) and NMFS 
a very clear charge and some new tools to support improved science and 
management. Key requirements mandated the use of science-based annual 
catch limits and accountability measures to prevent and end 
overfishing, provided more explicitly for market-based fishery 
management through Limited Access Privilege Programs, and addressed the 
need to improve the science used to inform fisheries management.
    The U.S. now has effective tools to address marine fisheries 
management and, as we look to the future, we must look for 
opportunities to increase flexibility in our management system. While 
significant progress has been made since the last reauthorization, we 
recognize this progress has not come without a cost and that challenges 
remain. Fishermen, fishing communities, and the Councils have had to 
make difficult decisions and many areas have had to absorb the cost of 
conservation and investment in long-term economic and biological 
sustainability. In some cases, as with the Gulf of Mexico recreational 
red snapper fishery, such investment has produced the expected 
biological benefits in the form of many more and larger fish, but has 
not produced the expected socioeconomic benefits in the form of 
increased fishing opportunities. We need to address management 
challenges and explore new opportunities in a holistic, deliberative 
and thoughtful way that includes input from the wide range of 
stakeholders who care deeply about these issues.
    My testimony today will focus on NMFS' progress in implementing the 
Magnuson-Stevens Act's key domestic provisions, and some thoughts about 
the future and the next reauthorization.
Implementing the Magnuson-Stevens Act
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. This structure ensures that input and 
decisions about how to manage U.S. fisheries develop through a ``bottom 
up'' process that includes fishermen, other fishery stakeholders, 
affected states, tribal governments and the Federal Government.
    The Magnuson-Stevens Act guides fisheries conservation and 
management through 10 National Standards. These standards, which have 
their roots in the original 1976 Act, provide a yardstick against which 
all fishery management plans and actions developed by the Councils are 
measured. National Standard 1 requires that conservation and management 
measures prevent overfishing while achieving, on a continuing basis, 
the optimum yield from each fishery. Optimum yield is the average 
amount of fish from a fishery that, over the long-term, will provide 
the greatest overall benefits to the Nation, particularly by providing 
seafood and recreational opportunities and affording protection to 
marine ecosystems.
    The Councils can choose from a variety of options to manage fish 
stocks and meet this mandate--catch shares, area closures, gear 
restrictions, etc.--and also determine how to allocate fish among user 
groups. These measures are submitted to the U.S. Secretary of Commerce 
for approval and are implemented by NMFS. Thus, the Councils, in 
developing their plans, must carefully balance fishing jobs and 
conservation, while ensuring that overfishing is eliminated and 
overfished stocks are rebuilt. Other National Standards mandate that 
conservation and management measures be based upon the best scientific 
information available, not discriminate between residents of different 
states, take into account variations in fisheries and catches, minimize 
bycatch and promote the safety of human life at sea.
    Central to many of the Council decisions are fishing jobs. Fishing-
related jobs, both commercial and recreational, are the lifeblood of 
many coastal communities around our Nation. Fishermen and fishing 
industries rely not only on today's catch, but the predictability of 
future catches. Under the standards set in the Magnuson-Stevens Act, 
and together with the Councils, states, tribes and fishermen, we have 
made great strides in ending overfishing, rebuilding stocks and 
building a sustainable future for our fishing dependent communities. 
Thanks in large part to the strengthened Magnuson-Stevens Act and the 
sacrifices and investment in conservation by fishing communities across 
the country, the condition of many of our most economically important 
fish stocks has improved steadily over the last decade.
    We all share the common goal of healthy fisheries that can be 
sustained for generations. Without clear, science-based rules, fair 
enforcement and a shared commitment to sustainable management, short-
term pressures can easily undermine progress toward restoring the 
social, economic and environmental benefits of a healthy fishery. 
Though challenges remain in some fisheries, the benefits for the 
resource, the industries it supports, and the economy are beginning to 
be seen as fish populations grow and catch limits increase.
Progress in Implementation
    Working together, NMFS, the Councils, coastal states and 
territories, and a wide range of industry groups and other stakeholders 
have made significant progress in implementing key provisions of this 
legislation.
Ending Overfishing, Implementing Annual Catch Limits and Rebuilding
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act was the mandate to 
implement annual catch limits, including measures to ensure 
accountability and to end and prevent overfishing in federally managed 
fisheries by 2011. An annual catch limit is an amount of fish that can 
be caught in a year such that overfishing does not occur. 
Accountability measures are management controls to prevent annual catch 
limits from being exceeded, and to correct or mitigate overages of the 
limits if they occur. Now, when developing a fishery management plan or 
amendment, the Councils must consider the actions that will occur if a 
fishery does not meet its performance objectives. As of December 31, 
2012, assessments demonstrated that overfishing ended for 58 percent of 
the 38 domestic U.S. stocks that were subject to overfishing in 2007 
when the Magnuson-Stevens Act was reauthorized.\2\ Annual catch limits 
designed to prevent overfishing are in place for all stocks, and we 
expect additional stocks to come off the overfishing list as stock 
assessments are updated in the coming years. The Magnuson-Stevens Act 
also includes requirements to rebuild any overfished fishery to the 
level that can support the maximum sustainable yield, and we have 
rebuilt 33 stocks nationally since 2000.\3\
---------------------------------------------------------------------------
    \2\ See Fish Stock Sustainability Index. This report was the source 
for the underlying data, but the numbers presented here were compiled 
specifically for this hearing. Available at: http://www.nmfs.noaa.gov/
sfa/statusoffisheries/2012/fourth/Q4%202012%20FSSI%20Summary%20
Changes.pdf
    \3\ See Fish Stock Sustainability Index. Available at: http://
www.nmfs.noaa.gov/sfa/status
offisheries/2012/fourth/MapRebuiltStocksCY_Q4_2012.pdf
---------------------------------------------------------------------------
    There are many examples of what fishermen, scientists and managers 
can do by working together to bring back a resource that once was in 
trouble. In the Southeast Region, NOAA, the Gulf of Mexico and South 
Atlantic Fishery Management Councils, the fishing industries, 
recreational anglers and other partners have successfully rebuilt a 
number of once overfished stocks, including red grouper and king 
mackerel in the Gulf of Mexico, black sea bass in the South Atlantic, 
and yellowtail snapper, which is shared by both the Gulf of Mexico and 
South Atlantic regions. These and other conservation gains enabled NMFS 
to increase catch limits for six stocks or stock complexes and 
eliminate or reduce two fixed seasonal closures over the last year. The 
additional harvest opportunities attributed to rebuilding the South 
Atlantic black sea bass stock alone have increased annual consumer 
surplus for recreational anglers, annual ex-vessel revenues for 
commercial fishermen and annual profits for for-hire vessels by about 
$13 million, $1 million and $350,000, respectively.\4\ And we continue 
to see remarkable progress in rebuilding other stocks, including the 
iconic Gulf of Mexico red snapper. Both fishermen and scientists agree, 
and the most recent stock assessment confirms, there are more red 
snapper in the Gulf of Mexico today than in decades.
---------------------------------------------------------------------------
    \4\ Regulatory Amendment 19 to the Fishery Management Plan for the 
Snapper Grouper Fishery of the South Atlantic Region. Available at: 
http://sero.nmfs.noaa.gov/sustainable_fisheries/s_atl/sg/2013/reg_am19/
documents/pdfs/sa_reg_am19_appen.pdf
---------------------------------------------------------------------------
    But meeting mandates to end overfishing, implement annual catch 
limits and rebuild overfished stocks can be challenging and we 
recognize the importance of learning from our past actions and making 
adjustments as needed. With that in mind, the agency has already begun 
the process of reviewing the National Standard 1 guidelines, which were 
last modified in 2009 to focus on implementing the requirement for 
annual catch limits. This was a major change in how many fisheries were 
managed, and we want to ensure the guidance we have in place reflects 
current thinking on the most effective way to meet the objectives of 
National Standard 1, and builds on what we and the Councils have 
learned in applying the latest requirements of the Act. An Advance 
Notice of Proposed Rulemaking was published in May 2012, which was 
followed by an almost 6-month public comment period where we asked the 
public for input on 11 topics addressed in National Standard 1. We 
received a significant amount of input, and are in the process of 
working through the comments and developing options for moving forward, 
be it through additional technical guidelines, regulatory changes, or 
identifying issues for discussion as part of a reauthorization of the 
Magnuson-Stevens Act.
Improvements to Science and Recreational Fishing Data
    Without high quality fishery science, we cannot be confident the 
Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires investing in information about fish 
stocks, their fisheries and their ecosystems, including habitat 
requirements. NMFS is committed to generating the best fishery science 
to support the goals of the Magnuson-Stevens Act. Increasingly, we are 
conducting research and analyses to understand the environmental and 
habitat factors affecting the sustainability of fish populations. 
Today, we know more about our fish stocks than ever before, and it is 
vital that our science not regress, as this would inevitably lead to 
increased uncertainty and potentially reduced annual catch limits, 
resulting in lost economic opportunities.
    The importance of increasing the frequency of stock assessments, 
improving the quality of fisheries science with a better understanding 
of ecosystem factors, and enhancing our engagement with fishermen 
cannot be stressed enough. The SouthEast Data, Assessment, and Review 
(SEDAR) is a cooperative process initiated in 2002 to improve the 
quality and reliability of Southeast Region stock assessments, and to 
increase stakeholder participation in the process. SEDAR is managed by 
the Caribbean, Gulf of Mexico, and South Atlantic Fishery Management 
Councils in coordination with NMFS and the Atlantic and Gulf States 
Marine Fisheries Commissions. SEDAR emphasizes stakeholder 
participation in assessment development, transparency in the assessment 
process, and a rigorous and independent scientific review of completed 
stock assessments.
    The Magnuson-Stevens Act required improvements to recreational 
fisheries data collected by NMFS for use in management decisions. In 
October 2007, NMFS established the Marine Recreational Information 
Program, a new program to improve recreational fishery data collection 
efforts, consistent with the Magnuson-Stevens Act requirement and the 
2006 recommendations of the National Research Council. The Marine 
Recreational Information Program is a national system of coordinated 
regional data collection programs designed to address specific needs 
for improved recreational fishing information. One major component of 
the Marine Recreational Information Program is the development of a 
national registry of anglers that, in the Southeast Region, relies on 
data from state-issued fishing licenses. Also required by the Magnuson-
Stevens Act, that registry is being used in a series of pilot studies 
to test more efficient mail and telephone surveys for the collection of 
data on recreational fishing activity. Based on the results of these 
studies, NMFS expects to be ready to implement new registry-based 
survey designs on all coasts in 2015.
    The Marine Recreational Information Program is also developing and 
implementing numerous other survey improvements to address the National 
Research Council's recommendations, including improved estimation 
methodologies, improved shoreside survey design, and improvements in 
for-hire fishery data collections. We are now integrating the more 
accurate and precise catch estimates produced by the survey into stock 
assessments and management decision making for fish stocks in the 
Southeast Region with recreational catches. Also, we are working with 
the states to address unique or specialized needs like those of pulse 
fisheries such as Gulf of Mexico red snapper, which may open and close 
before data are available to monitor or evaluate catches. The Marine 
Recreational Information Program is not currently designed to support 
real-time monitoring or management of recreational fisheries, as it 
delivers data in two-month increments and does not cover all areas of 
the country, including the U.S. Virgin Islands in the Southeast Region. 
In addition, we are implementing electronic reporting requirements for 
Gulf of Mexico and South Atlantic headboat vessels and are considering 
extending those requirements to charter vessels to help to get 
recreational data into scientists' and managers' hands more quickly.
    Adequate observer coverage also is critical for improving data 
collection related to bycatch. National standard 9 requires fishery 
management plans to take into account fishery impacts on bycatch, 
particularly for protected species. NMFS continues to work with the 
Councils and through take reduction teams established under the Marine 
Mammal Protection Act to identify measures to minimize bycatch and 
other impacts on sea turtles, corals, dolphins and other protected 
species in Gulf of Mexico, South Atlantic and U.S. Caribbean waters.
Limited Access Privilege Programs (LAPPs)
    The Magnuson-Stevens Act authorizes the use of LAPPs, which 
dedicate a secure share of fish to fishermen for their exclusive use 
via a Federal permit. NMFS has implemented LAPPs in multiple fisheries 
nationwide and additional programs are under development. Both in the 
U.S. and abroad, such programs are helping to achieve annual catch 
limits, reduce the cost of producing seafood, extend fishing seasons, 
increase revenues and improve fishermen's safety.
    NMFS has three LAPPs in the Southeast Region, including a South 
Atlantic commercial wreckfish individual transferable quota program 
implemented in 1992, a Gulf of Mexico commercial red snapper individual 
fishing quota program implemented in 2007 and a Gulf of Mexico 
commercial grouper and tilefish individual fishing quota program 
implemented in 2010. While the grouper and tilefish program is too 
young to fully evaluate, recent reviews of the wreckfish and red 
snapper programs demonstrate they are working as intended. The 
wreckfish program eliminated excess fleet capacity and the race to 
catch fish and reduced gear and fishing area conflicts. The red snapper 
program is better aligning the capacity of the fleet with the 
commercial catch limit, mitigating short fishing seasons, improving 
safety at sea and increasing the profitability of the fishery. 
Individual fishing quota participants are targeting red snapper year 
round, compared to an average of 121 day seasons prior to 
implementation of the LAPP. And the average ex-vessel price of red 
snapper in 2012 was 27 percent greater than the average inflation 
adjusted ex-vessel price in 2007. While limited access privilege 
programs are just one of many management options the Councils can 
consider, they have proven to be effective in meeting a number of 
management objectives when they have broad stakeholder support.
Looking to the Future
Remaining Challenges
    Even with these successes, we know that challenges remain. The 
Southeast Region has made remarkable progress ending overfishing and 
rebuilding overfished stocks in recent years. But we face formidable 
challenges managing recovering stocks to benefit both commercial and 
recreational user groups with fundamentally different goals and 
objectives. This is perhaps most evident in the Gulf of Mexico red 
snapper fishery. Rebuilding measures put in place in 2007 are working. 
That stock is rapidly recovering and now supports the largest combined 
commercial and recreational catch quota ever specified for this stock. 
Commercial individual fishing quota program participants directly 
benefit from stock recovery by receiving additional pounds of quota 
that can be fished more efficiently as catch rates and fish size 
increase over time. But recreational fishermen who simply desire the 
opportunity to fish are seeing that opportunity progressively 
restricted as the stock recovers because they are able to reach their 
quota in fewer and fewer days. Also, inequities created by state 
jurisdictional and regulatory inconsistencies have affected the 
distribution of recreational fishing opportunities and rebuilding 
benefits, deeply polarizing the Gulf Council on critical decisions 
needed to effectively address long-standing issues. A lasting red 
snapper management strategy will require broad agreement, equitable 
application and management support at both state and Federal levels.
    Currently, all Gulf Coast states have expressed support for moving 
to a regional red snapper management strategy which could provide 
greater flexibility in tailoring the recreational fishing season, bag 
limit and minimum size limit to meet constituent needs. The Gulf 
Council is working toward implementing such a regime in the 
recreational fishery for the 2015 fishing year. NMFS fully supports 
this and any other management option that has broad stakeholder support 
and provides the fishery greater stability, while meeting conservation 
objectives. The Council also is considering reallocating red snapper 
catches between the commercial and recreational sectors, and exploring 
other innovative approaches, such as authorizing recreational 
participation in the commercial individual fishing quota program 
through intersector trading, and separate management of the for-hire 
and private sectors, commonly known as sector separation. But the 
potential benefits of all these approaches are limited by several 
outdated and unique statutory requirements specific to Gulf of Mexico 
red snapper. For example, section 407(c) of the Magnuson-Stevens Act 
provides specific criteria for identifying participants in, and 
weighing votes cast, in referenda conducted in the fishery based on 
participation in the fishery between 1993 and 1996, restricting our 
ability to conduct fair and meaningful referenda on current management 
proposals. And section 407(d) of the statute requires the Gulf Council 
and NMFS to establish a separate catch limit for the recreational 
fishery to apply to both for-hire and private participants, and to 
close that fishery inseason when we determine the catch limit has been 
reached.
    Many fish stocks in the Southeast Region are managed together with 
other stocks in mixed stock complexes. The requirement to end 
overfishing of all stocks in mixed-stock fisheries has protected less 
productive species but could reduce the yield of healthy stocks in the 
same complex. Also, a number of fisheries in the Southeast Region are 
extremely data limited, making it challenging to manage and monitor 
annual catch limits in the way Congress envisioned when they last 
reauthorized the Magnuson-Stevens Act in 2007. In the U.S. Caribbean, 
data are too limited to produce meaningful stock assessments. Looking 
ahead, we must continue to improve the quality and quantity of 
scientific data, continue progress made on addressing overfishing and 
rebuilding stocks, continue to explore new and innovative management 
tools, and better address the difficult transitions that can come with 
management changes leading to more biologically and economically 
sustainable fishery resources.
    Improvements to our stock assessments and monitoring efforts will 
lead to more effective annual catch limits and accountability measures. 
Ensuring solid, science-based determinations of stock status and 
responsive management will also require better linkages to ever-
shifting biological, socio-economic and ecosystem conditions. U.S. 
fisheries are extraordinarily diverse in value, participation and 
science needs. The Magnuson-Stevens Act provides flexibility in 
adapting management plans to the life history differences among species 
and nuances of particular fisheries, as well as to the unique regional 
and operational differences among fisheries and in the fishing 
communities that they support.
    We value the important partnerships we have formed with the states, 
fishermen and other interest groups in helping address these 
challenges. These partnerships are critical to developing successful 
management strategies. Together with our partners, we continue to 
explore alternative and innovative approaches that will produce the 
best available information to incorporate into management.
    It is also increasingly important that we better understand 
ecosystem and habitat factors, such as the effects of climate change, 
hurricanes, large-scale flooding and drought events, and oil spills in 
the Gulf of Mexico, and incorporate them into our stock assessments and 
management decisions, because resilient ecosystems and habitat form the 
foundation for robust fisheries and fishing jobs. The Gulf of Mexico 
has experienced an unprecedented number of natural and man-made 
disasters over the last decade, all of which have impacted commercially 
and recreationally important species and their habitats. Most recently, 
U.S. Secretary of Commerce Penny Pritzker declared a commercial fishery 
failure for the oyster fishery along the west coast of Florida, which 
was impacted by excessive drought conditions in Apalachicola Bay and 
elsewhere in the Florida panhandle during the 2012-2013 winter fishing 
season. Similarly, it is important that we meet our responsibilities 
under the Magnuson-Stevens Act in concert with related legislation, 
such as the Marine Mammal Protection Act and the Endangered Species 
Act, to reduce bycatch of protected species to mandated levels. As we 
end overfishing and rebuild stocks, the strategic alignment of habitat 
and protected species conservation efforts with rebuilding and managing 
fish stocks will be a key component of NOAA's success.
    NOAA supports the collaborative and transparent process embodied in 
the Councils, as authorized in the Magnuson-Stevens Act, and strongly 
believes that all viable management tools should continue to be 
available as options for the Councils to consider when developing 
management programs.
    It is critical that we maintain progress towards meeting the 
mandate of the Magnuson-Stevens Act to end overfishing and rebuild 
overfished stocks. Annual catch limits have been an effective tool in 
improving the sustainability of fisheries around the Nation, but 
managing fisheries using annual catch limits and accountability 
measures was a major change for some fisheries, and the initial 
implementation has identified some areas where we can improve that 
process. We will continue to work with the Councils to achieve the best 
possible alignment of science and management for each fishery to attain 
the goals of the Magnuson-Stevens Act. A primary goal in the Southeast 
Region is to bring more stability to recreational fisheries and ensure 
the fishery management response to recreational catch trends is 
appropriate. Also, we want to ensure that fishermen are motivated to 
provide timely, accurate catch data.
The Next Reauthorization of the Magnuson-Stevens Act
    With some of the largest and most successful fisheries in the 
world, the U.S. has become a global model of responsible fisheries 
management. This success is due to strong partnerships among the 
commercial and recreational fishing, conservation, and science and 
management communities. Continued collaboration is necessary to address 
the ongoing challenges of maintaining productive and sustainable 
fisheries.
    The Managing Our Nation's Fisheries 3 conference--co-sponsored by 
the eight Councils and NMFS--brought together a broad spectrum of 
partners and interests to discuss current and developing concepts 
addressing the sustainability of U.S. marine fisheries and their 
management. The conference was developed around three themes: (1) 
improving fishery management essentials; (2) advancing ecosystem-based 
decision making; (3) and providing for fishing community 
sustainability.
    We were excited to see a wide range of stakeholders represent many 
points of view, from commercial and recreational fishing, to the 
conservation and science and management communities. Before the last 
reauthorization, we co-sponsored two of these conferences, and they 
played an important role in bringing people together and creating an 
opportunity to present ideas and understand different perspectives. We 
expect the ideas that emerged from this event to inform potential 
legislative changes to the Magnuson-Stevens Act, but the benefits are 
much greater than that. The communication across regions and Councils 
provided an opportunity to share best practices and lessons learned, 
and could also inform changes to current policy or regulations that can 
be accomplished without statutory changes.
Conclusion
    Because of the Magnuson-Stevens Act, the U.S. has made great 
progress in ending overfishing in federally-managed fisheries, 
rebuilding overfished stocks, and ensuring conservation and sustainable 
use of our marine fisheries. Fisheries harvested in the U.S. are 
scientifically monitored, regionally managed, and enforced under 10 
national standards. But, we did not get here overnight. Our Nation's 
journey toward sustainable fisheries has evolved over the course of 35 
years.
    In 2007, Congress gave NOAA and the Councils a clear mandate, new 
authority, and new tools to achieve the goal of sustainable fisheries 
within measurable timeframes. Notable among these were the requirements 
for annual catch limits and accountability measures to prevent, respond 
to, and end overfishing--real game changers in our national journey 
toward sustainable fisheries, and ones that are rapidly delivering 
results.
    This progress has been made possible by the collaborative 
involvement of our U.S. commercial and recreational fishing fleets and 
their commitment to science-based management, improving gear-
technologies and application of best-stewardship practices. We have 
established strong partnerships among NOAA, the states, the Councils 
and the fishing industries. By working together through the highly 
participatory process established in the Magnuson-Stevens Act, we will 
continue to address management challenges in a changing environment.
    It is important to take time and reflect on where we have been to 
understand where we are. We have made great progress but our 
achievements have not come easily, nor will they be sustained without 
continued attention. This is a critical time in the history of Federal 
fisheries management, and we must move forward in a thoughtful and 
disciplined way to ensure our Nation's fisheries are able to meet the 
needs of both current and future generations. We will take the 
recommendations from the Managing Our Nation's Fisheries 3 conference, 
and look to the future in a holistic, comprehensive way that considers 
the needs of the fish and the fishermen, and the ecosystems and 
communities. We look forward to these discussions.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act. I am available to answer any 
questions you may have.

    Senator Begich. Thank you very much for your testimony.
    Next we have Douglass Boyd, Chairman, Gulf of Mexico 
Fisheries Management Council. Mr. Boyd, I have to step out for 
about a minute here, so I apologize. But please go ahead and 
start your testimony.

 STATEMENT OF DOUGLASS BOYD, CHAIRMAN, GULF OF MEXICO FISHERY 
                       MANAGEMENT COUNCIL

    Mr. Boyd. Thank you, Mr. Chairman. Senator Begich, Ranking 
Member Senator Rubio, and Subcommittee members: Thank you for 
this opportunity to share with you the perspectives of the Gulf 
of Mexico Fishery Management Council relevant to the 
reauthorization of the Magnuson-Stevens Act. My name is 
Douglass Boyd and I'm the current Chairman of the Gulf of 
Mexico Fishery Management Council and I'm in my fourth year as 
a member.
    The Gulf Council currently has six fishery management plans 
that actively manage 40 finfish and shellfish species, plus 
numerous species of corals. Four of our fishery management 
plans are multi-species, including reef fish, coastal migratory 
pelagics, corals, and shrimp. The single-species fishery 
management plans include spiny lobster and red drum. Nineteen 
of our managed 40 species have been evaluated by formal stock 
assessments.
    The Gulf Council is dedicated to managing fish as a primary 
goal, but must balance competing science, social, and economic 
objectives, as stated in the ten national standards. The 
council strives to manage our fisheries for the greatest 
overall benefit to the Nation in a fair and equitable manner 
while addressing the best available science, socioeconomic 
communities, economic efficiency, and our changing 
environmental conditions.
    The Gulf Council feels that, while the Act is sound in 
basis, improvement could be considered during reauthorization 
in areas of administration, science, and management 
application. Specifically, an ongoing challenge in rebuilding 
timeframes for the Gulf Council is a lack of flexibility. The 
rebuilding of a particular stock as quickly as practical is 
desirable. However, the current mandated rebuilding times are 
inflexible and at times contradictory. Rebuilding times should 
have the flexibility to be tailored to the biological and 
socioeconomic characteristics of each stock. Statutory 
refinement in this reauthorization could provide greater 
flexibility regarding rebuilding plans by requiring overfished 
stocks to be rebuilt to MSY, or optimum yield, as quickly as 
possible and in a manner that protects an overfished stock from 
further decline.
    One of the more complex issues facing the Gulf Council is 
the management of our mixed use fisheries and balancing 
competing interests between commercial and recreational 
sectors. We encourage the Committee to consider new approaches 
to managing recreational fisheries, as they considered in the 
last reauthorization innovative ways to manage commercial 
fisheries. Consideration could be given to successful 
management techniques employed in State management of 
recreational fisheries.
    Science is the foundation for fisheries management. The 
demand for science in stock assessments from the three 
Southeast regional councils is greater than our science 
centers' capacity, production capacity. The loss of experienced 
personnel and the training time for stock analysts, along with 
reduced funding, has resulted in a competitive process for 
science center resources. Continued and additional financial 
investment in stock assessment capability is of the greatest 
importance in this reauthorization process.
    Cooperative research programs provide a means to improve 
the accuracy of stock assessments and engage stakeholders in 
the research process. Many of these important programs face 
inadequate or uncertain funding from year to year. 
Reauthorization should include provisions for funding 
cooperative research programs.
    Councils depend on effective monitoring and reporting 
systems to help inform and corroborate catch and bycatch 
estimates and dictate potential problems as early as possible. 
An amendment to the Act should contain specific provisions 
securing long-term funding for monitoring and reporting 
systems.
    Section 407 of the Magnuson-Stevens Act pertains to the 
management of Gulf red snapper. This section needs updating and 
revision. Specifically, the referendum requirements for 
individual fishing quota programs are inconsistent for 
referenda across the various regional councils and IFQ programs 
implemented in the Gulf region.
    Specific portions of the section are outdated. 
Reauthorization should revisit Section 303(a)(6)(D) and Section 
407. As currently used in the Magnuson-Stevens Act, the terms 
of ``overfishing'' and ``overfished'' are sometimes treated the 
same and used interchangeably, leading to confusion of intent. 
In reauthorization Congress could provide clear definitions as 
to separate criteria for excessive fishing rates and poor stock 
health respectively.
    Mr. Chairman, thank you for the opportunity of speaking 
with you today. I'd be happy to answer any questions.
    [The prepared statement of Mr. Boyd follows:]

 Prepared Statement of Douglass Boyd, Chairman, Gulf of Mexico Fishery 
                           Management Council
Introduction
    Chairman Senator Mark Begich, Ranking Member Marco Rubio and 
Subcommittee members, thank you for this opportunity to share with you 
the experiences and perspectives of the Gulf of Mexico Fishery 
Management Council (Gulf Council) relevant to the reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2006 (Magnuson-Stevens Act).
    My name is Douglass Boyd and I am the Chair of the Gulf of Mexico 
Fishery Management Council and currently in my fourth year as a member.
    The Gulf Council has six fishery management plans that actively 
manage 40 finfish and shellfish species plus numerous species of 
corals. Nineteen or roughly half of our managed species have been 
evaluated by formal stock assessments.
    The Magnuson-Stevens Act established a framework for sustainable 
fishery management which has contributed to the rebuilding of many 
depleted U.S. fisheries and serves as an example of proactive 
management for the world. As we prepare for the reauthorization of the 
Magnuson-Stevens Act, I think it is important to ensure that its 
requirements will position the regional fishery management councils to 
manage fisheries for the greatest overall benefit of the nation, across 
the full spectrum of stock assessment characteristics, stock 
conditions, and dynamic environmental conditions.
    The Magnuson-Stevens Act delegates a portion of decision-making 
authority to the individuals on Councils who are most familiar with 
each region's fisheries. As such, this allows management plans to be 
tailored to the specific characteristics of each fishery. During this 
past year in discussions about reauthorization of the Magnuson-Stevens 
Act, it has become apparent that the Councils need more flexibility to 
make the decisions that are best for each species and respective 
fisheries.
    My testimony today will outline the progress we have made in the 
Gulf of Mexico since 2006 and will identify several critical challenges 
and opportunities. During this reauthorization to the Magnuson-Stevens 
Act, the Gulf Council believes there are opportunities to make small, 
targeted changes that can provide major long-term improvements in our 
ability to manage adaptively without jeopardizing the sustainability of 
our fisheries.
    Relative to overfishing status, in 2006 we had five Gulf of Mexico 
federally managed species that were undergoing overfishing; however, 
today we have no species classified as undergoing overfishing. We are 
proud of this achievement and partly credit the 2006 reauthorization.
    Relative to overfished status, in 2006 we had red snapper and 
greater amberjack were our only overfished species. Today we have four 
species considered to be overfished. Of the two new overfished species 
one is the result of changing environmental conditions and the other 
due to unique life history characteristics making it more susceptible 
to becoming overfished.
    The 2006 reauthorization, combined with several natural and man-
made events, have altered management in ways that could not have been 
foreseen. The hurricane seasons of 2004 and 2005 were among the most 
active and destructive in Gulf of Mexico history, causing widespread 
damage to fishing communities and vessels around the coast. In 2010 the 
Deepwater Horizon oil spill resulted in a closure to fishing of 
approximately a third of the Gulf of Mexico for most of the summer. 
Even in areas not directly impacted by the closure, fishing activity 
suffered as tourists avoided the Gulf of Mexico and greatly reduced 
consumption of safe and previously valued finfish and shellfish. While 
stocks managed by the Gulf Council appear to have escaped immediate 
damage, the long-term effects on fish and habitat remain to be 
determined.
    The 2006 reauthorization introduced several changes to the 
Magnuson-Stevens Act. From a management perspective, the most 
significant changes were:

  <bullet> The requirement that rebuilding plans end overfishing 
        immediately.

  <bullet> The requirement that all managed stocks have annual catch 
        limits.

  <bullet> The addition of a limited access privilege program 
        referendum process for stocks other than red snapper.

    Prior to 2006, the Magnuson-Stevens Act required that rebuilding 
plans end overfishing but did not require that they do so immediately. 
Whereas previously we could implement a gradual reduction in fishing 
mortality to balance conservation with socio-economic needs, currently 
we are forced to end overfishing immediately with no leeway to take 
into account short-term socio-economic impacts.
Rebuilding Timeframes
Challenges
    One of the ongoing challenges of the rebuilding timeframes for the 
Gulf Council is lack of flexibility. The Gulf Council understands that 
a healthy stock provides higher catch levels than one that is 
overfished and thus provides greater long-term socio-economic benefits. 
Therefore, rebuilding a stock as quickly as practicable is desirable. 
However, the current Congressional mandated rebuilding timelines are 
inflexible and, at times, contradictory. For example, a stock that 
takes less than 10 years to rebuild in the absence of fishing mortality 
requires more restrictive management than a stock that is more severely 
overfished and takes more than 10 years to rebuild.
Tools, Resources, and Statutory Refinement Needs
    One suggestion for statutory refinements to the Magnuson-Stevens 
Act would be to have greater flexibility for the Councils regarding 
rebuilding plans. Rather than a fixed 10-year maximum rebuilding 
period, rebuilding times should have the flexibility to be tailored to 
the biological and socio-economic characteristics of each stock.
    By allowing the Councils greater flexibility, we would be afforded 
the opportunity to design rebuilding plans and respond to ending 
overfishing that would be more appropriate for the life history of a 
particular stock. Greater flexibility would also allow a council to 
reduce severe short-term social and economic impacts without 
jeopardizing the ability of a stock to rebuild to maximum sustainable 
yield (MSY). Congress can still provide appropriate guidance by 
requiring overfished stocks to be rebuilt to MSY or optimum yield (OY) 
as quickly as practicable, and in a manner that protects an overfished 
stock from further decline.
Establishing Annual Catch Limits
Challenges
    Annual catch limits (ACLs) and accountability measures (AMs) have 
the potential to be powerfully effective management tools, but their 
utility depends on the quality of the data used to assess stock size 
and to set appropriate catch limits. The new system of ACLs and AMs has 
worked well in fisheries that have moderate to high levels of data and 
stock assessments upon which to establish an appropriate ACL, but 
establishment of ACLs for data-poor fisheries and mixed stock fisheries 
has been challenging. These fisheries often lack the life history 
information (e.g., age and growth, size at reproductive maturity, and 
reproductive potential) and, in some cases adequate catch and effort 
data that are needed to scientifically estimate ACLs or to manage them 
effectively with AMs. This lack of basic fishery data precludes or 
complicates the application of any scientific method for establishing 
ACLs for data poor stocks. Conversely, stocks that have been well 
studied with enough information to complete a stock assessment have the 
scientific basis for establishing appropriate ACLs.
    The biggest ACL-related challenges encountered by the Gulf Council 
is establishing ACLs for its reef fish species that constitute 
incidental catches within the grouper and snapper targeted fisheries. 
For multi-species targeted fisheries, the mandate to establish ACLs for 
incidental species can lead to closures that cause unnecessary economic 
losses relative to the harvest of the targeted species and with minimal 
biological gain for either the targeted or incidental species. In other 
instances, it may be very important to control incidental fishing 
mortality on a stock in a mixed fishery. The councils should have the 
ability to determine the appropriate measure to use depending on the 
particular characteristics of a fishery in order to achieve their 
management objectives. Undesirable closures of target fisheries due to 
ACLs established for incidental species usually result in unnecessary 
economic losses relative to the harvest of the targeted species and 
minimal biological benefits.
Tools, Resources, and Statutory Refinement Needs
    The 2006 reauthorization required ACLs and AMs for all managed 
stocks. The implementation of recreational AMs, including paybacks for 
overages, has been difficult in some instances. The Councils need 
flexibility to determine which fishery and in which circumstances an 
ACL is most appropriate. Many fisheries are appropriately managed with 
ACLs but there are instances when ACLs are not the optimal management 
strategy and there are no clear benefits achieved by establishing them.
    A first step in this direction would be for Congress to maintain 
the overall language for ACLs but to give the Councils the flexibility 
to apply ACLs, where practicable. We need the flexibility to decide 
when an ACL for a data poor or mixed species stock may not be 
appropriate based on current management and monitoring programs. The 
Councils need additional flexibility to more effectively manage small 
scale, incidental, or data-poor fisheries that may be managed more 
effectively using management tools other than ACLs and AMs. Another 
area of flexibility Congress could provide would be to give the 
Councils discretion to make Scientific and Statistical Committee catch 
advice on data-poor stocks advisory rather than binding, if certain 
conditions are met.
Preventing and Ending Overfishing Immediately
Challenges
    In the Gulf of Mexico the greatest economic hardship has resulted 
from the requirement to end overfishing immediately. The requirement of 
the Magnuson-Stevens Act to end overfishing immediately can have 
destabilizing effects on some fisheries. The red snapper and gag 
grouper fisheries have been dramatically impacted by this requirement. 
Specific flexibility to eliminate overfishing under certain 
circumstances over a multi-year period would allow the Councils to 
substantially mitigate short-term social and economic dislocation in 
our managed fisheries. The Gulf Council has a good track record for 
reducing overfishing. Even prior to the 2006 reauthorization, we 
rebuilt the king mackerel and Spanish mackerel fisheries in the Gulf of 
Mexico within a generation time and still allowed a viable fishery to 
operate.
    There also may be some cases where a stock is overfished that some 
transient overfishing could be tolerated during stock rebuilding 
without jeopardizing the stock's ability to recover or to produce MSY 
or OY on a continuing basis. The fishing public can understand the need 
to fish at or below a rate that allows a population to replace itself. 
However, problems occur when their fisheries are forced to endure the 
very low exploitation rates that are often necessary to achieve MSY on 
a long-lived, slow growing stock. The ability to end overfishing over a 
period of time provides the flexibility to implement a rebuilding plan 
in balance with potential negative economic impacts.
Tools, Resources, and Statutory Refinement Needs
    Overfishing should be managed as a transient condition (i.e., a 
rate) that can occur on both overfished stocks and stocks that are not 
overfished. Temporary or short-term overfishing on a non-overfished 
stock, which can often be corrected in a relatively short period of 
time, does not jeopardize the long-term ability of a stock to achieve 
MSY or OY on a continuing basis. By comparison, an overfished stock is 
the result of years of overfishing or environmental changes that can 
typically only be corrected over a longer time period. The current 
requirement to end overfishing immediately, regardless of whether the 
fishery is actually overfished, has likely caused undue and severe 
economic impacts in U.S. fisheries. Obviously, if overfishing is 
allowed to continue over a long enough time it will result in an 
overfished stock, but overfishing, per se, is not as serious of a 
management problem as is an overfished stock because overfishing over a 
short period of time does not jeopardize the long-term ability of a 
stock to achieve MSY or OY on a continuing basis. Providing for a 
multi-year reduction in fishing rates to eliminate transient 
overfishing conditions, particularly in cases where the stock is 
healthy, would enhance regulatory stability.
Additional Tools, Resources, and Statutory Refinement Needs
Definitions of Overfishing and Overfished
    An additional suggestion for reauthorization is for Congress to 
provide clear definitions of ``overfishing'' and ``overfished'' as 
separate criteria for excessive fishing rate and poor stock health, 
respectively. As currently used in the Magnuson-Stevens Act, the two 
criteria are treated the same and used interchangeably, sometimes 
leading to confusion as to intent. Overfishing is a transient condition 
(i.e., a rate) that can occur on both a healthy and an overfished stock 
and that can be corrected in a relatively short period of time. 
However, an overfished stock is the result of years of overfishing or 
environmental changes that typically can only be corrected gradually 
over a longer time period.
Section 407 Red Snapper Mandates
    Those parts of Section 407 of the Magnuson-Stevens Act that pertain 
to Gulf of Mexico red snapper management need revision to improve the 
management of red snapper in the Gulf of Mexico. Specifically, Sections 
407(b) and (c) should be removed because a red snapper limited access 
privilege program has since been implemented in the Gulf of Mexico. 
Referendum requirements in Section 407(c) should be eliminated since 
Section 303A(c)(6)(D) now provides sufficient guidance regarding 
referendum requirements for modifying existing programs. Referendum 
requirements for limited access privilege programs, in general, are 
inconsistent across the regional Councils and should be revisited 
during this reauthorization.
    Also, Section 407(d) should be eliminated to afford more 
flexibility in managing recreational red snapper quotas to allow for 
more appropriate AMs rather than in-season closures. As written, 407(d) 
prohibits the retention of red snapper by all components of the 
recreational sector once the recreational quota is determined to have 
been met, including charter fishing. An example of how this mandate 
complicates creative management solutions is seen in the recently 
approved pilot study for a cooperative of headboat operators that will 
test the efficacy of a for-hire headboat tradable quota system over the 
next two years. However, due to 407(d), study participants must forfeit 
any remaining quota assigned under the program for a given year, should 
the total recreational quota be determined to have been harvested prior 
to the end of the year.
Fishery Data and Funding
    Science is the foundation for fishery management. The ACL 
requirements have increased the demand for assessment products from the 
regional science centers. The effectiveness of the regional Councils is 
integrally linked with the availability of quality fishery data at 
adequate frequencies. In particular, additional scientific resources 
are needed to bring data-poor stocks up to an adequate assessment 
level.
    The demand for science and stock assessments from the three 
Southeast Region Councils is greater than our science center's 
production capacity. A loss of experienced personnel and the training 
time for stock analysts along with reduced funding has resulted in a 
competitive process for science center resources. Continued and 
additional financial investment in stock assessment capacity is of the 
greatest importance in this reauthorization process.
    Cooperative research programs provide a means to improve the 
accuracy of stock assessments while engaging stakeholders in the 
research process. Despite the importance of these programs, many of 
them face inadequate or uncertain funding from year to year. The 
reauthorization should include provisions for funding of cooperative 
research programs around the country.
    The Councils depend on having effective monitoring and reporting 
systems in place to help inform catch and bycatch estimates and to 
detect potential problems in a fishery as early as possible. Not only 
do these programs require adequate funding to operate, but they require 
consistent funding from one year to the next. Given the critical nature 
of these programs, an amendment to the Magnuson-Stevens Act should 
include specific provisions securing long-term funding for necessary 
monitoring and reporting programs.
    Congress should avoid adding any new unfunded mandates and should 
ensure that appropriate funds are available for the Councils to meet 
the existing requirements of the Magnuson-Stevens Act. Continued 
investment in stock assessment capacity is of paramount concern in this 
reauthorization process.

    Senator Begich. Thank you very much. I apologize, I had to 
step out for a call there.
    Next on the list is Ben Hartig, Chairman of the South 
Atlantic Fisheries Management Council. Thank you very much 
again for being here.

 STATEMENT OF BEN C. HARTIG, CHAIRMAN, SOUTH ATLANTIC FISHERY 
                       MANAGEMENT COUNCIL

    Mr. Hartig. Chairman Begich, members of the Committee: 
Thank you for the opportunity to----
    Senator Begich. Is your mike on?
    Mr. Hartig. Chairman Begich, members of the Subcommittee: 
Thank you for the opportunity to appear before you today to 
discuss the South Atlantic perspective regarding the 
reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act. My name is Ben Hartig. I'm a commercial 
representative from the State of Florida and current Chairman 
of the South Atlantic Council. I'm also a full-time commercial 
fishermen, fishing off the Southeast coast of Florida for over 
36 years. We have addressed the questions posed and have 
provided the information Chairman Rockefeller requested in our 
written testimony.
    It is important to realize that not all of the successes in 
the South Atlantic in ending overfishing and rebuilding stocks 
should be attributed to the 2006 reauthorization. Some of our 
successful rebuilding efforts that are paying dividends today 
were implemented prior to the reauthorization's legal mandates. 
However, there is no question that the current reauthorization 
is working for the fish. Overfishing has ceased for most of our 
assessed species, stocks are ahead or meeting the rebuilding 
time frames in most cases, and fishermen are seeing population 
increases in size and abundance for some species that have not 
been observed in a decade or more.
    We are recommending five areas be addressed in the current 
reauthorization: flexibility in ending overfishing, flexibility 
in rebuilding overfished stocks, defining ``overfishing'' on 
the basis of the recruitment overfishing level and not MSY, 
harvest moratoriums, specifying maximum sustainable yield for 
stock complexes.
    We've established that the 2006 reauthorization is working 
for the fish, but what about the fishermen? Consideration of 
the human element of fisheries management has all but 
disappeared since the 2006 reauthorization and must be 
reintroduced back into the management process. Some balance 
needs to be restored between the needs of the fish and the 
needs of the fishermen.
    In the South Atlantic, the requirement to end overfishing 
immediately is the significant problem. The Act should be 
amended to allow the council latitude to phase in the 
reductions to end overfishing over a longer timeframe and to 
recognize that overfishing has multiple biological definitions.
    We have actually used the approach of phasing in reductions 
necessary to end overfishing over a three-year period for two 
of our important species, Black sea bass and snowy grouper. 
Both species were assessed this year. black sea bass was 
completely rebuilt within its rebuilding schedule and the ABC 
was double. For snowy grouper overfishing is no longer 
occurring and, while still overfished, it is 10 years ahead in 
its rebuilding schedule. Phasing in of catch restrictions 
allowed fishermen time to adjust their business plans to catch 
reductions, reducing the social and economic impacts that occur 
with the current requirements of ending overfishing 
immediately. The South Atlantic Council believes that this is 
strong evidence to support the consideration of longer 
timeframes to end overfishing.
    There must be more flexibility in rebuilding overfished 
stocks by eliminating the arbitrary 10-year requirement and 
using the current biologically based rebuilding period 
alternative of fishing mortality, F equals zero plus one 
generation time. Using MSY as a basis for establishing harvest 
limits is problematic. Estimating MSY and the exploitation rate 
that provides it is difficult. The true danger to a fish stock 
comes when exploitation exceeds the recruitment overfishing 
level.
    Our solution would be to amend the Act to set maximum 
fishing mortality threshold at the recruitment overfishing 
level. This would allow managers to balance foregone yield 
against social, economic, and ecosystem concerns when 
establishing exploitation targets and preventing overfishing.
    Moratoriums that result from ending overfishing immediately 
should be avoided at all costs. They should not be implemented 
where stocks have demonstrated improvement with past management 
controls. Both king and Spanish mackerel were severely 
overfished in the past. Both stocks were rebuilt within one 
generation without having to close the fisheries and have been 
sustainably managed for almost 20 years.
    Mixed species fisheries cannot be adequately managed by 
simplistic application of single-stock principles such as MSY. 
Stocks in a complex will vary in abundance over time. It is 
impossible for all to be at high abundances at the same time.
    Annual catch limits should not be required for unassessed 
stocks due to the fact that historical landings are 
uninformative for estimating stock abundance. Basing ACL's for 
unassessed stocks on the quantitative portion of historical 
landings under the guise of the precautionary principle results 
in ACL's with little scientific basis.
    The South Atlantic Council has faced significant challenges 
implementing the statutory mandates resulting from the 2006 
reauthorization, particularly in ending overfishing 
immediately. We have implemented substantial reductions in 
ACL's for some species and essentially closed one of the most 
important fisheries, red snapper, based on ending overfishing. 
This has come at a high cost to recreational and commercial 
fishermen and the business-related infrastructure they support.
    Based on management successes in the past, council believes 
that there is ample evidence to support extending the time-
frame to end overfishing without impacting rebuilding 
schedules. We respectfully ask that you give due consideration 
to our recommendations so all fishermen in the South Atlantic 
will benefit from your decisions.
    Thank you for allowing me to appear before you today on 
behalf of the Council.
    [The prepared statement of Mr. Hartig follows:]

 Prepared Statement of Ben C. Hartig, Chairman, South Atlantic Fishery 
                           Management Council
    Chairman Begich, members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the South Atlantic 
perspective regarding the Reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA or Act). My name is Ben 
Hartig; I am the commercial representative from the State of Florida 
and current Chairman of the South Atlantic Council. I am also a full 
time commercial fisherman, fishing off the Southeast coast of Florida 
for over 36 years. We have addressed the questions posed and have 
provided the information Chairman Rockefeller requested in our written 
testimony.
    I would like to take this opportunity to thank both the House and 
Senate for dedicating time and resources for the exhaustive review 
regarding the successes and challenges of the 2006 MSA Reauthorization. 
I felt strongly enough about the severe economic consequences 
experienced by both recreational and commercial fishermen in the South 
Atlantic that I attended both of the fishermen's rallies that occurred 
several years ago. My hope was that a fair hearing of the problems 
experienced by fishermen due to the 2006 Reauthorization would be held. 
While the timeliness can be questioned, the number of hearings, the 
caliber and diversity of the witnesses and the commissioning of the 
National Research Council (NRC) study has exceeded my expectations.
    It is important to realize that not all of the successes in the 
South Atlantic in ending overfishing and rebuilding stocks should be 
attributed to the 2006 Reauthorization; some of our successful 
rebuilding efforts that are paying dividends today were implemented 
prior to the reauthorization's legal mandates (e.g., black sea bass, 
king mackerel, Spanish mackerel). However, there is no question that 
the current Reauthorization is working for the fish. Overfishing has 
ceased for most of our assessed species; stocks are ahead of or meeting 
their rebuilding timeframes in most cases and fishermen are seeing 
population increases in size and abundance for some species that have 
not been observed in a decade or more. Red snapper is a prime example 
yet the fishery is still essentially closed. We were only able to allow 
two 3-day seasons last year and 1 3-day season this year for the 
recreational sector while the commercial fishery was limited to 50 and 
75 pound bycatch trip limits with low commercial Annual Catch Levels 
(ACLs), that closed harvest when the allocation was met. Even though 
the seasons were short, a significant portion of the landings of both 
recreational and commercial fisheries was sampled by an unprecedented 
state, Federal and public cooperative effort. Those efforts are vitally 
important for the next stock assessment.
    The South Atlantic Council has identified five areas we propose be 
addressed in the current reauthorization:

  (1)  Flexibility in ending Overfishing.

  (2)  Flexibility in Rebuilding Overfished Stocks.

  (3)  Define Overfishing on the Basis of the Recruitment Overfishing 
        Level and not MSY.

  (4)  Restrictions on Applying Harvest Moratoriums.

  (5)  Maximum Sustainable Yield (MSY) Specification for Stock 
        Complexes.

    We've established that the 2006 Reauthorization is working for the 
fish, but what about the fishermen? Consideration of the ``human 
element'' of fisheries management has all but disappeared since the 
2006 Reauthorization and must be reintroduced back into the management 
process. One example is that National Standard 1 (NS 1) trumps National 
Standard 8 (NS 8), and social and economic considerations are no longer 
allowed in the context on ending overfishing and rebuilding timelines. 
Qualitative changes in stock abundance are no longer relevant, 
anecdotal observations from fishermen no longer considered and the 
Council has been completely removed from the Allowable Biological Catch 
(ABC) selection process once the ABC control rule is established. (NS 
1: Conservation and management measures shall prevent overfishing while 
achieving, on a continuing basis, the optimum yield from each fishery 
for the United States fishing industry. NS 8: Conservation and 
management measures shall, consistent with the conservation 
requirements of this Act (including the prevention of overfishing and 
rebuilding of overfished stocks), take into account the importance of 
fishery resources to fishing communities in order to (A) provide for 
the sustained participation of such communities, and (B) to the extent 
practicable, minimize adverse economic impacts on such communities).
    Some balance needs to be restored between the needs of the fish and 
the needs of the fishermen. In the South Atlantic, it is not the 
rebuilding timelines that are causing the problems but the requirement 
to end overfishing immediately and the Fmsy basis of the overfishing 
definition. The Act should be amended to allow the Council latitude to 
phase in the reductions to end overfishing over a longer time-frame and 
to recognize that overfishing has multiple biological definitions. Our 
South Carolina State Representative, Mel Bell offered a great medical 
analogy that speaks to this issue: ``The current system is designed in 
such a way that if we were talking about a prescribed treatment for a 
patient diagnosed with a serious disease the focus now seems to be on 
the timing of recovery regardless of any serious side effects of the 
treatment. If the patient can be placed on a demonstrable road to 
recovery in such a way that minimizes or balances potential dangerous 
side effects, costs and risks, that would make more sense. It's a 
matter of balancing the need for specific timing in the declaration of 
recovery/cure and the possibility of some very serious complications 
from the chosen prescribed treatment and recovery rate. The mandate 
should be to get on and stay on the road to recovery rather than to 
insist that it must be completed in ``X'' years for every fishery in 
need''.
    The South Atlantic Council has actually used the approach of 
phasing in reductions necessary to end overfishing over a three year 
period for two of our important species black sea bass and snowy 
grouper. Both species were assessed this year. Black sea bass is 
completely rebuilt within the rebuilding schedule and the ABC was 
doubled; for snowy grouper overfishing is no longer occurring and while 
still overfished, it is 10 years ahead of its rebuilding schedule. The 
phasing in of catch restrictions allowed fishermen time to adjust their 
business plans to the catch reductions reducing the social and economic 
impacts that occur with the current situation of ending overfishing 
immediately. The South Atlantic Council believes that this is strong 
evidence to support the consideration of longer timeframes to end 
overfishing. It is important to note that the phase-in periods used in 
these examples included significant reductions in harvest and fishing 
mortality; the delay was simply in achieving a mortality rate below the 
Fmsy level, the overfishing definition prescribed by the MSA. On the 
basis of other important biological measures, such as recruitment 
overfishing and measures of spawning potential, there was considerably 
less delay in ending overfishing.
    That raises the question of just what is meant by overfishing. In 
reality there are various definitions of overfishing. For example, 
recruitment and growth overfishing are basic measures that can be 
readily estimated for most stocks. Of these, recruitment overfishing is 
the most damaging to sustainability, as exceeding this level 
jeopardizes the ability of a stock to replace itself. At the other 
extreme is growth overfishing, where there is no risk to sustainability 
but a loss of potential harvest to the users. Maximum Sustainable Yield 
combines concepts of both the basics of recruitment and growth 
overfishing, and usually lies somewhere between these extremes. 
Unfortunately, Maximum Sustainable Yield is very difficult to estimate 
for fish populations. Another issue with MSY lies in the way 
constituents typically perceive overfishing. Non-scientists tend to 
recognize overfishing in the recruitment sense, since when they 
encounter fewer fish they recognize a problem in the population. They 
will often support some level of regulation to reverse such situations, 
but have difficulty understanding the need for the more severe 
regulations necessary to end MSY-based overfishing.
    Overfishing based on MSY standards has been and continues to be a 
problem in the South Atlantic for a number of reasons. Early 
assessments for snapper/grouper species were much simpler and less 
scientifically rigorous than statistical catch at age models currently 
used. As a result, they could not provide estimates of MSY so 
alternatives were chosen for evaluating overfishing. These alternatives 
were typically based on preventing recruitment overfishing to ensure 
sustainability. The new generation of stock assessment scientists or 
``mathemagicians'', which I do not use as a disparaging term but a 
compliment, are able to do so much more with so little data. This has 
resulted in estimates of MSY for more stocks, but in many cases these 
MSY levels allow much less fishing pressure than the earlier measures. 
In addition, while we have received results from stock assessments 
including analysis with less than optimal data, there are costs 
associated with those results in the form of ``data uncertainty''. This 
has to be quantified in the assessment and the impacts come in the form 
of lower catch estimates and it is the fishermen that pay a high price 
for not having adequate data. Virtually every first-time assessment 
done by these new analysts for species in the snapper/grouper complex 
indicates overfishing is occurring or approaching overfishing, or the 
stock is overfished or both stock conditions exist.
    An example of a recent first time assessment is blueline tilefish. 
The results from that assessment indicate that overfishing is occurring 
and the stock is precariously close to becoming overfished. To end 
overfishing immediately the Council needs to reduce landings by 68 
percent based on the current Act. That's a tough pill for our 
recreational and commercial fishermen to swallow. The social and 
economic impacts could be substantially reduced by allowing overfishing 
reductions to be phased in over a longer time period. The Council is 
planning on using emergency action to implement the necessary 
reductions at the December meeting.
    Another problem the Council faced in the past was setting quotas in 
declining fisheries. The Council would set an ABC from a simplistic 
assessment expecting the stock to rebuild. By the time the stock was 
assessed again the landings continued to decline and a new lower quota 
was implemented. Chasing declining fisheries was a problem until the 
new generation of stock assessment scientists arrived with the 
implementation of the Southeast Data and Assessment Review in 2002. 
This is a stock assessment process developed to improve the quality and 
reliability of stock assessments in the Southeast. The Council has been 
diligent in implementing scientific stock assessment recommendations 
over the years and in the case of greater amberjack enacted more 
restrictive regulations than the assessment indicated were needed based 
on fishermen's perspectives of stock condition. The regulations worked 
and by the time the greater amberjack stock was assessed for the first 
time by the new generation of stock assessment scientists the fishery 
was in a sustainable condition.
Data/Research/Assessment Process
    The 2006 MSA Reauthorization was predicated on having the necessary 
data, research and assessment processes in place and operating. This is 
simply not the case in the Southeast:

  <bullet> ACL monitoring--still having difficulty tracking commercial 
        landings in a timely manner and recreational landings continue 
        to be a challenge. This results in continued ACL overages.

  <bullet> Biological samples--insufficient fish sampled for length, 
        otoliths for aging and reproductive condition. Staff resources 
        to read otoliths and process the reproductive samples are 
        severely limited. This results in more uncertainty in stock 
        assessment results.

  <bullet> Assessments -not enough stock assessments in a timely 
        manner. This results in delays to increases and/or decreases 
        that may be necessary in management limits and regulations.

    A potential solution to ACL monitoring would be to fully implement 
ACCSP Quota Monitoring in the Southeast based on state landings as is 
done from North Carolina northwards. Additional funding should be 
provided to the states to collect biological samples and improve their 
monitoring of commercial and recreational landings.
Flexibility in Rebuilding Overfished Stocks
  <bullet> Current rebuilding requirements include an arbitrary time 
        period of 10 years and a science-based alternative 
        incorporating productivity.

  <bullet> Nonsensical outcomes result when stocks approach the 
        mandatory 10-year limit under the unrealistic moratorium terms. 
        A moratorium is required if a stock can rebuild in 10 years 
        with no fishing. If the same stock were just a little worse off 
        to start, such that it would take 11 years to rebuild with a 
        moratorium, that rebuilding time would become 11 years plus a 
        generation. Thus, if a stock gets a little worse off before the 
        need for rebuilding is recognized, the rebuilding plan can be 
        much more liberal and tolerable to fishermen.

  <bullet> The 10-year rebuilding time-frame does not treat all stocks 
        with varying life histories fairly and adequately. Short-lived 
        stocks can experience several generations in that time, while 
        long-lived stocks may only experience a small portion of a 
        generation.

  <bullet> Single stock moratoriums in a multi-stock fishery are 
        impractical, unrealistic and result in unnecessary impacts on 
        healthy stocks in the complex.

    The South Atlantic Council recommends that the rebuilding time 
requirement be simplified, by eliminating the arbitrary 10 year 
requirement and using the current biologically based rebuilding period 
alternative of Fishing Mortality (F)=0 + 1 generation time for all 
situations.
FMSY is a Good Target but a Bad Limit
    Fmsy is defined as the fishing mortality rate that would, in 
theory, give the Maximum Sustainable Yield (MSY) from a particular 
stock year after year.

  <bullet> Estimating maximum sustainable yield, and the exploitation 
        rate that provides it, is difficult

  <bullet> The true danger to a fish stock comes when exploitation 
        exceeds the recruitment overfishing level. (Recruitment 
        overfishing is the rate of fishing above which the recruitment 
        to the exploitable stock becomes significantly reduced. It is 
        characterized by a greatly reduced spawning stock, a decreasing 
        proportion of older fish in the catch, and generally very low 
        recruitment year after year.)

  <bullet> Fishermen perceive or relate to overfishing at the 
        recruitment overfishing level, and are often willing to give up 
        some yield of one stock to preserve access to a broader, multi-
        species resource. Problems arise, however, when they are forced 
        to endure the very low exploitation rates that are often 
        necessary to achieve MSY on long-lived, slow-growing stocks.

  <bullet> Stocks rebuild when fishing mortality is reduced below the 
        recruitment overfishing level and recruitment improves even if 
        the exploitation rate is above Fmsy.

  <bullet> It is unlikely that each stock in a complex can be at MSY 
        simultaneously, despite the best intentions of fishery 
        managers. Even if that were possible, we simply do not know 
        what that MSY level would be. Our best assessments struggle to 
        provide robust estimates of MSY for a single species, but much 
        less so when the interactions between species are considered 
        and addressed.

  <bullet> The South Atlantic Council's solution would be to amend the 
        Act to set Maximum Fishing Mortality Threshold at the 
        recruitment overfishing level.

  <bullet> This will allow managers to balance foregone yield (growth 
        overfishing) against social, economic and ecosystem concerns 
        when establishing exploitation targets and preventing 
        overfishing.
Impose Restrictions on Applying Harvest Moratoriums
  <bullet> Single-species moratoriums in a multi-species complex are 
        impractical, unrealistic and result in unnecessary impacts on 
        healthy stocks (e.g., high level of discards).

  <bullet> Implementing measures to immediately end overfishing on a 
        single component stock of a complex has undesirable adverse 
        impacts on other species in the complex.

  <bullet> Moratoriums should be limited to extreme cases where a 
        fishery has not responded to management, and should not be 
        considered in the first effort to recover a newly recognized 
        overfished stock.

  <bullet> Complete harvest moratoriums should not be implemented if 
        resources are not available to monitor the population when 
        fishery-dependent data are lost due to regulations.

  <bullet> Due to a lack of adequate fishery-independent monitoring and 
        fishery observer coverage, the South Atlantic Council is faced 
        with no means to remove harvest moratoriums on 4 stocks that 
        cannot be assessed because those harvest moratoriums eliminated 
        the only available data source.

    Red snapper is a case where an existing rebuilding plan 
demonstrated evidence of stock improvement under existing regulations. 
In fact, recreational and commercial fishermen were experiencing 
increases in size and abundance that had not been seen in a decade or 
more. The 2010 assessment verified, in part, the observations of the 
fishermen that a large year class had entered the fishery. That large 
year class was the direct result of management regulations that had 
been in place prior to the moratorium. While those prior regulations 
were not enough to end overfishing as based on MSY, they were obviously 
adequate to allow the stock to 'turn the corner' toward recovery, show 
a gradual increase in spawner abundance, and produce the best year 
class on record. Although the 2010 assessment alleviate the need for 
the Council to close large areas to all fishing, it still indicated a 
very low catch level was needed to end overfishing immediately. 
Management evaluations indicated that the very low allowable catch 
would be consumed by the discard losses of red snapper encountered as 
bycatch as fishermen pursued other species in the complex. Consequently 
the Council had no choice but to impose a harvest moratorium on red 
snapper. It has been impossible to convince fishermen that a moratorium 
was needed when they were experiencing the best red snapper fishing in 
decades. Particularly, it was difficult to convince them of the 
inadequacy of the previous regulations that were, to them, responsible 
for the improvements in stock abundance readily apparent to all. Those 
regulations reduced fishing mortality, likely ended recruitment 
overfishing, but fell short of preventing MSY-based overfishing, at 
least based on the current estimates of abundance and productivity.
    Due to this separation between what fishermen are seeing and the 
regulations the Council is forced to implement in an effort to apply 
MSY concepts to a poorly sampled multi-species complex, the Council has 
lost all credibility in a large portion of its jurisdiction. That 
credibility was hard won and had come primarily from examples in king 
and Spanish mackerel management. In the mid-1980s the Council had faced 
similar circumstances with regard to the king and Spanish mackerel 
fisheries. These fisheries represent the largest single species 
landings that the Council manages (Spanish and king mackerel ABCs 6.063 
and 10.46 million pounds, respectively). Prior to the 1980s, king and 
Spanish mackerel catches were essentially unregulated. The fishery was 
sustainable throughout most of its history (there are commercial 
landings going back to the late 1800s for Spanish mackerel) primarily, 
as a commercial gillnet fishery with a substantial recreational 
component. Due to their migratory nature, both king and Spanish 
mackerel are available during some portion of the year to all fishermen 
in the South Atlantic. In the summer they can be found as far north as 
Maine and support important fisheries north of the Council's 
jurisdiction.
    Introduction of airplane reconnaissance and large power-assisted 
run-around gillnets in the commercial sector in 1970s took advantage of 
the tight over-wintering schooling behavior exhibited off Florida and 
greatly increased catches. Harvests by both recreational and commercial 
fisheries in the 1970s and early 1980s exceeded reproductive capacity 
and led to overfishing. The South Atlantic Council developed a plan to 
end overfishing and Federal regulations were implemented in 1983 to 
control harvest and rebuild depleted stocks of both king and Spanish 
mackerel. Management measures developed by the Council for Atlantic 
migratory group king and Spanish mackerel were very successful in 
rebuilding stocks, while at the same time the mackerel fisheries 
remained viable for both recreational and commercial fishermen. Both of 
these stocks were rebuilt within one generation and neither fishery was 
placed under a moratorium. The commercial fisheries were closed when 
the restrictive quotas were met and the recreational fishery remained 
open under restrictive bag limits. Current assessments indicate both 
stocks remain healthy and the Spanish mackerel biomass is substantially 
above MSY.
    The mackerel management history indicates that the current red 
snapper moratorium could and should have been avoided. Some may argue 
that red snapper is a reef fish and not comparable biologically to the 
mackerels, when in fact their biological characteristics are very 
similar. Mackerel are fast growing and mature early. We have documented 
4-year old red snapper weighing 17 pounds, which is actually faster 
growing than the mackerels, and red snapper are mature at age 2, 
somewhat faster than king and about the same as Spanish mackerel. The 
significant difference between red snapper and mackerels is the maximum 
age; red snapper can live into their 50s while most mackerels live half 
as long.
    Prior to the 2006 MSA Reauthorization, the Council could have 
developed regulations to phase out overfishing over several years, 
similar to what was done for black sea bass and snowy grouper, by 
imposing significant reductions in mortality to end recruitment 
overfishing and continue rebuilding, and in doing so balance the needs 
of the stock with those of the fishery. It is no longer possible to end 
recruitment overfishing and allow stocks to begin recovery, while 
possibly allowing some growth overfishing to continue as a means to 
potentially offset severe social and economic consequences. As 
previously mentioned, public faith in the Council process has declined 
considerably as the red snapper closure has dragged on, and confidence 
in the management system remains low today.
    There is also the question of missed opportunities that sometimes 
arise when severe management restrictions are needed. Instead of a 
moratorium the Council, before the 2006 Reauthorization, could have 
implemented the significant reductions in mortality to end recruitment 
overfishing and continue rebuilding, designated an MPA in the heart of 
the red snapper fishery as an insurance policy that would have 
protected a portion of that large year class as well contributing the 
same protections to a myriad of other species, and closed the fishery 
during the spawning months as red snapper form significant spawning 
aggregations. Those options would have been much more palatable to the 
public in the context of a complete closure. Furthermore, the fishery-
dependent data stream critical to the last assessment would have 
continued allowing the next assessment to be done 2-3 years earlier 
than waiting on the new fishery-independent survey to be developed and 
have a time series long enough to discern population differences.
Allow MSY Specification for Stock Complexes
  <bullet> Mixed-species fisheries cannot be adequately managed by 
        simplistic application of single-stock principles such as MSY.

  <bullet> Stocks in a complex will vary in abundance over time and it 
        is impossible for all to be at high abundances at the same 
        time.

  <bullet> We lack both the ecosystem and fishery data necessary to 
        attempt to estimate multi-species MSY levels for species 
        complexes.

  <bullet> Desired fishery yield should be specified for overall 
        complexes, while allowing individual stocks within the complex 
        to experience normal variability in abundance from year to 
        year.

  <bullet> The South Atlantic Council asks that the challenges of 
        managing multi-species fisheries be acknowledged, and that the 
        Act remove the expectation that all stocks can be managed at 
        MSY at the same time.
Do not Require ACLs for Unassessed Stocks

  <bullet> Basing ACLs for unassessed stocks on a quantitative portion 
        of historical landings under the guise of the precautionary 
        principle results in bogus ACLs with scant scientific basis.

  <bullet> ACLs derived from catch may be artificially low, decreasing 
        fishery yield, or too high, posing risk to the stock.

    Neither scientists nor managers can make informed recommendations 
without legitimate assessments because historical landings are 
uninformative for estimating stock abundance.
Challenges
    The Snapper/Grouper fishery in the South Atlantic poses the most 
significant challenges for the Council. The Coastal Migratory Pelagic 
Fisheries have been on autopilot since the late 1990s (king mackerel 
showing lower recruitment recently but the assessment begins in 
December of this year) and the dolphin and wahoo fisheries are cruising 
along without any major concerns. But the dolphin (Mahi Mahi) fishery 
has raised discussion in the context of fisheries that exist almost as 
annual crops but not quite. Ninety-seven percent of the dolphin are 
caught at age 1 and they only live to 4 years of age. If there could be 
some clarification if a species with these biological traits could be 
considered an annual crop that would be helpful.
    The Snapper/Grouper fishery is composed of 60 species with varying 
life history characteristics, catchability and depth preferences.
Examples of stated problems from independent reviewers as part of the 
        NOAA Data Review of the SEFSC
    Data currently used in assessments, for most of our assessed 
species, are deficient in both quality and quantity for producing 
robust assessments. One of the reviewers from the Data Review for Gulf, 
South Atlantic and Caribbean Councils conducted by the Southeast 
Fisheries Center (SEFSC) this past summer indicated that: ``In general, 
sample sizes for age information, in both commercial and recreational 
fisheries, in all southeast regions, are smaller than what would be 
optimal for age-structured assessments of even the primary species. In 
some cases, they are truly limiting the SEFSC's ability to conduct age-
based assessments. One major concern that needs to be addressed is the 
minimum sample sizes needed to represent the age distribution in the 
catch in a statistically reasonable manner.'' Confounding this problem, 
the SEFSC simply does not have enough personnel to process age samples 
and in some instances hard parts used in age determination are 
subsampled and the remainder archived for possibly future analysis. 
``The Center's ability to process biological samples is on really 
tenuous grounds, and in some cases it is a lack of personnel that 
prevents the processing of archived and even contemporary samples. 
Processing of biological samples is an essential function for stock 
assessments, and these positions need to be secure to insure the 
availability of qualified staff (Reviewer #2, Data Review, SEFSC).''
SEFSC Facing Many Challenges
  (1)  Two SEFSC Laboratories are successful at aging some species, 
        however, species-specific aging workshops are needed to 
        increase accuracy and precision for estimated ages.

  (2)  Age validation studies are needed.

  (3)  Current staffing levels are insufficient to meet workload 
        demands.

  (4)  Dependency on extramural grant funding creates high turnover 
        rates and valuable time is spent retraining new employees.

  (5)  Need for increased reproductive sampling across the Center's 
        entire jurisdiction.
Challenges in the Recreational Fishery
  (1)  Coarse spatial resolution of the data.

  (2)  Large uncertainty in the estimates of effort.

  (3)  Lack of biological samples (length, weight and especially hard 
        parts for aging).

  (4)  Uncertainty in discard estimates.

  (5)  Complete lack of biological data for discards

  (6)  Not all discards are related to minimum size.

    The recreational fishery can account for 50 percent or more of the 
total landings and discards for many reef species, and recreational 
discards may be 2 to 3 times the landings for some fisheries.
Fishery-Independent Data in the South Atlantic
    The paucity of the fishery-independent data, especially in the 
South Atlantic and Caribbean was a frequent theme throughout the Data 
Review meeting.
    The precision and accuracy of stock assessment results are greatly 
improved with the inclusion of reliable fishery-independent indices of 
abundance. Generating such indices should be a major focus for efforts 
designed to improve data collection and quality for stock assessments. 
A well-designed coast-wide fishery-independent survey could provide 
indices of abundance, age and length information, and updated life 
history information while also informing selectivity, spatial effort 
and movement of stocks (Reviewer #3). For the surveys currently 
conducted, small sample sizes and high variability in the surveys are 
currently causing large problems for stock assessments (Reviewer # 3).
    Four of the 6 Southeast Area Monitoring and Assessment Program 
(SEAMAP) surveys in the South Atlantic do not target federally managed 
species and are not used in any assessments (reviewer #3) However, this 
year's Spanish mackerel assessment used an index from SEAMAP.
    The MARMAP and Southeast Fisheries Information System (SEFIS) 
fishery-independent sampling use fish traps for their primary sampling 
methodology. There are limitations to trap surveys that have not been 
addressed: differential catchability at size and age, ontogenetic 
movements as some species move to deeper water environments where traps 
are rarely fished, a large number of South Atlantic reef species that 
are not trappable on a regular basis, and traps that cannot be deployed 
in high velocity currents that exist in much of the South Atlantic. The 
commercial and recreational fisheries are hook and line fisheries, and 
recreational and commercial fishermen have concerns about the validity 
of trap catches versus hook and line. An example of this is illustrated 
by several cooperative research programs being conducted for red 
snapper where hook and line gear is being used as the mode of sampling. 
Most of the day trips in that survey caught more red snapper than the 
MARMAP trap survey caught in its 30 years of sampling.
Conclusion
    The South Atlantic Council has faced significant challenges 
implementing the statutory mandates resulting from the 2006 MSA 
Reauthorization, particularly, in ending overfishing immediately. The 
2006 Reauthorization is predicated on the assumption that each Council 
has the necessary data to meet the statutory requirements. That is 
clearly not the case for the Southeastern Councils in general and the 
South Atlantic specifically. We have implemented substantial reductions 
in ACLs for some species and essentially closed the most important 
fishery, red snapper, along the east-central Florida through Georgia 
based on ending overfishing. This has come at a high cost to 
recreational and commercial fishermen and the business related 
infrastructure that they support. Based on management successes in the 
past, the Council believes that there is ample evidence to support 
extending the time-frame to end overfishing without impacting 
rebuilding schedules. The original Magnuson-Stevens Act was founded on 
the regional differences among the Council jurisdictions. The ``one 
size fits all'' approach in the 2006 Reauthorization has violated that 
regional component. We respectfully ask that you give due consideration 
to our requests so that all fishermen in the South Atlantic will 
benefit from your decisions.
    Thank you for allowing me to appear before you on behalf of the 
Council.

    Senator Begich. Thank you very much.
    Our last person to testify, thank you for being here. If I 
pronounce it right, is it ``Far-SHET-ee''?

           STATEMENT OF CARLOS FARCHETTE, CHAIRMAN, 
              CARIBBEAN FISHERY MANAGEMENT COUNCIL

    Mr. Farchette. Yes, sir.
    Senator Begich. Thank you, Mr. Farchette, for being here, 
Chairman of the Caribbean Fishery Management Council.
    Mr. Farchette. Good morning, Honorable Senator Begich and 
members of the Committee on Commerce, Science, and 
Transportation. My name is Carlos Farchette and I represent the 
U.S. Caribbean Fishery Management Council, encompassing the 
Commonwealth of Puerto Rico and the U.S. Virgin Islands, St. 
Thomas, St. John, and St. Croix. It is my pleasure to address 
the request for comments on issues related to the Southeast 
Regional perspectives on the reauthorization of the Magnuson-
Stevens Act.
    First I would like to endorse the letter dated November 8, 
2013, submitted to Honorable Doc Hastings and Honorable Mark 
Begich by the eight regional fishery management councils, 
referring to the consensus statements on priorities for the 
reauthorization of the MSA.
    Second, we want to present some topics specific to the U.S. 
Caribbean. The U.S. Caribbean is considered a data-poor area. 
This constitutes a major challenge to determine overfishing 
limits, annual catch limits, among others. The development and 
implementation of OFLs and ACLs for our fishing grounds is very 
difficult to achieve when you have multiple species and very 
little trustworthy information for the species involved. This 
calls for more funding or adoption of different strategies and 
methodologies to obtain the information needed for establishing 
these parameters.
    Due to budgetary situations faced at the national level, 
substantially increases in the funds for scientific studies is 
probably not on the horizon. Therefore we will need more 
flexibility in setting these levels of fishing. Presently the 
law dictates that when data is scarce the buffer between OFL 
and ACL should be larger. This causes unnecessary economic 
hardships to our fishers.
    Actually, what you hear most from local fishers is a 
question: Why do we have to be penalized for the inability of 
the government to obtain and process statistical data on time 
to avoid these unfair closures? Hence, we want to emphasize the 
need to amend the MSA to provide for flexibility in the process 
to determine the levels of fishing that will provide for 
sustainability of the resource with a minimum amount of 
economic burden to the fishing industry, both recreational and 
commercial.
    Another point we want to bring to your attention is the 
need to effectively include information and scientific 
assessment of the socioeconomic component of the ecosystem-
based management approach. The CFMC is moving toward the 
implementation of island-based FMPs. The idea is to consider 
island areas as a whole for fishery management purposes. This 
will focus management actions specific for each area, rather 
than adopting a blanket set of management measures across the 
entire Caribbean EEZ as we do now, which results in unfair 
treatment of some of the island communities.
    As an example, while in the St. Thomas-St. John area the 
fishing is mostly market-driven, the measures applied to avoid 
overfishing of species in Puerto Rico are also imposed to St. 
Thomas-St. John fishers, creating an unnecessary economic 
hardship to the local fishers of these islands.
    We would like to receive clarification on the role of 
councils in international fisheries affairs. Historically our 
council has as one of its original objectives the promotion of 
pan-Caribbean management strategies, given our dependence on 
fisheries management of shared stocks from upstream islands. 
Therefore we have participated in the delegation of Western 
Central Atlantic Fisheries Commission and other international 
bodies that oversee Caribbean Basin fisheries. If the MS 
reauthorization addresses international issues, we would like 
to see some language as to the role of our Council in 
international bodies.
    Finally, we believe that the MSA is working and may only 
need fine adjustments, but the above-mentioned issues with some 
of its requirements should be considered to provide the 
necessary flexibility in its implementation process, especially 
in the Caribbean region.
    Thank you very much for this opportunity to submit our 
comments.
    [The prepared statement of Mr. Farchette follows:]

  Prepared Statement of Carlos Farchette, Chairman, Caribbean Fishery 
               Management Council, San Juan, Puerto Rico
    It is my pleasure to address the request for comments on issues 
related to the Southeast Regional Perspectives on the Reauthorization 
of the Magnuson-Stevens Act (MSA).
    First, we would like to endorse the letter dated November 8, 2013, 
submitted to Honorable Doc Hastings and Honorable Mark Begich by the 
eight Regional Fishery Management Councils, referring to the consensus 
statement on priorities for the reauthorization of the MSA.
    Second, we want to present some topics specific to the U.S. 
Caribbean:

  <bullet> The U.S. Caribbean is considered a ``data-poor'' area. This 
        constitutes a major challenge to determine overfishing limits 
        (OFLs), annual catch limits (ACLs), among others. The 
        development and implementation of OFLs and ACLs for our fishing 
        grounds is very difficult to achieve when you have multiple 
        species and very little trustworthy information for the species 
        involved. This calls for more funding or adoption of different 
        strategies and methodologies to obtain the information needed 
        for establishing these parameters. Due to the budgetary 
        situation faced at a national level, substantially increasing 
        the funds for scientific studies is probably not in the 
        horizon. Therefore, we will need more flexibility in setting 
        these levels of fishing. Presently, the law dictates that when 
        data is scarce, the buffer between OFL and ACL should be 
        larger. This causes unnecessary economic hardship to our 
        fishers.

    Actually, what you hear most from local fishers is the question 
        ``why do we have to be penalized for the inability of the 
        government to obtain and process statistical data on time to 
        avoid these unfair closures? Hence, we want to emphasize the 
        need to amend the MSA to provide for flexibility in the process 
        to determine the levels of fishing that will provide for 
        sustainability of the resource with the minimum amount of 
        economic burden to the fishing industry, both commercial and 
        recreational.

    Another point we want to bring to your attention is the need to 
        effectively include information and scientific assessment of 
        the socio-economic component of the ecosystem-based management 
        approach.

    The CFMC is moving towards the implementation of island-based FMPs. 
        The idea is to consider island areas as a whole for fishery 
        management purposes. This will focus management actions 
        specific for each area, rather than adopting a blanket set of 
        management measures across the entire Caribbean EEZ as we do 
        now, which results in unfair treatment of some of the islands 
        communities. As an example, while in the St. Thomas/St. John 
        area the fishing is mostly market-driven, the measures applied 
        to avoid overfishing of species in PR are also imposed to St, 
        Thomas St. John fishers, creating an unnecessary economic 
        hardship to the local fishers of these islands.

  <bullet> We would like to receive clarification on the role of 
        councils in international fishery affairs. Historically, our 
        council has as one of its original objectives the ``promotion 
        of pan-Caribbean management strategies,'' given our dependence 
        of fishery management of shared stocks in upstream islands. 
        Therefore, we have participated in the delegation of the 
        Western Central Atlantic Fishery Commission and other 
        international bodies that oversee Caribbean basin fisheries.

    If the MSA reauthorization addresses international issues, we would 
        like to see some language as to the role of councils in 
        international bodies.

    Finally, we believe that the MSA is working and may only need fine 
adjustments, but the above mentioned issues with some of its 
requirements should be considered to provide the necessary flexibility 
in its implementation process, especially in the Caribbean region.
    Thank you very much for this opportunity to submit our comments.

    Senator Begich. Thank you very much.
    Thank you all for your testimony. What I'm going to do, 
it's a 5-minute round. I'll start with Senator Rubio, then I'll 
go to Senator Nelson, then Senator Scott, then I'll do the 
completion.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    My first question is directed at both Dr. Crabtree, but 
also to Mr. Hartig. One of the things I hear from constituents 
who like to fish recreationally in salt water is that they'd 
like to see not only longer fishing seasons, but seasons that 
are more predictable and consistent seasons that they can count 
on from year to year. Certainly hunters have a very good idea 
of when their seasons will start and when they'll end.
    What is it about the Federal fisheries management under MSA 
that makes it so difficult to establish a recreational fishing 
season and to effectively manage the sector during the season?
    Dr. Crabtree. Well, thank you for your question, Senator 
Rubio. I think the area where we have historically had the most 
problems is in the Gulf of Mexico with the recreational red 
snapper fishery. One of the messages that the council, we've 
heard loud and clear over the last couple of years, is not only 
the desire for more days, but the desire for stability and 
predictability, as you say. We've heard that.
    So in response to that, after this year's stock assessment 
was completed the council reviewed a number of options for 
setting the total allowable catch levels for the Gulf. They 
elected to try and set the total allowable catch at a constant 
level over the next 3 years, with the goal of trying to bring 
some stability to the fishery. So we were able to raise the 
quotas by about a million and a half pounds this year and we 
will have stable catch levels for the next 3 years.
    One of the things that's resulted in changes taking place 
in April or May for the last couple of years with red snapper 
has been that the quotas have been going up each year and we've 
been going through a rulemaking in the spring to set the quota, 
and that's resulted in last-minute changes to the fishery. This 
year the quotas are in place now, and so we presented analyses 
at the last Gulf council meeting indicating a season length for 
next year of around 40 days, which is an improvement from where 
we were last year. We hope to get that season announcement out 
by the end of this calendar year, giving fishermen many months 
notice as to what the fishing season is going to be for next 
year.
    So trying to bring some stability to the fishery is one of 
our major goals and we recognize that as something we need to 
do a better job with in the recreational fishery.
    Senator Rubio. Mr. Hartig, do you have any follow-up on 
that?
    Mr. Hartig. Yes, thank you, Senator Rubio. From the South 
Atlantic Council's perspective, red snapper--we're nowhere near 
where the Gulf is. In fact, the fishery is essentially closed, 
and it was closed at a time when management controls had shown 
that the stock was responding to management. So in our case we 
have allowed a very short season, one 3-day season for the 
recreational fishery this year and two 3-day seasons last year. 
But that's not a fishery; that's not something that fishermen 
can enjoy.
    The main thing that impacts the South Atlantic in being 
able to deal with red snapper is the ending overfishing 
immediately. That's the main problem.
    But for our other species, we are talking about seasons. 
We're talking about season lengths for black sea bass, having a 
defined season for the recreational fishery, once we find out 
what their catches will be under the new ACL that just doubled. 
We're also going--we're doing a visioning process. We're 
inviting fishermen in to tell us, how do you want to manage 
your species in the future, how do you want to manage your 
fisheries? We're going to start that this winter. This will be 
a big way. We want to inform our management based on the 
fishermen's recommendations.
    Now, having said that, the statutory requirements of the 
Act going into this, we have to tell the fishermen that is what 
we have to do, but outside of that how do we manage fisheries 
going ahead?
    Senator Rubio. Mr. Boyd, are the 10-year rebuilding time 
lines mandated in the last MSA reauthorization working for your 
councils in the stocks you manage? Wouldn't it make more sense 
to give your council some reasonable latitude to deal with 
rebuilding stocks for which the 10-year time-frame simply 
doesn't make sense?
    Mr. Boyd. Thank you, Senator. Yes, that is exactly right. 
The arbitrary 10-year rebuilding timeframes can put constraints 
on the Council that cause effects in the socioeconomic 
communities that are onerous. If we had a little more 
flexibility to rebuild the stock, say based on stock abundance 
rather than arbitrary timeframes and arbitrary numbers of fish 
or pounds, it would give us greater flexibility.
    Senator Rubio. Do you think the Council should be allowed 
to waive annual catch limits when necessary?
    Mr. Boyd. Yes, I think they should.
    Senator Begich. Thank you very much.
    I'd like to go with Senator Nelson.
    Senator Nelson. Dr. Crabtree, this is certainly good news 
on the Gulf red snapper. What do you think would be your advice 
on the basis of your experience with the stock assessments on 
Gulf red snapper? How would you suggest to us that we approach 
Magnuson-Stevens reauthorization in a way that ensures the 
certainty of data collection for all of the fishery stocks?
    Dr. Crabtree. Well, improving data collection has been 
something that we've emphasized for the last four to five years 
in the Southeast. So through part of that process there have 
been additional funds made available in the Southeast to 
improving stock assessments. Those have largely gone into 
improved fishery-independent sampling, both in the Gulf of 
Mexico and in the South Atlantic area, and we're trying also to 
move toward some visual censuring efforts in the Caribbean as 
well.
    But I think the key to improving our stock assessments in 
all of our regions is to focus on fishery-independent surveys, 
which are done on a systematic basis year after year. That's 
really been what we haven't had historically in the Southeast. 
We've made progress over the last decade or so putting some 
programs in place. We now have visual census programs in the 
Gulf that we're using and we've recently put some of those in 
place in the South Atlantic, some long line surveys in the Gulf 
to sample older red snapper.
    But that's really the key to better stock assessments and 
we need to keep at that, because it's critically important to 
have these long time series of data for the stock assessments 
so you can see the trends of abundance as they develop over the 
years.
    Senator Nelson. Just one other question, Mr. Chairman.
    Mr. Boyd, how do you think the councils can operate so 
that--you've got a variety of fish out there. You want to make 
sure they're not being overfished. You've got the pushes and 
tugs from your constituencies. You've got the demands coming 
from commercial, recreational, including the charter boat 
captains. How do you try to smooth all that out and come out 
with the right decision?
    Mr. Boyd. Thank you, Mr. Chair.
    [Laughter.]
    Mr. Boyd. Senator, it's very, very difficult. If I said it 
was easy I wouldn't be truthful with you. The competing 
interests of commercial versus recreational and the needs of 
the charter for hire fleet are great. On the one hand, the 
recreational fisherman is catching his fish. He's going out for 
an experience, whereas the commercial fisherman is trying to 
maximize their profitability. The commercial fishermen and the 
recreational fishermen have a completely different objective. 
Commercial fishermen want to minimize their time on the water 
and maximize their catch. The recreational fisherman wants to 
maximize his time on the water with his family or with friends 
and isn't as concerned about a maximum catch as they are for a 
maximum experience.
    Senator Nelson. But each needs to make sure there's fish.
    Mr. Boyd. But each needs to have fish, yes, sir.
    Senator Nelson. Well, good luck and Godspeed.
    [Laughter.]
    Mr. Boyd. Thank you, sir.
    Senator Nelson. I get buffeted by this all the time, as you 
can imagine.
    Senator Begich. Thank you very much, Senator Nelson. I will 
tell you, in Alaska we have one more element called subsistence 
hunters. So we have three ends. We don't have bookends; we have 
multiples, so it's very complicated.
    But I will say one thing as we move to Senator Scott, and 
that is in Alaska most of our species are stock assessed every 
year and it makes a big difference if you can have that 
frequency, as you were talking about, Dr. Crabtree. So that I'm 
sure is one of the issues we as a committee will have to 
address to create some regional balance here and to make sure 
other areas have this science on a regular basis.
    Senator Scott.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman, and thank you also 
for holding this very important hearing today. I certainly have 
enjoyed the perspectives from the panel. I look forward to 
asking a few questions.
    In South Carolina our economy is driven by tourism in major 
part. From Myrtle Beach to Charleston to Hilton Head, much of 
what we see happening in our economy on the coast is due to our 
history and good food. So our folks are dependent upon bringing 
good food in on a daily basis. So I wanted to ask just a couple 
of questions.
    Mr. Hartig, I much appreciate your assessment and your 
emphasis on making sure we consider how current law is working 
for the fish and the fishermen in the South Atlantic region. 
The social and economic considerations that you've highlighted 
are of tremendous concern to South Carolina. Our local chefs 
rely on access to the freshest local seafood for their menus 
and their livelihood. More flexibility is needed in crafting 
remedies for rebuilding overfished stocks to give businesses 
time to plan and to adjust.
    I appreciate the work the South Atlantic Council has done 
in showing the effectiveness of this approach with certain 
species. Could you comment further about ways we can build in 
more flexibility in rebuilding requirements?
    Mr. Hartig. Thank you, Senator Scott. The crux of the 
problem in the South Atlantic, it's focused primarily on how 
assessments have done in the past. We had relatively simplistic 
assessments on the first part of our management history. In 
about 2000, 2004, we implemented a new SEDAR assessment 
approach, and about that time we had the next generation of 
assessment scientists move in and they took this to a different 
level. They're able to do so much more with so little data, 
which is good on some sides and bad on others.
    But they were able to get pretty much a more accurate 
picture of the health of our fisheries. We had been going along 
with the red snapper thinking we were doing the right things, 
putting in the management measures that were dictated by the 
assessments, and then all of a sudden to have this out of 
nowhere, when fishermen are telling us this is the best fishing 
they've seen for red snapper in decades, that we have to close 
the fishery. That just didn't work.
    The flexibility in ending overfishing is our problem. It's 
really, in the Southeast it's a problem, but the South Atlantic 
is particularly impacted by that problem. In order to move 
forward, some way we have to allow that to be phased in over a 
longer period of time to take in those socioeconomic 
considerations that you mentioned.
    I'm glad you mentioned the chefs because in Charleston--
that's an important part. We're seeing more of those people 
come to our hearings and give us information: Hey, we need 
longer seasons so we can plan our restaurant menus to be able 
to handle these fish that we can get to the people on a regular 
basis. That's a very important part of what we're looking to.
    Senator Scott. It certainly feels like the epicenter of 
activity for us in South Carolina. So thank you for your 
comments.
    Dr. Crabtree, you stressed in your testimony the need for 
the highest quality fishery science. Pretty much everyone here 
agrees we need even better data and research to better 
understand the realities of the stock levels and to set more 
realistic quotas. The Southeast Region manages more species 
than any other region in the country, but it is my 
understanding that it receives the least amount of funding. Can 
you comment on how determinations are made within the Fisheries 
Service about how to allocate resources for research and data 
collection?
    Dr. Crabtree. Well, Senator, I can comment on how we make 
decisions in the Southeast, but the nationwide allocation 
decisions are made in headquarters and I wouldn't be the best 
person to comment on those. So we can take that for the record 
and come back for you.
    But again, within the Southeast for the last several years 
we have received increased funding to improve our fishery-
independent monitoring. In particular, in the South Atlantic 
region we have started a new survey over the last few years 
which is a fishery-independent survey, and it's kind of built 
off the MARMAP survey that's been run out of South Carolina 
Department of Natural Resources for some years using trap gear 
and camera arrays to do fish censuses, essentially.
    Those kind of data are really the key to improving our 
stock assessments. They are general surveys that give you 
information on all of the species that are out there, too, 
because you're sampling everything. That's critically important 
for the South Atlantic region, where we have so many species 
that are under management.
    So we've made some improvements on those surveys and if we 
can keep those going I think we're going to continue to see 
improvements in our stock assessments. I agree completely with 
Mr. Hartig's statements that we have over the last decade 
changed our assessment process through the SEDAR process. It's 
much more inclusive now. It's much more sophisticated now. And 
the science that we have now I think is much better than what 
we had a decade ago. But the key to continuing to move forward 
on that are these fishery-independent surveys.
    Senator Scott. Thank you very much. I certainly would like 
to hear a response on the funding formulas and how it impacts 
our areas specifically, realizing that if you have more species 
to figure out perhaps the funding should be consistent with 
that. I appreciate the fact that you are not dodging the 
question, but unable to answer the question, realizing that 
someone else above you must answer that question.
    Dr. Crabtree. And we'll follow up with you on that, 
Senator.
    Senator Scott. Thank you very much.
    Senator Begich. Thank you very much, Senator Scott. That 
would be a good question for the record, so we can have that 
presented to the Committee.
    [Please see Senator Scott's question for the record and Dr. 
Crabtree's response to it on p. 80.]
    Senator Scott. Thank you very much.
    Senator Begich. We appreciate that.
    Let me say, I have a few questions. Again, I appreciate my 
colleagues from the region. It's their region in a lot of ways, 
even though we have a role nationally. But I want to give them 
as much latitude for the questions.
    But if I can, first, Mr. Farchette, if I could just ask you 
a quick question. You kind of indicated it, but I just want to 
follow up. You have kind of a unique situation. If I remember 
the numbers right, you have well over 130, 140 different 
species. You are international water. You've got all kinds of 
issues that complicate how to manage there.
    Can you just give me a sense what and how you work with 
international bodies? I know from an Alaska perspective, I know 
we have international bodies. Russia we have to deal with 
because they steal our crab. I can say that. So we have our own 
situation there. And then they call it Alaska crab. I'm sure 
I'll now hear from the State Department, but the facts are the 
facts.
    But tell me how it works in your region?
    Mr. Farchette. Well, we're working with about 26 island 
nations and we are trying to come up with a consensus on 
having--take for instance, we have working groups developed for 
the spiny lobster, where we could have management regulations, 
because most of the islands do not have fisheries management 
plans. So we're working with them to help them develop fishery 
management plans.
    We're also working together to protect spawning 
aggregations, identify and protect spawning aggregations, 
seasonal closures, so it'll be uniform around all the island 
nations.
    Senator Begich. Do they seem receptive to this?
    Mr. Farchette. Most of them are. However, some of them 
would not--like some have a 2-month closed season for spiny 
lobster. Most of them have 4 months and they don't want to 
change that.
    Senator Begich. They don't want to change it. But generally 
you're feeling like there's cooperation and an understanding 
that if they don't do this in the long term it could be very 
problematic for the fisheries?
    Mr. Farchette. Yes. But I think that there is cooperation 
between all of us. I think it's getting better.
    Senator Begich. Very good. Thank you very much.
    Let me ask to all of you or whoever would like to answer, 
kind of my commentary there on stock assessments. We're 
fortunate to some degree in Alaska because we do these on a 
fairly annual basis, but we also have a sizable amount of State 
participation in that. As you know, our observer program, for 
example, was predominantly funded by the State because we just 
wanted to manage our fisheries so we wouldn't have a problem.
    Give me your sense of--put funding over here for a second. 
I think I know the answer to this, but I want it I guess on the 
record. More frequent stock assessment would be a data point 
that's necessary for a good solid baseline; is that an accurate 
statement that I'm making for all of you, depending on what the 
species is? But I'm assuming for most species you want more 
frequency of stock assessments. Is that a fair statement?
    Mr. Hartig. Yes.
    Senator Begich. Do you think--one of the issues that I find 
interesting, no disrespect to my friends at NOAA, but one of 
the areas that I think we have to look at--I think Senator 
Scott brought it up, I think Senator Rubio brought it up and 
Senator Nelson to a certain degree--that is, it's important to 
understand the fish, but it's also to understand the connection 
on shore, all the way to, for example, from the water to the 
plate, and understand that economic impact.
    So when you're making a decision of closing or not closing 
or extending or not extending, do you think we do enough in our 
analysis when we make these from the Federal Government 
standpoint of saying this is an area that we have to consider? 
Are we putting enough of that economic analysis into this mix? 
I have my opinion, but I'm curious.
    Who would like to answer that? Mr. Hartig, I can see; I can 
sense it from you. I think I know, but I want to hear it 
because I know in Alaska we have the constant discussion about, 
OK, the fish value is X, but really when you figure out 
equipment and shoreside and all these other pieces, there are 
other pieces. It was a battle we just had over halibut 
commercial versus halibut charter catch and what does that 
mean. Can you give me your opinion?
    Mr. Hartig. Yes. I think Roy could give you the details on 
exactly what economics goes into the management plan. But from 
my perspective, going through this process--this is my second 
time around on the Council. I've been involved in this process 
since, at some level, since 1976. The economics is truly 
lacking when we look at the problems, when we close a fishery 
in particular. The impacts of all the business related not only 
to the fishermen, but the business related to the fisheries are 
severely impacted.
    We've lost a number of businesses due to red snapper. We've 
lost a number of charter boats, head boats. Nobody ever follows 
up on that.
    Senator Begich. That's commercial impact, right?
    Mr. Hartig. Yes, absolutely, commercial and recreational 
impact.
    Senator Begich. And it's not just one person there that 
weekend doing this. It's long-term. Some of these are long-term 
businesses, right?
    Mr. Hartig. Yes. You lose a head boat, you lose 
opportunities for fishermen. At that level that they can afford 
to go fishing, if they lose a head boat they can no longer make 
that trip. That's taken away from them because they no longer 
have a platform that they can afford to go and reap the 
benefits of harvesting South Atlantic species.
    Senator Begich. Dr. Crabtree, if you want to respond, then 
Mr. Boyd, and then--and I'll see if--OK, go ahead.
    Dr. Crabtree. Well, I would agree with Ben that there is a 
need for more economic, socioeconomic analyses. I think we are 
doing better at that today.
    Senator Begich. Do you think--if I can interrupt you for a 
second, do you think you have the expertise within the agencies 
to do that?
    Dr. Crabtree. I think we have the expertise. I think we're 
often lacking in the data to do it. With the number of actions 
that we have with all three councils, we're sometimes lacking 
the manpower to do as much as we would like to.
    We have in the Southeast, particularly because of the 
importance of recreational fisheries, we have a lot of 
allocation decisions that we struggle with. Even within the 
recreational fisheries, there are allocation issues with 
charter boats and private sector fishermen. At least one part 
of making allocation decisions is looking at economics and net 
benefits to the Nation and those types of things. While we are 
collecting more data now on that than we have in the past, we 
often don't have as much information as we would like to make 
those decisions.
    I think we put all the emphasis in recent years on 
improving our stock assessments, but I think the socioeconomic 
component of that is important. We need to make sure it's on 
our radar screen.
    Senator Begich. If I can leave you with a thought, and Mr. 
Boyd, if you would respond, but Dr. Crabtree, but not for right 
now, but maybe you could give to the Committee some thoughts on 
what is that kind of data you're looking for and where might 
that come from, that would help us maybe think about how when 
we look at this legislation, is there things we could do to 
improve access or funding or other pieces to the equation. 
Would you mind considering that thought and bring back to the 
Committee at some point? Would that be OK?
    Dr. Crabtree. Certainly, Senator. I'd be happy to.
    Senator Begich. Thank you very much.
    Mr. Boyd.
    Mr. Boyd. Yes, sir. I would just echo what Ben and Roy 
said. The socioeconomics are vitally important. I just attended 
our socioeconomic science and statistical committee meeting 
this last week and I saw about 15 different scientists, 
economists, charter boat captains, and some recreational 
fishermen, actually grapple with how you manage a fishery and 
how do you understand the socioeconomic impact of these 
decisions.
    They came out with some recommendations, some motions that 
are going to go to Council in February, to help us make 
allocation decisions or to not change allocations in any way. 
So it's very, very important to have that data. I think that 
the data is limited at this point in time, like Dr. Crabtree 
said, and we do need more.
    Senator Begich. I appreciate that. This is one area that's 
of strong interest to me because it affects commercial, but it 
affects recreational significantly, and in my State 
subsistence, too, because if they don't fish then there's an 
economic impact to them that they will have to endure, not by--
they don't get a choice. They have to, because it's food on the 
table and if they can't fish for subsistence purposes that 
means they do not have food on the table. That's their grocery 
store. When they open up their door, that's it. It's right 
outside the door. So it's critical.
    So I appreciate these comments. I do have additional 
questions. I'll submit those for the record. But I do want to 
thank this first panel for attending, being part of our hearing 
and our series of hearings as we move forward on the 
reauthorization. Thank you all very much. And we'll dismiss you 
and have the next panel line up, and staff will do the magic 
moving of the names and all kinds of stuff here.
    [Pause.]
    Senator Begich. If you would go and have a seat, those for 
the next panel, as they're laying out the name tags, that would 
be great.
    [Pause.]
    Senator Begich. What we'll do is as people are getting 
situated there, Senator Rubio has been called to the Foreign 
Affairs Committee, I believe. So let me have him say a few 
comments, then we'll go with the panel.
    Senator Rubio. Thank you. I'm reminded what my colleague 
from Florida, Ileana Ros-Lehtinen, says: in the Senate, it's 
Foreign Relations; in the House it's Foreign Affairs. So we 
have relations, they have affairs, I guess is her joke, not 
mine.
    Anyway, the meeting starts at 11:40, so I'm going to try to 
run over there, do my bill, and get back in time. But I've read 
all your testimony, met with all of you before, and know 
exactly what you're going to do. And I feel terrible about not 
being here for your testimony. I hope you understand that. The 
bill has my name on it; I need to be there to present it. And 
I'll try to get back here as soon as I can.
    Senator Begich. Thank you very much.
    I know, Mr. Windes, you have a 2 o'clock flight. So what 
I'm going to do in the order, I'm going to kind of have you go 
first. Then I'll come back over here, if that's OK. Not that we 
will be here until 2 o'clock, but I know--but I just give you 
as much flexibility as possible. But again, I appreciate Mr. 
Windes here, Commissioner, District Five--Is it the 
``Oakaloosa''?
    Mr. Windes. Okaloosa----
    Senator Begich. I'm glad you said it.
    --County, State of Florida, and the owner and operator of 
Sunrise Charters. We thank you for being here. We have a big 
operation in Alaska of charter fishermen. So we understand your 
business a great deal. Please.

         STATEMENT OF HON. KELLY WINDES, COMMISSIONER,

       DISTRICT FIVE, OKALOOSA COUNTY, STATE OF FLORIDA,

              AND OWNER-OPERATOR, SUNRISE CHARTERS

    Mr. Windes. Thank you very much. Thank you, Mr. Chairman, 
Committee members. It's my privilege to be here. I appreciate 
the opportunity to share my views. My name is Kelly Windes. I'm 
a third generation boat captain fishing out of Destin, Florida. 
That's in the northwest part of the state between Panama City 
and Pensacola.
    Our coastal community is highly dependent on the tourism. 
As we all know, the fishing is a luxury item, so I'm mostly 
interested in the economic side of this, as have some of the 
previous speakers.
    I've been in the business about 40 years. I've participated 
in the commercial sector about half the time. The commercial 
fishing where we are is more of a multi-day endeavor, suitable 
for the young and hardy. I also have the privilege of serving 
on the Okaloosa County Board of Commissioners, District Five.
    These remarks that I've prepared are not intended to 
diminish any sector's advantage that they may enjoy, but my 
hope is that these remarks may lend to equalizing the playing 
field to some extent.
    In regards to the progress made to date by the Magnuson-
Stevens Act, I would say in general that the Act was certainly 
necessary, has basically had substantial accomplishments, and 
enjoyed some successes. I would say there's room for 
improvement in management policy by the National Marine 
Fisheries.
    Of particular concern to me is the red snapper fishery. 
There are more and bigger red snapper in the Gulf than when I 
was fishing as a kid. Yet we are allowed to catch fewer and 
fewer every year. There is always a reason why we are further 
restricted. The latest reason is, well, the fish are bigger.
    Surely, after all these years of sacrifice, we could enjoy 
a little of the success. I believe that the Act refers to 
economic impact. We see very little consideration in this area. 
I was happy to see some of the other speakers repeat this.
    I would say that one of the biggest problems in the 
implementation is the lack of fair and equitable policies 
within the various sectors. The strategy, it seems to the 
fishermen, has been to divide and conquer the fishermen. 
Special consideration may be given to one sector and the other 
sectors feel shortchanged. In general, it's the charter 
industry, or fare-carrying, versus the commercial fishermen 
versus the recreational or truly private sector, followed by 
the shrimpers versus all the fishermen.
    This ``divide and conquer'' attitude has worked fine for 
the bureaucrats that run the system and pretty well for the 
commercial fishermen, but fairly poorly for the other sectors. 
The commercial fishermen have and enjoy an historical quota, 
which is a good tool for the few fishermen that have survived. 
It's good for the market in the sense that all the allowable 
catch doesn't show up at one time. Fishermen have the ability 
to be consistent and provide product when it was needed. 
Commercial fishermen have the flexibility to catch fish year 
round as the market dictates.
    On the other hand, the charter industry has very little 
consistency. Seasons are different every year. Different 
species are closed at different intervals each year. The 
National Marine Fisheries people do not consider consistency in 
keeping the customer in mind, the importance of it. If we had 
more consistency, we'd have the ability with advanced notice to 
somewhat train our customers according to the policy changes.
    The best tool I can imagine to mend these discrepancies 
would be an independent sector for the fare-carrying vessels. 
These fishermen have been in business for decades and don't 
have the security that the commercial fishermen enjoy. In the 
charter boat sector, if the charter boat sector had the same 
flexibility to catch fish year round that the commercial sector 
has, it would become much more fair and the ``divide and 
conquer'' stigma would be reduced.
    Another factor in the setting of the total allowable catch 
is the term ``best available science.'' This can be most 
anything the Marine Fisheries wants to use. They determine the 
amount of fish caught on an annual basis by a random phone 
survey on owners of everything that floats, whether it fishes 
or not. Every other management agency uses stamps, 
endorsements, or licenses for whatever the outdoorsmen are 
harvesting, for instance deer, duck, salmon, tuna, swordfish, 
bear, moose, most everything else. There's absolutely no clue 
on what is being caught by the true private sector 
recreationally.
    These boats tie up in private residents and out of the way 
locations with not much accountability. The Fish and Wildlife 
officers are spread way too thin to enforce the guidelines. A 
license or endorsement system for various species would solve 
this and the National Marine Fisheries would suddenly have a 
place to hang their hat and the best available science would be 
believable.
    The fishermen, from their perspective, are not sure that 
the Marine Fisheries wants the more credible system and better 
information so they can make assumptions that make results more 
to their liking. This is strictly a fisherman's perspective.
    As far as the tools for regulations go, I would be in favor 
of a more regional management policy. The Gulf of Mexico has 
areas that produce different quantities of fish. In the 
fisheries management business, the ``one size fits all'' method 
is simply not the best approach. If the Gulf was divided into 
zones, either by states or geographical boundaries, policies 
would be more targeted and more effective, not to mention more 
fair. I was most pleased to hear Dr. Crabtree's indication that 
that's on the table.
    The fishermen have learned over the past 20 or so years 
that we must be aware and diligent to protect our marine 
resources. We would like to do so under a not so punitive 
situation. For years and years we have been told to cooperate 
and things will get better. We have seen not much of this. Our 
seasons continue to get shorter every year while our customers 
suffer along with the fishermen. This could be done more fairly 
if the policymakers will listen.
    In summary, I think there needs to be language that 
identifies and separates the charter for hire sector from the 
true private boat recreational sector. Charter for hire is 
restricted by moratorium while private recreational continues 
to have explosive growth. The proportions of this catch that we 
share is getting less and less for the business, the charter 
business, and more in favor of the private. The playing field 
should be leveled a little bit.
    The access loss in recreational fisheries is a management 
failure, not an allocation failure. According to NMFS, this 
sector has overfished nine of the last ten years. Commercial 
fishermen have a modern management system by way of electronic 
reporting. In this day and age, we should go with our strengths 
and implement accountability and more certainty in the 
recreational reporting process. At the very least, let's 
determine how many boats are actually fishing. At present, 
anything that floats catches snapper according to the National 
Marine Fisheries. At present, a random phone survey is used. 
This is archaic, inaccurate, misleading, and unfair to coastal 
communities, who depend on the economic benefits, not to 
mention the deterioration of tradition, history, and pride in 
the industry.
    The ten-year rebuild time for fisheries is unfair, given 
the fact that there are little or no set stock assessments and 
very poor tracking of recreational harvest levels. To relax 
this accelerated time-frame would give the National Marine 
Fisheries more latitude and ensure a more reasonable and fair 
result for fishermen and local economies.
    I am most appreciative for the opportunity to express my 
views. Hopefully, some of these recommended changes can be 
implemented in order to reduce the animosity between fishermen 
and allow coastal communities to prosper and not be penalized 
unnecessarily by policy.
    Thank you very much.
    [The prepared statement of Mr. Windes follows:]

      Prepared Statement of Captain Kelly Windes, Destin, Florida
    My name is Kelly Windes. I am a third generation boat captain, 
fishing out of Destin, FL. I am fishing now primarily in the charter 
boat industry, although throughout my 40 plus years in the business I 
have participated in the commercial sector for about half the time. The 
commercial fishing is more of a multi-day endeavor, suitable for the 
young and hardy. I also have the privilege of serving on the Okaloosa 
County Board of County Commission (District 5).
    In regards to progress made to date by the Magnuson-Stevens Act, I 
would say in general that the act was certainly necessary, and has 
basically had substantial accomplishments. I would say that there is 
room for improvement in management policy by the National Marine 
Fishery.
    Of particular concern is the red snapper fishery. There are more 
and bigger red snapper in the Gulf than when I was fishing as a kid, 
yet we are allowed to catch fewer every year. There is always a reason 
why we are further restricted. The latest reason is ``well the fish are 
bigger now!'' Surely after all these years of sacrifices we could enjoy 
a little success. I believe that the Act refers to economic impact. We 
see very little consideration in this area.
    I would say that the biggest problem in the implementation is the 
lack of fair and equitable policies within the various sectors. The 
strategy has been to divide and conquer the fishermen. Special 
consideration is given to one sector and the other sectors feel short 
changed. In general, it's the charter industry (fare carrying) versus 
the commercial fishermen versus the recreation or private sector, 
followed by the shrimpers versus all fishermen. This divide and conquer 
attitude has worked fine for the bureaucrats that run the system and 
pretty well for commercial fishermen, but poorly for everyone else!
    The commercial fishermen have ``historical quota,'' which is a good 
tool for the few fishermen that have survived. It is good for the 
market in a sense that all the allowable catch doesn't show up at one 
time. Fishermen have the ability to be consistent and provide product 
when it is needed. Commercial fishermen have the flexibility to catch 
fish year-round as the market dictates.
    On the other hand, the charter industry has very little 
consistency. Seasons are different every year. Different species are 
closed at different intervals each year. The National Marine Fisheries 
people have no idea about consistency and keeping the customer in mind. 
They get paid every two weeks no matter what the weather. They don't 
have to produce a product or satisfy a customer to make a living!
    The best tool I can imagine to mend these discrepancies would be an 
``independent sector '' for fare carrying vessels .These fishermen have 
been in the business for decades and don't have near the security that 
the commercial fishermen have.
    If the charter boat sector had the same flexibility to catch fish 
year-round that the commercial sector has, it would become much more 
fair and the divide and conquer stigma would be reduced.
    Another factor in the setting of the ``total allowable catch'' is 
the term ``best available science.'' This can be anything the National 
Marine Fisheries want to use. They determine the amount of fish caught 
on an annual basis by a random phone survey on owners of everything 
that floats, whether it fishes or not! Every other management agency 
use stamps or endorsements to determine how many hunters are harvesting 
what. Look at deer, ducks, salmon, tuna, swordfish, bear, moose, most 
everything else. There is absolutely no clue on what is being caught by 
the private sector. These boats tie up at private residences in out of 
the way locations with no accountability. The fish and wildlife 
officers are spread way too thin to enforce the guidelines. A license 
or endorsement for various species would solve this and National Marine 
Fishery would suddenly have a place to hang their hat and the best 
available science would be ``believable.'' The fishermen believe that 
National Marine Fishery does not want a more credible system so they 
can make assumptions that make results more to their liking.
    As far as tools for regulations go, I would be in favor of a more 
regional management policy. The Gulf of Mexico has areas that produce 
different quantities of fish. In the fisheries management business, the 
one size fits all method is simply not the best approach. If the Gulf 
was divided into zones, either by states or geographical boundaries, 
policies would be more targeted and more effective, not to mention more 
fair.
    I am most appreciative for the opportunity to express my views. 
Hopefully some of these recommended changes could be implemented in 
order to reduce the animosity between fishermen and allow coastal 
communities to prosper and not be penalized unnecessarily by policy.
    The fishermen have learned over the last twenty or so years that we 
must be aware and diligent to protect our marine resources. We would 
like to do so under a not so punitive situation. For years and years we 
have been told to cooperate and things will ``get better!''
    We have seen none of this, our seasons continue to get shorter 
every year while our customers suffer along with the fishermen .This 
can be done more fairly if the policy makers will listen.

    Senator Begich. Thank you very much for your testimony.
    Just before we go to Mr. Brownlee, let me ask Senator 
Blumenthal, who's joined, if he has any quick comment. Then 
we'll go right to you.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thank you, Mr. Chairman. I 
really just want to comment to thank this panel and the 
previous panel, as well as yourself, for having this hearing. I 
think everybody involved, anybody with the slightest exposure 
to this system, would agree that the current system is not 
ideal. So I accept the criticism that you've just made, Mr. 
Windes, and I hear much the same kind of comments from people 
in the Northeast. So I think there's a common national interest 
here in trying to improve this system, make it work better, and 
make it take account of what some of the previous witnesses 
have said in respect to habitat, climate change, new 
technology. I think the system can benefit from the kind of 
review that Chairman Begich is providing here, and I thank him 
again for that.
    Senator Begich. Thank you very much, Senator.
    Let me go to, again, Mr. Brownlee, Upper Keys 
Representative, International Game Fish Association. Thank you 
very much for being here.

   STATEMENT OF JOHN D. BROWNLEE, UPPER KEYS REPRESENTATIVE, 
              INTERNATIONAL GAME FISH ASSOCIATION

    Mr. Brownlee. Good morning. Thank you. I'd like to thank 
Chairman Begich and Ranking Member Rubio for the opportunity to 
testify today. As someone who's worked full-time in the 
recreational fishing industry most of his adult life, I am 
familiar with the impact the Magnuson-Stevens Act has on my 
vocation, which also happens to be my avocation. I appreciate 
being invited to offer comments on the Act's pending 
reauthorization.
    I'm the Editor-in-Chief of Saltwater Sportsman magazine, 
which was a vocal proponent of the original Act back in 1976 
and the 200-mile limit. The first version sought to expel 
foreign commercial fishing fleets from U.S. territorial waters 
by creating a 200-mile exclusive economic zone. The Act 
succeeded in moving those foreign fishing fleets far offshore. 
But since then we have sometimes done a less than stellar job 
of managing our own domestic commercial fleet.
    We have also failed repeatedly to recognize the 
significance and the economic impact of the recreational 
fishing industry. In fact, many of us have spent years trying 
to get regulators to simply acknowledge that we are just that, 
an industry. There are 11 million recreational salt water 
anglers in the United States and these anglers create $70.3 
billion in annual economic output. This directly supports more 
than 454,000 jobs and generates $20.5 billion in annual labor 
income. These are NOAA's own numbers.
    I want to make four key points here. You've heard a lot of 
them already, but the main thing I think we need to focus on 
with this current reauthorization is looking at economics 
rather than biology. We've done a very good job managing the 
biology of certain species. That's been made clear here today, 
and I think, Chairman Begich, that's the success that you 
alluded to. That's absolutely true.
    But we have paid a price. I think we've heard repeatedly 
that small businesses have suffered. I know in Florida mom and 
pop tackle shops have struggled with this again and again and 
again. It's everything from large boat companies on down to 
very, very small stores, restaurants on the waterfront. Small 
businesses are suffering, and we need to focus on the economics 
of the recreational fishing industry as we seek what we want to 
do with the reauthorization this time.
    I would add that the recreational fishing industry has 
changed drastically since 1976. Back then a 25-foot boat was 
considered big and now you see 40-footers with four engines on 
them running around all over the place. So it's a very 
different world. People are passionate about it and they spend 
a lot of money on it. So the economics of it is of vital 
importance.
    As far as the councils are concerned, I'm a former member 
of the South Atlantic Fishery Management Council, and we need 
to give the councils latitude in applying rebuilding time 
lines. You've heard that again and again and again. That's 
absolutely key. We also need to give them some latitude in 
terms of allocation. I was encouraged to hear Dr. Crabtree 
speak of allocation because that's huge. We have not had 
changes in allocations between commercial and recreational 
fishermen in some cases for decades, in most cases for decades.
    We need to be able to revisit allocation on a timely basis, 
on a regular basis, and make appropriate changes given new 
stock assessments, and of course stock assessments, as other 
people have alluded to, need to come more frequently and with 
regularity.
    The subject of transferring management to the States is 
something that we're keenly interested in. We do believe that 
there is some efficacy in that and that the States do things 
well that the Federal Government does not do well. I personally 
believe that the National Marine Fisheries Service is 
overwhelmed and has great difficulties, it seems obvious, 
living up to the expectations and the needs of these various 
fisheries, councils, states, whatever.
    I do believe that there is some sense in transferring 
control over many species to the states or at least to a 
conglomeration of states, like the Gulf States Marine Fisheries 
Commission or the Atlantic States Marine Fisheries Commission. 
The State of Florida, where I'm from, has a stellar reputation 
as innovators in salt water fish conservation, and I think that 
some of that model could be applied across other states who 
also have a good history of management in the past.
    The last thing I would say is we need to count fish in a 
realistic way. Someone brought up Section 407 of the Act. That 
says that we need to determine absolute numbers of red snapper, 
and the councils struggle with this. They have to track, 
attempt to track, the recreational quota by attempting to count 
absolute numbers of fish. I was fortunate enough to know the 
late scientist Frank Mather of the Woods Hole Oceanographic 
Institute, who counted fish his whole life. He was the world's 
foremost expert on bluefin tuna. Mather used to say that it's 
folly to try to count absolute numbers of fish because you 
can't see into the ocean. The only thing you can do and the 
only thing that makes sense is to track absolute--I'm sorry--
relative abundance of fish, and you do that through frequent 
stock assessments, measuring indices of mortality, recruitment, 
that sort of thing, and making an educated guess, and then 
seeing trends in the fishery over time and making adjustments 
through size and bag limits.
    I'll make that my final point. We would like to see species 
like red snapper in the Gulf of Mexico get back to a regular 
season. It used to be approximately 6 months. It would be nice 
to get back to something approaching that at some point and 
make adjustments on an ongoing basis in bag and size limits and 
potentially boat limits, driven by these stock assessments that 
we hope will be regularly scheduled.
    So I appreciate once again the opportunity to testify today 
and that concludes my comments. Thank you.
    [The prepared statement of Mr. Brownlee follows:]

  Prepared Statement of John D. Brownlee, Upper Keys Representative, 
                  International Game Fish Association
    Good morning. I'd like to thank Chairman Begich and Ranking Member 
Rubio for the opportunity to testify today. As someone who has worked 
full-time in the recreational fishing industry for most of his adult 
life, I am familiar with the impact the Magnuson-Stevens Act has on my 
vocation, which is also my avocation. I appreciate being invited to 
offer comments on the Act's pending reauthorization.
    I'm editor-in-chief of Salt Water Sportsman magazine, a vocal 
proponent of the original Act back in 1976. That first version sought 
to expel foreign commercial fishing fleets from U.S. territorial waters 
by creating a 200-mile Exclusive Economic Zone. The Act succeeded at 
moving foreign commercial fishing fleets far offshore, but since then, 
we've done a less than stellar job in many instances of managing our 
own domestic commercial fleet.
    We have also failed repeatedly to recognize the significance and 
economic impact of the recreational fishing industry. In fact, many of 
us have spent years trying to get regulators to simply acknowledge that 
we are just that--an industry. There are 11 million recreational 
saltwater anglers in the United States, and these anglers create $70.3 
billion in annual economic output. This directly supports more than 
454,000 jobs and generates $20.5 billion in annual labor income.
    But even though we are large in number and an undeniable economic 
force, we often feel overlooked in the Federal fishery management 
process. Recreational anglers account for only about two percent of all 
finfish landings in the US, and fishery managers have historically paid 
a lot more attention to those who harvest the other 98 percent, the 
commercial industry.
    Recreational anglers have repeatedly demonstrated their willingness 
to accept restrictions on their catch in the form of size and bag limit 
reductions, or temporary season closures, when they are scientifically 
justified. We have always been willing to do the right thing for the 
fish, when we are shown it makes sense to do so.
    Sometimes, however, management makes no such sense and we're still 
asked to sacrifice. This has manifested itself in several ways. First, 
there's the issue of allocation between user groups. Unfortunately, 
some allocations of total allowable catch in mixed-use fisheries 
between recreational and commercial fishermen were set decades ago and 
no longer reflect the realities of the times.
    We believe it's vital that potential allocation changes be part of 
the upcoming reauthorization of Magnuson-Stevens, and that the regional 
fishery management Councils develop guidelines and criteria to consider 
such reallocation possibilities for mixed-sector fisheries on a regular 
basis. Allowing allocations to stand for decades untouched and 
unexamined should be unacceptable.
    Recreational fishermen also need relief from the rigid annual catch 
limits and the accompanying accountability measures, which became part 
of the Act during its last reauthorization in 2006. The creation of 
these measures forced the Councils to take drastic action in some 
circumstances, to meet a previously adopted 10-year rebuilding 
schedule.
    Nowhere has this been more apparent than in the Gulf of Mexico, 
where the closure of the red snapper fishery due to this inflexible 
rebuilding schedule has caused great hardship among charter boats and 
rank-and-file recreational fishermen alike. The snapper closure was 
based on outdated and incomplete science, but while the fishery was 
closed, recreational fishermen reported seeing more red snapper than 
ever before while fishing for other species.
    In an effort to comply with the Act, Gulf fishery managers are 
attempting to count every red snapper caught by recreational anglers, 
and then close the fishery if the recreational quota is exceeded. We 
all know this is an impossible mission, and that the numbers used in 
these determinations are an educated guess at best, yet they have led 
to very short red snapper seasons in the past few years since the 
Council's hands are tied in the matter.
    This discrepancy between the reality anglers experienced on the 
water, and what Federal fishery managers told them was happening, has 
created widespread cynicism and anger toward the entire management 
process, a regrettable situation that seems to have no easy solution. 
We support giving the regional Councils the latitude to institute 
rebuilding timeframes, based on biological criteria that is defensible, 
achievable and tied to the biology of the species rather than tied to 
an arbitrary time frame, so they may act with confidence where good 
science exists, and proceed with caution where it does not.
    There are many instances where science is either outdated, or non-
existent, yet annual catch limits are still set. This is of particular 
concern in multi-species complexes in which many different species of 
fish might be caught indiscriminately. Under a rigid interpretation of 
annual catch limits, if an ACL for one species in such a complex is 
deemed to be exceeded, it could close down all fishing for other 
species, which may not be over-exploited.
    It seems logical to manage recreational fisheries through the use 
of traditional tools like size and bag limits and seasonal closures, 
rather than Draconian closures affecting everyone. Recreational 
fishermen need an open fishing season they can count on, with 
biologically necessary adjustments in landings made through changes in 
per-person bag or boat limits in response to timely stock assessments.
    NOAA should develop a recreational fishery management system that 
uses sound scientific data that we now have, and does not penalize the 
recreational industry in instances where that data is incomplete or 
missing entirely. NOAA should further be willing to utilize the 
strengths of individual and collective state management of certain 
stocks of fish where appropriate.
    Managers in my home state of Florida, for example, have 
consistently proven themselves to be innovators in saltwater fish 
conservation, and we believe other states, as well as interstate 
fisheries management commissions, offer a viable and practical 
alternative to continued Federal oversight of all saltwater fishery 
management.
    Thank you Mr. Chairman.

    Senator Begich. Thank you very much. Very good testimony.
    Mr. Johnson. He's the owner and operator of Jodie Lynn 
Charters. Mr. Johnson.

            STATEMENT OF CAPTAIN ROBERT A. JOHNSON,

              OWNER-OPERATOR, JODIE LYNN CHARTERS,

                ST. AUGUSTINE FLORIDA; CHAIRMAN,

              SAFMC SNAPPER GROUPER ADVISORY PANEL

    Mr. Johnson. Thank you, Mr. Chairman, for the opportunity 
to speak and give my perspective on Magnuson and how it is and 
isn't working for the fishermen of the South Atlantic. I've 
been actively chartering commercial fishing since 1980. I am 
also a current Snapper Grouper Advisory Panel member for the 
South Atlantic Fisheries Management Council and I have 
participated in numerous stock assessments on reef fish, and 
I'm involved in fisheries-independent work with the State of 
Florida.
    What is working with Magnuson? The guidelines provided by 
Magnuson have ended overfishing in most cases. Many stocks of 
fish are more plentiful today than at any other time in my 
career, and the various management councils are to be commended 
for this accomplishment.
    But what is not working? Unfortunately, this accomplishment 
has come at a huge cost to fishermen and coastal communities. 
Fishing fleets in my area have experienced about a 50 percent 
decline in recent years. The NOAA Marine Recreational 
Information Program, or MRIP, shows a decline in total 
recreational trips. Curiously, MRIP also shows an increase in 
sales, jobs and income. I'm not sure how less trips and effort 
translates into more jobs and value. It's not what's happening 
in my area.
    In many cases, not only have we ended overfishing, but for 
some species fishing has been almost entirely eliminated. We 
had a 3-day recreational season for red snapper in the South 
Atlantic this year, 3 days.
    National Standard 2 states: ``Conservation and management 
measures shall be based upon the best scientific information 
available.'' Fishermen refer to this as the ``best available 
science.'' We have been told in many cases that the data might 
not be complete, up to date, and there may be very little 
available, but it's the best we have and that's what we are 
mandated to use.
    How can we mandate the use of inadequate data to make 
decisions that have such profound impacts on people's lives? 
How can we afford not to fund research needed to do the job 
properly? I often use the analogy that if you had to have open 
heart surgery and your doctor informed you he didn't have 
instruments or supplies, so you just take a drink of whiskey 
and I'm going to use a pocket knife, it's the best I've got, 
it's pretty sharp. It just--it doesn't make any sense. There 
has to be a minimum standard for data used in stock 
assessments.
    National Standard 4 states: ``Conservation management 
measures shall not discriminate between the residents of 
different States. If it becomes necessary to allocate or assign 
fishing privileges among various United States fishermen, such 
allocation shall be fair and equitable to all such fishermen, 
reasonably calculated to promote conservation, and carried out 
in such a manner that no particular individual or corporation 
has excessive share.''
    I'm not sure how you assign a privilege to anyone without 
infringing on the rights of another. Fish are a resource that 
should be managed for the benefit of all citizens, not just a 
privileged few.
    National Standard 8 states: ``Conservation and management 
measures shall, consistent with the conservation required by 
this Act, take into account the importance of fisheries 
resources to fishing communities by utilizing economic and 
social data in order to provide for sustained participation of 
such communities and, to the extent practical, minimize adverse 
effects on such communities.''
    The science and in many cases lack of it is what's driving 
management. From a fisherman's perspective, there has been 
little if any consideration given to providing for sustained 
participation and a minimization of adverse effects on 
fishermen and their communities. Fishermen have been subjected 
to lower bag limits, increased size limits, and shortened 
seasons. Most would be surprised to know the language was even 
in the document. They feel that Magnuson is being used as a 
weapon against them, not a plan for their benefit.
    The loud and clear message of management that fishermen 
have heard has been to err on the side of caution, be extremely 
conservative, and just deal with it.
    The South Atlantic is an extremely diverse region. The 
South Atlantic Marine Fisheries Council is managing 72 species. 
This diversity requires flexibility. It is impossible to manage 
such diversity using a one-size-fits-all approach. Fishermen 
are not asking for unrealistic changes. What they need is a 
council that has some flexibility in how they set up rebuilding 
plans. Stringent timeframes for ending overfishing and 
rebuilding fish stocks are destroying the livelihoods of the 
very people this management plan was supposed to protect.
    The best scientific information available should not be a 
product of insufficient funding. Fishermen and their 
communities are hanging on by a thread and we need your help. 
Participation is on a rapid decline and participation is 
crucial. Without the involvement of fishing communities, who 
will make sure the resource is sustainable for future 
generations?
    There are some very smart, dedicated people involved in the 
South Atlantic Fisheries Management Council. Please give them 
the flexibility and the financial tools to do their job.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]

Prepared Statement of Captain Robert A. Johnson, Owner-Operator, Jodie 
 Lynn Charters, St. Augustine Florida; Chairman, SAFMC Snapper Grouper 
                             Advisory Panel
    Thank you for the invitation to speak and give my perspective on 
the reauthorization of Magnuson and how its implementation has affected 
the fisherman of the South Atlantic. I am Captain Robert Johnson, 
owner/operator Jodie Lynn Charters in St Augustine, Florida and have 
fished the south Atlantic since 1980. Currently, I serve as Chairman of 
the SAFMC Snapper Grouper Advisory Panel as a representative for the 
charter/head boat sector of Florida.
What is working with Magnuson?
    When it was reauthorized in 2006 most fishermen had no idea as to 
how it would affect them. The guide lines provided by Magnuson mandated 
the use of science based management and establish rigid time frames to 
end overfishing. This was seen by most as a very positive thing. Since 
then, overfishing has ended. Many stocks of fish are more plentiful 
today than at any time in my career. The various management councils 
are to be commended for this huge accomplishment. That is the positive 
result of the reauthorization.
What hasn't worked?
    Unfortunately this accomplishment has come at a cost to fisherman 
and coastal communities. The charter fishing fleets in my area has 
experienced a 50 percent decline in recent years. Many Captains 
attribute this to the complete closure of one of the most sought after 
species in our region Red Snapper. This closure was a direct result of 
the reauthorization. This was extremely difficult for the public to 
understand. From their perspective the Red Snapper population had been 
increasing in size and number and fishing was better than it had been 
for years. Many felt the decline in fishing effort was a direct result 
of closing of this one highly sought after species. NOAA Marine 
Recreational Information Program or MRIP shows a decline in total 
recreational trips. https://www.st.nmfs.noaa.gov/economics/
publications/feus/fisheries_economics_2011
    Curiously, MRIP shows an increase in sales, jobs, and income. I'm 
not sure how less trips and effort translates into more jobs and value; 
it's not what is happening in my area. MRIP is also tasked with 
estimating recreational landings used for management decisions that 
open and close fisheries. In many cases not only have we ended over 
fishing, for some species fishing has been almost entirely eliminated. 
The Red Snapper season was one-three day weekend in 2013 for 
recreational fisherman in the South Atlantic.
National Standards for Fishery Conservation and Management states:

    (1) Conservation and management measures shall prevent overfishing 
while achieving, on a continuing basis, the optimum yield from each 
fishery for the United States fishing industry.

  <bullet> There needs to be more emphasis and attention given to 
        achieving, on a continuing basis, the optimum yield.

  <bullet> We need to be sure that we are allowing the fisherman to 
        harvest what the science allows.

    (2) Conservation and management measures shall be based upon the 
best scientific information available.

  <bullet> Fishermen refer to this as best available science. We have 
        been told in many cases that the data might not be complete, up 
        to date, may be very little available, but it's the best we 
        have and that is what the managers are required to use.

  <bullet> How can we mandate the use of inadequate data to make 
        decisions that have such profound impacts on people's lives?

  <bullet> Given the immense value of our recreational fisheries 
        (Southwick Associates gives a number of 70.3 billion in 
        economic output nationwide in 2011) Comparing NOAA's 
        Recreational and Commercial Fishing, Economic Data Report--
        Southwick Associates

  <bullet> MyFWC.com states saltwater fishing in FL generates $7.1 
        billion and supports 69,751 jobs.

  <bullet> Numbers from the NMFS economic report https://
        www.st.nmfs.noaa.gov/Assets
        /economics/documents/feus/2011/FEUS2011%20-
        %20South%20Atlantic.pdf have the charter boat sector in the 
        south Atlantic valued at $124 million just for 2009 and 
        supporting around 2,000 jobs.

  <bullet> The same report shows a decline of almost 2 million trips 
        from 2010 to 2011 in the South Atlantic alone.

  <bullet> The decline in offshore trips isn't directly measured but 
        around 50 percent of all trips were by shore based anglers.

    How can we afford not to fund the research needed by the councils 
to do the job properly? I often use the analogy that you need open 
heart surgery but your doctor doesn't have funding for instruments and 
supplies so you need to take a drink of whiskey and he's going to use a 
pocket knife, it's pretty sharp--the best available. There must be a 
minimum standard required for data used in stock assessments.
    (3) To the extent practicable, an individual stock of fish shall be 
managed as a unit throughout its range, and interrelated stocks of fish 
shall be managed as a unit or in close coordination.

  <bullet> The councils for the most part have done pretty well with 
        this one. The challenge in the South Atlantic is some stocks, 
        like Red Snapper, are more important to some states than others 
        in the EEZ.

    (4) Conservation and management measures shall not discriminate 
between residents of different states. If it becomes necessary to 
allocate or assign fishing privileges among various United States 
fisherman, such allocation shall be (a) fair and equitable to all such 
fisherman (b) reasonably calculated to promote conservation; and(c) 
carried out in such a manner that no particular individual, 
corporation, or other entity acquires an excessive share of such 
privileges.

  <bullet> I'm not sure how you assign a privilege to anyone without 
        infringing on the rights of another. For one to receive, 
        someone else has to give. Fish are a resource that should be 
        managed for the benefit of all citizens, not just a privileged 
        few.

    (5) Conservation and management measures shall, where practicable, 
consider efficiency in the utilization of fishery resources; except 
that no such measure shall have economic allocation as its sole 
purpose.

  <bullet> Individual areas have big differences.

    <ctr-circle> Example: Winter weather in the Carolinas compared to 
            Florida. Closures on different stocks like Black Sea Bass 
            that have been occurring during the winter months have a 
            much greater effect on Florida than the states to the 
            north.

    (6) Conservation and management measures shall take into account 
and allow for variations among, and contingencies in, fisheries, 
fishery resources, and catches.
    (7) Conservation and management measures shall, where practicable, 
minimize costs and avoid unnecessary duplication.
    (8) Conservation and management measures shall, consistent with the 
conservation requirements of this act (including the prevention of 
overfishing and rebuilding of over fished stocks) take into account the 
importance of fishery resources to fishing communities by utilizing 
economic and social data that meet the requirements of paragraph (2) in 
order to (a) provide for the sustained participation of such 
communities, and (b) to the extent practicable, minimize adverse 
effects on such communities.

  <bullet> We are back to the best scientific information available. 
        The science and in many cases, lack of, is what's driving 
        management.

  <bullet> From a fisherman's perspective there has been little, if 
        any, consideration given to providing for sustained 
        participation and the minimization of adverse effects on 
        fisherman and their communities.

  <bullet> Fisherman have been subjected to lower bag limits, increased 
        size limits and shortened seasons. Most fishermen would be 
        surprised to know this language is even in the document. Most 
        feel Magnuson is being used as a weapon against them not as a 
        management plan for their benefit. The loud and clear message 
        they have heard is we have to err on the side of caution, be 
        extremely conservative in setting limits and seasons, and learn 
        to deal with it.

  <bullet> Management must be allowed the flexibility to take into 
        consideration the adverse effects of some of the rebuilding 
        plans.

  <bullet> Time frames used in rebuilding should be stock specific, the 
        councils should have the flexibility to consider the adverse 
        effects on the fisherman.

  <bullet> The decline of these stocks didn't happen in a short time 
        period. The councils need to have a reasonable amount of time 
        to end overfishing

    (9) Conservation and management measures shall, to the extent 
practicable (a) minimize by catch and (b) to the extent by catch cannot 
be avoided, minimize the mortality of such by catch.

  <bullet> More studies need to be conducted on by catch and discard 
        mortality.

    <ctr-circle> Post quota by catch mortality estimates are deducted 
            up front from the ACLs. Some of these estimates are based 
            on incomplete, poorly vetted studies.

    <ctr-circle> Effort is figured from MRIP estimates.

    <ctr-circle> We are estimating how many fish might be killed 
            accidentally; we are estimating how many anglers actually 
            went fishing and what for.

    <ctr-circle> The only thing that is not estimated is the very real 
            numbers of fish that are deducted from ACL's.

    <ctr-circle> Fishermen deserve better--we have to fund accurate up 
            to date science.

    (10) Conservation and management measures shall, to the extent 
practicable, promote safety of life at sea.

  <bullet> In the South Atlantic this is not an area of huge concern. 
        Every captain should know his vessels limitations.

  <bullet> Extremely short seasons, like the 2013 Red Snapper season in 
        the south Atlantic could encourage someone to make a bad 
        decision.
The South Atlantic is an extremely diverse region:

  <bullet> The SAFMC is charged with managing 72 species; this 
        diversity requires flexibility.

  <bullet> It is impossible to manage such diversity effectively using 
        a one size fits all approach.

  <bullet> Some species are short lived while others have life spans 
        greater than 50 years.

  <bullet> Some species are highly fecundate, others are not.

  <bullet> Some spend their juvenile period in the estuaries others in 
        the open sea.

    Fishermen are not asking for unrealistic changes. Fisherman need:

  <bullet> The council to have some flexibility in how they set up 
        rebuilding plans.

    <ctr-circle> Stringent time frames for rebuilding fish stocks are 
            destroying the livelihoods of the very people this 
            management plan was supposed to benefit.

    <ctr-circle> The best scientific information available should not 
            be a product of insufficient funding.

    Charter fishermen are hanging on by a thread; we need your help. 
Participation in offshore fishing is on a rapid decline. Participation 
is crucial; without the involvement of the fishing community, who will 
make sure the resource is sustainable for future generations?
    There are some very smart dedicated people involved in fisheries 
management. Please give them the flexibility and financial tools to do 
their jobs.
                                 ______
                                 
Involvement includes Fisheries Management skill in the following:

  <bullet> SEDAR assessments on numerous SA species of reef fish to 
        include:

    <ctr-circle> Red Snapper

    <ctr-circle> Gray Triggerfish

    <ctr-circle> Cobia

    <ctr-circle> Spanish Mackerel

  <bullet> Fisheries Independent Data Monitoring Workshop

  <bullet> ORCS workshop

  <bullet> National EM workshop

  <bullet> Fisheries Independent Research with state of FL

    Acronyms:

    SEDAR--South east data assessment review
    EEZ--Exclusive economic zone
    ORCS--Only reliable catch statistics
    MRIP--Marine recreational information program
    EM--Electronic monitoring
    SAFMC--South Atlantic fishery management council
    SA--South Atlantic
    ACL--Annual catch limits

    Senator Begich. Thank you very much for your testimony.
    Next we have Bill Tucker, commercial fisherman, Gulf of 
Mexico Reef Fish Shareholders Alliance. Thank you very much for 
being here.

STATEMENT OF WILLIAM E. ``BILL'' TUCKER, COMMERCIAL FISHERMAN, 
         GULF OF MEXICO REEF FISH SHAREHOLDERS ALLIANCE

    Mr. Tucker. Thank you for the invitation to appear. Mr. 
Chairman, members of the Committee: My name is Bill Tucker. 
I've been a commercial grouper and red snapper fisherman in the 
Gulf since 1985.
    Groupers and red snappers are served in restaurants and at 
family dinner tables across our Nation. The vast majority of 
Americans do not catch their own fish for dinner. They rely on 
people like me to bring it to the marketplace.
    Fishery resources are renewable, but they are also fragile 
and are easy to overexploit. They are very difficult to 
rebuild. Until we rebuild them, we will never enjoy the full 
economic and social benefits that are possible. And even with 
rebuilt stocks, ineffective management can choke off the 
benefits we have every reason to expect.
    In the commercial sector, current management is working. 
Our IFQ systems in the grouper and red snapper fisheries, 
designed with extensive fisherman input, have extended fishing 
seasons to a year-round basis and eliminated quota overages. In 
an era where reduced quotas almost always translate into 
shorter seasons, IFQ management has changed that. By aligning 
business incentives with stock rebuilding, IFQ's work where 
traditional management continues to fail. Because of IFQ's, 
data reporting requirements have been expanded and cost-sharing 
regimens have been implemented.
    It's not all rosy in the Gulf and, even though Magnuson 
provides a great road map for success, it doesn't guarantee it. 
For example, even though we've ended overfishing for red 
snapper, the stock is still classified as overfished. And even 
though we've increased the annual catch limits from 5 to 11 
million pounds, charter boat operators and their clients and 
private recreational fishermen are held hostage by outdated 
management styles.
    When we try to control recreational effort by shortening 
their season, we only incentivize the race to catch fish. On an 
individual level the mind set goes that: Hey, if the seasons 
are short, I better catch all I can before the season closes. 
That way I won't miss out.
    But when you broaden this perspective from an individual 
basis to an entire sector, you begin to understand how the 
quota is reached much faster and the seasons become shorter, or 
the quotas are exceeded, or both, as in the Gulf's recreational 
red snapper fishery. This explains why the simultaneous 
increase in recreational quotas and the decrease in the length 
of the season is not a paradox at all. It's quite predictable.
    The good news is that leaders in the for-hire component of 
the recreational sector are making strides and persuading the 
council to try alternative management techniques. If given the 
chance, they'll succeed, and then they too can maximize the 
benefits of rebuilding stock for their sector.
    Another idea hotly contested in the Gulf today is to 
reallocate more red snapper to the recreational fishermen--to 
the recreational sector from the commercial sector. Today the 
allocation formula is roughly 50-50 and it should stay that 
way. Taking fish away from an accountable commercial sector 
would limit the public's access to this resource. The U.S. 
population is slightly more than 300 million people. Of this, 
roughly 1 percent are Gulf region recreational anglers. This 1 
percent is allocated roughly half of the red snapper resource. 
Were we to alter this balance between recreational and consumer 
access, restaurants and consumers would see a shortage in 
supply and an increase in price. Our fishing businesses, as 
well as the businesses downstream, would be damaged in the 
short term by disruptions in supply and in the long term by 
permanent shifts in market share that favor imported red 
snapper and foreign businesses. Reallocation may be an economic 
boon for the 1 percent, but it sure isn't fair and equitable 
for everybody else.
    Let's look at reallocation from another angle. If a sector 
has a long history of overharvesting its baseline quota, why 
would we increase the baseline, compounding the error? What 
message do we send when access is reallocated away from an 
accountable sector in favor of one that is not?
    Reallocation is not the answer to short seasons in the 
Gulf's recreational fishery. The answer is a fundamental shift 
in management strategy. Reallocation should not be the red 
herring that takes our focus away from mismanagement. We need 
the resolve to focus on the real problem, which is management.
    The reauthorization needs to include language that prevents 
reallocation away from sectors that manage within their quotas 
and gives it to those that do not. Magnuson should address this 
issue before an improper precedent is set.
    We have the best science in the world. Our data collection 
system could use some more, and fishermen would have a lot more 
confidence in the system if they were all contributing catch 
and effort data to the State and Federal agencies. In my 
opinion, every fisherman should be expected to contribute catch 
and effort data as a condition of participation in the fishery, 
very similar to the way we collect data on migratory game 
birds. Fisherman input is essential. Magnuson should demand no 
less.
    Thank you.
    [The prepared statement of Mr. Tucker follows:]

Prepared Statement of William E. ``Bill'' Tucker, Commercial Fisherman, 
             Gulf of Mexico Reef Fish Shareholders Alliance
    Chairman Begich, Ranking Member Rubio and Members of the Committee,

    Thank you for the opportunity to testify on the important fisheries 
issues currently under discussion in your committee. As a commercial 
fisherman from Dunedin, Florida with 30 years of experience in the 
industry, I proudly provide access to domestic, sustainable Gulf 
seafood to meet the growing demand of millions of Americans who have 
chosen to enjoy our native wild fishery resources on a plate, at home, 
or in restaurants throughout the country. This is how the vast majority 
of Americans get their fish. I support their access. In fact, I depend 
on it.
    I have served the Gulf of Mexico Fishery Management Council (Gulf 
Council) as a member of several of its Advisory Panels related to the 
reef fish fishery. I am thankful for the regional Council process that 
allows stakeholders to have direct involvement in management of our 
fishery resources. There is a lot to be said in favor of the Councils 
open process where verbatim minutes and rigid notification requirements 
are among the disciplines that ensure fairness and equity among all 
user groups. As a participant I've seen good, bad and ugly, and I 
credit the Council process for doing a pretty good job of shining the 
proper light on each.
    On balance, the Magnuson-Stevens Act (MSA) is working. The 
congressionally-authorized management system of science-based limits, 
accountability measures, and new management methods such as individual 
fishing quotas (IFQs), are rebuilding fisheries and ending overfishing 
in the Gulf of Mexico and around the country. I strongly believe that 
sustainable fishing businesses and strong fishing communities can only 
exist where fishery resources are responsibly managed using science, 
and accounting for fishing in excess of limits is enforced. I am happy 
to report that we are making strides towards meeting these goals. And 
while there are forces to the contrary, it is my opinion that placing 
the health of our fishery resources as priority one is the best way to 
set the stage for maximizing economic and social benefits for our 
Nation.
Current Management
    The Gulf Council oversees all of the commercial fishing for 
federally managed species in the Gulf of Mexico from the end of state 
waters out to 200 nautical miles. While not perfect, the 
congressionally-authorized Council system manages many of the Gulf's 
commercially important species in real time, and coordinates the 
management, data collection and enforcement of fishing activity across 
several jurisdictions. The benefit of the Council structure is that 
representatives from all of the Gulf States and stakeholders are able 
to make decisions that reflect local needs. Many people are not aware 
that sixteen of the 17 voting members of the Gulf Council are either 
nominated or appointed by Gulf state governors. This is an important 
structure to have because no two fisheries are the same and management 
decisions should be based on local needs. The Council process does a 
great job of integrating the ideas of a diverse mix of opinions into 
alternatives that address issues specific to the Gulf Coast.
    In the commercial sector, current management is working. The 
overwhelming success in rebuilding the red snapper fishery in the Gulf 
of Mexico shows the benefits that can be achieved through the right 
management system and fishermen participation in the process. Several 
years ago, commercial red snapper and grouper fishermen voted to move 
to an individual fishing quota system (IFQ) that has reduced discards, 
kept catch within limits and allowed fishermen the flexibility to 
operate when weather or market conditions are best. In an era where 
reduced quotas almost always translate into shorter seasons, IFQ 
management has provided the dynamic to change that. By aligning 
business incentives with stock rebuilding, IFQ's work where traditional 
command and control management continue to fail. Since the program was 
adopted for commercially-caught red snapper in 2007, we have seen the 
total allowable catch increase from 5 million to 11 million pounds--
that's an increase of 120 percent that benefits consumers and 
recreational fishermen alike.
    Unfortunately, for-hire operators, their clients, and private 
recreational fishermen have not experienced the benefits of these extra 
fish because they continue to be managed in the traditional command and 
control manner of restrictive seasons and bag limits. This is not the 
fault of individual anglers, but of the management system under which 
they are operating. There is an obvious need to consider and implement 
new management tools that improve recreational access and flexibility, 
yet it seems to be an uncomfortable concept that the recreational 
demand for fish exceeds the recreational quota. Overcoming this 
perception is the first step in reconciling their demand for fish with 
the available supply. Solutions are readily available but first will 
require the acknowledgement that allocation of the recreational quota 
among recreational fishermen is a challenging but necessary 
prerequisite. Our fishery resources are renewable, but not unlimited. 
Restraint is necessary.
Regional Management
    The frustrations felt by many recreational fishermen are 
understandable, and solutions do exist, but some of the ideas being put 
forth to address them would cause more harm than good. Regional 
management--or transferring more authority to the states or other 
entities--has been proposed in many different forms in Congress through 
legislation as well as at the Gulf Council through Amendment 39. I 
believe that giving states more authority to manage the recreational 
fishery with Council oversight may have merit, and the concept should 
be further explored.
    However, the commercial management system will not be easily 
replaced by state or regional management, and efforts to transfer 
authority of the commercial industry from the Gulf Council to other 
entities would hurt our industry. States have more experience and 
capacity to manage recreational fishing than they do commercial 
fishing. For our industry, they lack the monitoring and enforcement 
resources and capacity to do so.
    I do not support legislation in Congress to transfer authority from 
the Gulf Council to the Gulf States Marine Fishery Commission 
(Commission). This is duplicative and would serve only to create more 
layers of government. As I mentioned previously, 16 of the 17 Council 
members are nominated or appointed by Gulf state governors. Many of 
these same members sit on the Commission. The difference is that the 
Commission is not as well equipped to manage offshore fisheries as the 
Council, and in any case it makes no sense to use a separate layer of 
bureaucracy to manage one of many species that are caught together 
primarily in Federal waters.
Reallocation
    Another idea being debated in the Gulf today is to allocate more 
red snapper to recreational fishermen. Today, the allocation formula is 
roughly 50-50 and it should stay that way. Taking fish away from an 
accountable commercial sector would limit public access to this 
resource. Of the U.S. population of more than 300 million people, 
roughly 3.2 million people, or about 1 percent fish recreationally in 
the Gulf of Mexico and its saltwater tributaries. Currently they are 
allocated roughly 50 percent of the red snapper resource. Were we to 
alter this balance of 50-50 between recreational and consumer access, 
restaurants and consumers would see a shortage in supply and an 
attendant increase in price. Our fishing businesses would be damaged in 
the short term by disruptions in supply, and in the long term by 
permanent shifts in market share that favor imported red snapper and 
the foreign businesses that ply the trade. On the other hand, 
continuing a reliable and vibrant supply of safe, sustainable domestic 
seafood is an obvious barometer of a sustainably managed resource. 
Besides, the Gulf's recreational fishermen already take home 80 percent 
of the most popular fish in the Gulf, including overwhelming majorities 
of amberjack, red drum, speckled trout, king mackerel and triggerfish. 
Even if the recreational sector received the entire red snapper 
commercial quota, anglers would get only another month or two of 
fishing each year, and that season would continue to shorten over time 
because the underlying management system is inadequate to prevent 
overharvest. Indeed, the recreational fishery already accounts for 56 
percent to 65 percent of total red snapper landings even though their 
allocation is supposed to be 49 percent of the total catch. For the 
sake of common sense, language should be included in the 
reauthorization that precludes reallocation to any sector that 
overharvests its annual quota, because reallocating from an accountable 
sector to one that overharvests sends the wrong message about taking 
stewardship seriously. Recreational fishermen who are understandably 
frustrated with short seasons are looking for solutions, and those 
solutions exist, but reallocation will not provide them with any long 
term benefits. It will only prolong the implementation of sound 
management, while short-changing millions of Americans by 
redistributing their seafood access to others.
Data Collection
    I have witnessed the frustrations of many who complain that somehow 
fishery science is flawed, especially in cases where the scientific 
conclusions do not coincide with popular conceptions. My experience is 
that the NMFS, NOAA Fisheries and the State Agencies have the best, 
most objective scientists in the world. These people are smart, and 
have an ability to exclude the various political pressures from their 
scientific analysis. I have to give them credit.
    And while I credit the scientists for their exceptional abilities, 
data collection seems to be a weak link in the scientific process. 
Budget constraints are one of the drivers of data paucity. This reality 
is dealt with on a regular basis at the regional fishery offices and 
science centers. Cooperative research is one effective and promising 
avenue to collect data. But my experience tells me that for some data, 
a fundamental change in philosophy is needed. In my opinion, every 
extractive user of our Nation's fishery resources should be expected, 
as a condition of participation, to submit catch and effort data. This 
is exactly how we have designed the commercial fisheries in the Gulf, 
where data submission is a condition of permit renewal. It's an 
amazingly simple and effective discipline. The cumulative effect of 
this individual accountability in the commercial sector is the 
fundamental basis for accountability at the sector level. I see no good 
reason why the expectation of data submission for the recreational 
sector should be discounted on an individual basis. This requirement 
could mirror the way many States manage recreational migratory bird 
hunting, where next years `stamp' is not issued until the hunters 
previous year effort and harvest data is submitted. The benefits of 
this approach would be substantial. Not only would the quantity of data 
improve, but so would its quality and resolution. And one of the 
understated benefits would be the buy-in of the fishermen, since they 
would know that their data is used for better ``science''.
    These types of improvements can be made and Congress can help. To 
that end, I support legislation recently introduced by Congressman Rob 
Wittman (VA)--H.R. 3063--called the Healthy Fisheries Through Better 
Science Act. The bill would make several improvements to the current 
system.
    First and foremost, the bill recognizes that fishermen should be 
more involved in the data collection process. This is important for two 
reasons. First, fishermen know the waters they fish, and can make 
valuable contributions to the underlying information managers use to 
make decisions. Second, fishermen do not always trust the data and 
models NMFS uses and as a result are more likely to oppose management 
based on them. H.R. 3063 would require NMFS to establish standards for 
the submission of data and analyses by outside sources, including 
fishermen and academics.
    Congressman Wittman's bill also addresses the need for more timely 
stock assessments by requiring the Secretary of Commerce to set a 
public schedule for conducting stock assessments, including species 
that have never been assessed. The legislation also requires NMFS to 
ensure that it is using the most cost-effective methods for monitoring 
and to inform fishermen in advance if they will be required to share 
these costs.
Conclusion
    In closing, the fishery management tools and requirements in the 
MSA have succeeded in bringing U.S. fisheries up to a standard of 
sustainability of which fishermen can be proud. And after years of work 
by fishermen and regional managers, the commercial sector's management 
plan is finally working. There are many things left to do in fisheries 
management, including modernizing fishery data collection and analysis, 
incentivizing stewardship and conservation, developing and testing new 
management methods, and ensuring fair access to seafood for the 
American consumer. I look forward to working with members of this 
committee to meet these goals. Thank you for the opportunity to 
testify, and I look forward to answering any questions you may have.

    Senator Begich. Thank you very much for your testimony.
    The next person on the list, we have Mr. Crockett, Director 
of U.S. Fisheries Campaigns, Pew Charitable Trusts. Thank you.

       STATEMENT OF LEE CROCKETT, DIRECTOR, U.S. OCEANS, 
                   THE PEW CHARITABLE TRUSTS

    Mr. Crockett. Thank you, Mr. Chairman. On behalf of The Pew 
Charitable Trusts, I appreciate the opportunity to provide 
testimony on the progress made in implementing the Magnuson-
Stevens Act in the Southeast U.S. and what refinements will be 
needed to improve conservation and management to meet the 
challenges of the 21st century.
    Pew has been involved with Magnuson-Stevens for 20 years. 
For over 5 years we've been advancing policies that will ensure 
abundant fish and healthy oceans in the South Atlantic, Gulf of 
Mexico, and the U.S. Caribbean regions. Our involvement with 
the Magnuson Act began when we looked at scientific assessments 
of the status of a number of iconic fish and found a system 
that allowed overfishing, delayed action to rebuild depleted 
populations, and allowed economics to trump conservation.
    To use a word that we've heard commonly today, there was a 
lot of ``flexibility.'' Unfortunately, while the Act provided 
flexibility to use different management tools, it also allowed 
flexibility to avoid difficult but necessary decisions to put 
species on the road to recovery.
    Congress also saw that flexibility was allowing managers to 
avoid addressing these problems and twice amended the Act to 
establish clear mandates to restore the valuable fish 
populations that support fishermen and fishing communities. 
South Atlantic black sea bass is a good example of fishery 
management prior to the 2006 amendments and the progress we 
have made since making those changes. For decades, fishermen 
caught black sea bass faster than they can reproduce, driving 
this fish population to dangerously low levels. Managers put a 
rebuilding plan in place to restore this depleted fish 
population, but lax implementation failed to prevent its 
continued decline.
    Finally, in January 2011 management measures for black sea 
bass and eight other species subject to chronic overfishing 
were implemented, including stronger consequences when fishing 
limits are exceeded. A scientific study completed in April of 
this year found that overfishing of black sea bass had ended 
and the population's recovery had been achieved. As a result, 
managers doubled the catch limit for this season from 847,000 
to 1.8 million pounds. This should have a positive impact on 
ports from North Carolina to Florida.
    This story is part of the larger emerging picture of 
success that is happening in fisheries across the country. 
According to the most recent data from NOAA fisheries, catch 
limits have ended overfishing in 22 of the 38 U.S. fish stocks 
subject to overfishing in 2007. In addition, 34 stocks have 
been declared rebuilt since 2000.
    Economists at NOAA Fisheries estimated in 2011 that 
rebuilding all depleted fish stocks that year would have 
generated $31 billion in sales, supported an additional 500,000 
jobs, and increased the revenue that fishermen receive at the 
dock by $2.2 billion.
    Despite the demonstrated success of the Magnuson Act in 
rebuilding depleted stocks, some stakeholders are calling for 
greater flexibility. Such calls ignore the fact that the 
Magnuson-Stevens Act has a great deal of flexibility in how 
long those plans should be and how they should be implemented. 
Over half the plans are longer than ten years due to species 
biology and environmental conditions.
    We've made a great deal of progress in improving the status 
of individual fish populations since passage of the 2006 
amendments to the Magnuson-Stevens Act. In order to ensure 
continued success, we must maintain our commitment to science-
based management that prevents overfishing and rebuilds 
depleted populations while broadening the focus of management 
to minimize the impacts on larger marine ecosystems. This step 
will place a greater focus on restoring and maintaining the 
health and resiliency of ocean ecosystems. It will require 
strengthening existing requirements to protect the habitats 
that fish depend on for reproduction and growth, reduce the 
non-target catch or bycatch. It also requires managing forage 
fish so that they're abundant enough to support the larger 
fish, marine mammals, and birds that depend on them for food. 
Finally, it requires developing a better understanding of how 
species interrelate with each other and the surrounding 
ecosystem and making fishery management decisions that will 
promote the restoration and maintenance of healthy and 
resilient ocean ecosystems.
    Thank you again for the opportunity to share the views of 
The Pew Charitable Trusts. My written testimony goes into more 
detail on our recommended changes to the Magnuson Act and I 
look forward to discussing them with you as well as answering 
any questions you may have. Thank you.
    [The prepared statement of Mr. Crockett follows:]

      Prepared Statement of Lee Crockett, Director, U.S. Oceans, 
                       The Pew Charitable Trusts
    On behalf of The Pew Charitable Trusts (Pew), I appreciate the 
opportunity to provide testimony on the progress made in implementation 
of the Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act) in the Southeastern United States and what 
refinements will be needed to improve conservation and management to 
meet the challenges of the 21st century.
    Pew has been involved with the Magnuson-Stevens Act for 20 years. 
Pew grants supported fishing and environmental groups involved in the 
reauthorization of the Act in 1996 and again in 2006. In 2007 we began 
operation as a not-for-profit advocacy group that supports effective 
implementation of the Magnuson-Stevens Act at the national and regional 
level. For over five years we've worked with managers and stakeholders 
to advance policies that will ensure abundant fish and healthy oceans 
for generations to come in the South Atlantic, Gulf of Mexico and U.S. 
Caribbean regions.
    As Pew's director of U.S. Oceans, I oversee our fisheries advocacy 
in the United States. These include efforts in the Northeast, South 
Atlantic, Gulf of Mexico, U.S. Caribbean, and the Pacific. Before 
joining Pew, I was executive director of the Marine Fish Conservation 
Network, the largest national coalition dedicated exclusively to 
promoting the sustainable management of ocean fish. The Network was 
actively involved in the 1996 and 2006 reauthorizations of the 
Magnuson-Stevens Act. Previously, I was a fishery biologist with the 
National Marine Fisheries Service, leading agency efforts to protect 
essential fish habitat. Finally, I was a staff member of the U.S. House 
Committee on Merchant Marine and Fisheries, working on a variety of 
fisheries, environmental and boating safety issues.
    Our involvement in the Magnuson-Stevens Act began when we looked at 
scientific assessments of the status of a number of iconic fish such as 
New England's cod and the Southeast's red snapper and found populations 
that were a tiny fraction of their historic size. In our search for 
causes we found a system that allowed overfishing, delayed action to 
rebuild depleted populations, and allowed economics to trump 
conservation. To use a word that we commonly hear when Magnuson 
reauthorization is discussed today, there was a lot of ``flexibility'' 
in our Federal management system. Unfortunately, while the Act provided 
flexibility to use different management tools, it also allowed 
flexibility to avoid the difficult but necessary decisions to put these 
species on the road to recovery.
    Congress also saw that flexibility was allowing managers to avoid 
addressing these problems and twice amended the Act to establish 
clearer mandates to restore the valuable fish populations that are the 
cornerstone of the fishing industry and the coastal communities it 
supports.
    In the 1996, a bipartisan group of lawmakers passed the Sustainable 
Fisheries Act, which amended the Magnuson-Stevens Act to:

  <bullet> Prohibit fishery managers from using an economic rationale 
        to set catch levels above what is sustainable;

  <bullet> Require timely rebuilding of overfished populations 
        (populations of fish that are at unsustainably low levels) to 
        healthy levels;

  <bullet> Require managers to implement practicable measures to 
        minimize the catching and killing of non-targeted ocean 
        wildlife, known as bycatch; and

  <bullet> Require the identification of essential fish habitat and 
        practicable measures to protect it from damaging fishing.

    Despite these changes, overfishing continued to prevent the 
recovery of many fish populations. Again, a bipartisan group of 
lawmakers, led by the late Senator Ted Stevens (R-Alaska) passed 
legislation strengthening the Magnuson-Stevens Act in 2006. That 
legislation was signed into law by President George W. Bush in 2007. 
The most recent amendments require fishery managers to follow the 
recommendations of their science advisors to set annual catch limits 
that end and prevent overfishing and include accountability measures to 
ensure those limits are not exceeded. The catch limits were to be 
established by 2010 for fish populations experiencing overfishing, and 
by 2011 for all other populations. The 2006 amendments also prohibited 
overfishing in rebuilding plans designed to restore depleted fish 
populations.
The Magnuson-Stevens Act is Working
Southeast Successes
    Because of effective implementation of the 2006 amendments by the 
National Oceanic and Atmospheric Administration's Fisheries Service 
(NOAA Fisheries) and the regional fishery management councils, 
overfishing is ending and depleted fish populations are being restored. 
According to NOAA Fisheries' most recent Status of Stocks update, 34 
fish stocks have been restored since 2000 and the number of stocks 
subject to overfishing is 26, down from 72 in 2000.
    The 34th restored stock is the South Atlantic black sea bass. This 
success story is a testament to the Magnuson-Stevens Act's requirements 
to establish science-based catch limits that do not allow overfishing 
and accountability measures to ensure compliance with those limits.
    For 30 years, fishermen caught black sea bass faster than they can 
reproduce and continued overfishing drove the fish to dangerously low 
levels. Managers put a rebuilding plan in place to comply with the 1996 
requirements to restore this depleted fish population, but lax 
implementation of the rules failed to prevent its continued decline. In 
January 2011, management measures for black sea bass and eight other 
species subject to chronic overfishing were implemented and included 
stronger consequences when fishing limits are exceeded.\1\
---------------------------------------------------------------------------
    \1\ NOAA Fisheries, Southeast Fishery Bulletin, ``NOAA Will Publish 
a Final Rule to Establish Annual Catch Limits and Accountability 
Measures for Nine South Atlantic Snapper-Grouper Species,'' Dec. 30, 
2010. http://safmc.net/Library/pdf/FBAmendment17BFinalRule122910.pdf
---------------------------------------------------------------------------
    This was not easy. It took the visionary leadership of several 
members of the South Atlantic Fishery Management Council. But the push 
for annual catch limits and enforcement of those limits has enabled the 
council to begin reversing the damage done by overfishing. After more 
than two decades, scientists are now finding increases in the average 
size, age distribution, and number of sexually mature females among 
black sea bass. This growth in the capacity of the species to reproduce 
effectively promises more fish for the future.\2\
---------------------------------------------------------------------------
    \2\ Personal communication between John Carmichael, South Atlantic 
Fishery Management Council, and Holly Binns, The Pew Charitable Trusts. 
Apr 16, 2013.
---------------------------------------------------------------------------
    Even better news is a scientific study completed in April, which 
found overfishing of black sea bass had ended after more than 20 years 
and the target for the population's recovery had been achieved. As a 
result, managers doubled the catch limit for this season from 847,000 
to 1.8 million pounds.\3\ This should have a positive impact for ports 
from North Carolina to Florida as fishing quotas and seasons increase. 
In fact, a study Pew commissioned last year concluded that overfishing 
of black sea bass cost the region $138 million per year in combined 
direct and indirect recreational fishing expenditures from 2005 to 
2009.\4\
---------------------------------------------------------------------------
    \3\ South Atlantic Fishery Management Council, ``Council Approves 
Increases for Black Sea Bass Annual Catch Limits,'' May 14, 2013. 
http://safmc.net/sites/default/files/News%20
Releases/pdf/051413-BlackSeaBass-NR.pdf
    \4\ Taylor Hesselgrave and Kristen Sheeran, ``Economic Costs of 
Historic Overfishing on Recreational Fisheries: South Atlantic and Gulf 
of Mexico Regions, Report to the Pew Charitable Trusts,'' Ecotrust, 
Jul. 26, 2012. http://www.pewenvironment.org/uploadedFiles/PEG/
Publications/Report/Ecotrust_SE_Rec_Fishing.pdf
---------------------------------------------------------------------------
    Red snapper is another southeastern species greatly damaged by 
decades of overfishing. By 1988, overfishing of red snapper in the Gulf 
of Mexico had reduced the spawning population to less than 15 percent 
of the minimum target level for this population.\5\ Disputes over how 
to rebuild it, however, went on for over 15 years. By 2006, the 
population of reproductively mature red snapper was estimated to be 
only 17 percent of the targeted level.\6\ The next year, a Federal 
court ruled that NOAA managers were not taking appropriate action to 
rebuild red snapper, and ordered changes. In 2008, a science-based 
rebuilding plan was implemented finally starting this species on the 
road to recovery after more than twenty years of sanctioned 
overfishing.
---------------------------------------------------------------------------
    \5\ Goodyear, C.P. 1988. ``Recent trends in red snapper fishery of 
the Gulf of Mexico,'' NMFS. SEFSC. Miami FL. CRD 87/88-16. Memo. Rpt. 
98p, see pages 12 and 24.
    \6\ SEDAR. 2013. SEDAR 31--Gulf of Mexico Red Snapper Stock 
Assessment Report. SEDAR, North Charleston SC. 1103 pp. Available 
online at: http://www.sefsc.noaa.gov/sedar/Sedar
_Workshops.jsp?WorkshopNum=31
---------------------------------------------------------------------------
    However, rebuilding a species that has been depleted over many 
decades and can live over 50 years is neither quick nor easy. Full 
recovery of the red snapper population in the Gulf of Mexico is not 
anticipated until 2032. This is due to the species' long life span and 
the need for many more older females in the population, which are far 
better breeders than younger fish. In fact, one 24-inch red snapper has 
been estimated to produce as many as eggs as 212 seventeen inch red 
snappers.\7\ Thus, these older, larger fish have a disproportionate 
impact on the population's reproductive potential and are critical to 
red snapper's recovery.
---------------------------------------------------------------------------
    \7\ Florida Fish and Wildlife Conservation Commission, ``Red 
Snapper,'' May 2, 2012. http://myfwc.com/media/2102699/
4BGulfRedSnapper_presentation.pdf
---------------------------------------------------------------------------
    Today we are starting to see the fruits of catch limits and other 
efforts to enforce and fine-tune rebuilding plans. For example, after 
years of annually exceeding its annual quota for red snapper, the 
commercial sector has abided by catch levels for the last eight years. 
A 2009 assessment found Gulf red snapper overfishing had finally ended 
after more than two decades of overexploitation.\8\ This year the 
allowable catch jumped to 11 million pounds, up 120 percent from 2008, 
when the most recent rebuilding plan was implemented. This is the 
highest allowable catch ever for Gulf red snapper and the fourth year 
in a row such an increase occurred.
---------------------------------------------------------------------------
    \8\ NOAA, ``NOAA Increases Gulf of Mexico Red Snapper Catch Limit: 
Population Rebounds as Overfishing Ends,'' May 29, 2012. http://
www.noaanews.noaa.gov/stories2012/20120529
_redsnapper.html
---------------------------------------------------------------------------
    Significant challenges remain in determining how to ensure the 
recreational sector does not continue to exceed their allocation of the 
catch limit, as has happened nearly every year since 2007, while 
providing adequate opportunity for offshore anglers to target this 
popular species. As managers work to address this issue, it is critical 
that adhering to the rebuilding plan remain the top priority of 
Congress and the Gulf of Mexico Fishery Management Council. Our 
analysis of the cost of overfishing in the Gulf red snapper fishery 
found that recreational fishing expenditures could have generated an 
additional $33.2 million annually between 2005 and 2009 for the region, 
and commercial fishermen lost $12.3 million in 2009 alone.\9\
---------------------------------------------------------------------------
    \9\ Hesselgrave and Sheeran, ``Economic Costs of Historic 
Overfishing on Recreational Fisheries: South Atlantic and Gulf of 
Mexico Regions, Report to the Pew Charitable Trusts,'' Ecotrust, Jul. 
26, 2012. http://www.pewenvironment.org/uploadedFiles/PEG/Publications/
Report/Eco
trust_SE_Rec_Fishing.pdf; Taylor Hesselgrave, Sarah Kruse, and Kristen 
A. Sheeran, ``The Hidden Cost of Overfishing to Commercial Fishermen: A 
2009 Snapshot of Lost Revenues, Report to The Pew Charitable Trusts,'' 
Ecotrust, July 25, 2011. http://www.pewenviron
ment.org/uploadedFiles/PEG/Publications/Report/
FINAL_Cost_of_Overfishing_Commerci
al_Study_Full_Analysis_FINAL_7_20_11.pdf
---------------------------------------------------------------------------
    In addition to these successes, the most recent update of the NOAA 
Fisheries Status of Stocks lists South Atlantic red grouper, and Gulf 
of Mexico gag grouper, gray trigger fish and greater amberjack as no 
longer subject to overfishing.\10\ While these fish are still 
designated as overfished and in rebuilding plans, this is an important 
step in their restoration.
---------------------------------------------------------------------------
    \10\ NOAA Fisheries, ``Third Quarter Update for the 2013 Status of 
U.S. Fisheries,'' http://www.nmfs.noaa.gov/sfa/statusoffisheries/
SOSmain.htm
---------------------------------------------------------------------------
National successes
    These stories are part of a larger emerging picture of success that 
is happening in fisheries across the country. Annual catch limits 
designed to end and prevent overfishing were established through 
amendments to all 46 Federal fishery management plans by June 2012, 
meaning 371 stocks and stock complexes are now managed under plans with 
science-based limits.\11\ These limits have ended overfishing for 22 of 
the 38 (58 percent) U.S. stocks subject to overfishing in 2007.\12\ In 
addition, 34 overfished or depleted stocks have been declared rebuilt 
since 2000.\13\
---------------------------------------------------------------------------
    \11\ NOAA Fisheries Service, ``Turning the Corner on Ending 
Overfishing: U.S. Fisheries Reaches Historic Milestone in 2012,'' 
http://www.nmfs.noaa.gov/stories/2012/01/docs/Annual
%20Catch%20Limits%20Fact%20Sheet%20Final.pdf; NOAA Fisheries, ``Status 
of Stocks 2012, Annual Report to Congress on the Status of U.S. 
Fisheries,'' 2012. http://www.nmfs.noaa.gov/sfa/statusoffisheries/2012/
2012_SOS_RTC.pdf
    \12\ Samuel D. Rauch III, ``Written Testimony for the Hearing on 
Magnuson-Stevens Fishery Conservation and Management Act before the 
Committee on Natural Resources,'' U.S. House of Representatives, Sept 
11, 2013. http://www.legislative.noaa.gov/Testimony/Rauch091113.pdf
    \13\ NOAA Fisheries. ``Third Quarter Update for the 2013 Status of 
U.S. Fisheries.'' http://www.nmfs.noaa.gov/sfa/statusoffisheries/
SOSmain.htm
---------------------------------------------------------------------------
    The recently released National Research Council (NRC) report on its 
evaluation of rebuilding under the Magnuson-Stevens Act echoed this 
success noting that the current rebuilding approach has ``resulted in 
demonstrated successes in identifying and rebuilding overfished 
stocks'' and that ``fishing mortality has generally been reduced, and 
stock biomass has generally increased, for stocks that were placed in a 
rebuilding plan.'' \14\ They go on to say that ``the legal and 
prescriptive nature of rebuilding mandates forces difficult decisions 
to be made, ensures a relatively high level of accountability, and can 
help prevent protracted debate over whether and how stocks should be 
rebuilt.'' \15\ They also note that ``setting rebuilding times is 
useful for specifying target fishing mortality rates for rebuilding and 
for avoiding delays in initiating rebuilding plans.'' \16\
---------------------------------------------------------------------------
    \14\ National Research Council, ``Evaluating the Effectiveness of 
Fish Stock Rebuilding Plans in the United States,'' Washington, D.C.: 
The National Academies Press, 2013. http://www
.nap.edu/catalog.php?record_id=18488
    \15\ National Research Council, ``Evaluating the Effectiveness of 
Fish Stock Rebuilding Plans in the United States,'' 2013.
    \16\ National Research Council, ``Evaluating the Effectiveness of 
Fish Stock Rebuilding Plans in the United States,'' 2013.
---------------------------------------------------------------------------
    Despite the demonstrated success of the Magnuson-Stevens Act in 
rebuilding depleted fish populations, some stakeholders are calling for 
greater flexibility in establishing rebuilding plans. Such calls ignore 
the fact the Magnuson-Stevens Act has a great deal of flexibility in 
how long those plans should be. The Act currently allows rebuilding 
plans to exceed the law's 10-year target (which is twice the time 
scientists calculate that a majority of fish populations require for 
rebuilding)\17\ to accommodate the biology of the fish species, other 
environmental conditions, or management measures under an international 
agreement. Further flexibility exists to amend rebuilding plans when 
new information on the status of the stock becomes available. This 
flexibility is apparent when examining current rebuilding time lines, 
which range from four years to more than 100 years. Over half of the 
plans (23 of 43) are longer than 10 years due to species biology and 
environmental conditions.\18\
---------------------------------------------------------------------------
    \17\ Carl Safina et al., ``U.S. Ocean Fish Recovery: Staying the 
Course.'' Science, Vol 309: 707-708, Jul 29, 2005.
    \18\ Samuel D. Rauch III, ``Written Testimony for the Hearing on 
Magnuson-Stevens Fishery Conservation and Management Act'' before the 
Committee on Natural Resources, U.S. House of Representatives, Sept 11, 
2013. http://www.legislative.noaa.gov/Testimony/Rauch091113.pdf
---------------------------------------------------------------------------
    Restoring a depleted fish population causes short-term economic 
hardships for affected fishermen. Managers must acknowledge and 
mitigate those adverse effects, but not at the expense of needed 
conservation measures, particularly when considering increased economic 
returns and employment opportunities that will result from rebuilt 
populations. For example, half of the rebuilt stocks with available 
data now produce at least 50 percent more revenue than when they were 
classified as overfished, and seven stocks produce revenue that is more 
than 100 percent higher than the lowest revenue level when classified 
as overfished.\19\ Economists at NOAA Fisheries estimated in 2011 that 
rebuilding all depleted fish stocks that year would have generated an 
additional $31 billion in sales, supported an additional 500,000 jobs, 
and increased the revenue that fishermen receive at the dock by $2.2 
billion.\20\ Clearly, the financial benefits of restoring our Nation's 
fish populations for fishermen and coastal communities are huge.
---------------------------------------------------------------------------
    \19\ Samuel D. Rauch III, ``Written Testimony for the Hearing on 
Magnuson-Stevens Fishery Conservation and Management Act'' before the 
Committee on Natural Resources, U.S. House of Representatives, Sept 11, 
2013. http://www.legislative.noaa.gov/Testimony/Rauch091113.pdf
    \20\ Eric Schwabb, ``Written statement before the Committee on 
Natural Resources, U.S. House of Representatives, on eight bills that 
would amend the Magnuson-Stevens Fishery Conservation and Management 
Act.'' Dec 1, 2011. http://www.legislative.noaa.gov/Testimony/Schwaab
120111.pdf
---------------------------------------------------------------------------
    Decades of overfishing have diminished many of our ocean fish 
populations and put coastal communities that depend on them in greater 
economic hardship. But thanks to bipartisan efforts in Congress in 1996 
and 2006 and the hard work of managers and stakeholders at the regional 
councils, the United States now has one of the best fishery management 
systems in the world. It is a system that has proven its ability to end 
overfishing, recover depleted populations, and provide jobs and income 
to fishermen and their communities. While challenges remain, it is 
clear that the Magnuson-Stevens Act is working, and any changes we 
consider must build on the recent successes and not sacrifice the 
advancements we have made.
Challenges
Broadening the focus of fisheries management
    As discussed above, we have made a great deal of progress improving 
the status of individual fish populations since passage of the 2006 
amendments to the Magnuson-Stevens Act. In order to ensure continued 
success we must maintain our commitment to science-based management 
that prevents overfishing and rebuilds depleted populations while 
broadening the focus of management to minimize the impact of fishing on 
larger marine ecosystems. This step will place a greater focus on 
restoring and maintaining the health and resiliency of the ecosystems 
that underpin fisheries productivity. It will require strengthening 
existing requirements to protect the habitats that fish depend on for 
reproduction and growth, and reduce non-target catch or bycatch. It 
also requires managing forage fish so that they are abundant enough to 
support the larger fish, marine mammals, and birds that depend on them 
for food. Finally, it requires developing a better understanding of how 
species interrelate with each other and the surrounding ecosystem and 
making fisheries management decisions that will promote the restoration 
and maintenance of healthy and resilient ocean ecosystems.
    The need to take this step is more important and timely than ever. 
Our oceans face significant and numerous stressors, such as the impacts 
of global climate change and diminished water quality from upland uses. 
The impact of increased carbon in the atmosphere is having a 
significant impact on the ocean which sequesters 20 to 35 percent of 
anthropogenic CO<INF>2 </INF>emissions.\21\ This is causing the ocean 
to become more acidic, which in turn is impeding the growth and 
survival of shell-forming marine organisms like clams and oysters and 
could have implications for other marine species. We are also seeing 
ocean waters warming which is having a profound effect on the 
distribution of marine organisms, especially fish. Recent studies have 
documented the worldwide shift of fish towards the poles and to deeper 
water as they seek cooler water.\22\ The impacts of these system 
stressors require a broader approach to management that ensures ocean 
ecosystems can support the healthy fish populations on which our 
coastal communities depend.
---------------------------------------------------------------------------
    \21\ S. Khatiwala et al., ``Reconstruction of the history of 
anthropogenic CO<INF>2</INF> concentrations in the Ocean,'' Nature, 
462, 346-349. Nov 19, 2009. Doi: 10.1038/nature08526. http://www
.nature.com/nature/journal/v462/n7271/full/nature08526.html
    \22\ For instance, see: Elvira S. Poloczanska et al., ``Global 
Imprint of Climate Change on Marine Life.'' Nature Climate Change, Aug 
4, 2013. DOI:10.1038/NCLIMATE1958; Malin L. Pinsky et al., ``Marine 
Taxa Track Local Climate Velocities,'' Science, Vol 341: 1239-1242. 
2013. DOI: 10.1126/science.1239352; R.D. Norris, S. Kirtland Turner, 
P.M. Hull, and A. Ridgwell, ``Marine Ecosystem Responses to Cenozoic 
Global Change,'' Science, Vol 341: 492-498. 2013. DOI: 10.1126/
science.1240543.
---------------------------------------------------------------------------
    The science and tools exist to begin the transition to ecosystem-
based fishery management. Managers should not wait to begin taking 
action. There are a number of actions that managers can take now to 
promote healthy ocean ecosystems.
    Bycatch, is the incidental catch of ocean wildlife in non-selective 
fisheries. This is a key source of unaccounted mortality for many 
marine species. Bycatch occurs in both commercial and recreational 
fisheries, and is of particular concern when bycatch species are 
classified as overfished and in need of rebuilding under the Magnuson-
Stevens Act, or threatened or endangered under the Endangered Species 
Act. Economically, bycatch equates to lost opportunity--it can preclude 
more valuable uses of fish resources and reduce future productivity by 
killing juvenile fish and mature reproductive fish.
    In 1996, Congress added National Standard 9 to minimize bycatch and 
bycatch mortality, and a separate requirement to establish a 
Standardized Bycatch Reporting Methodology. NOAA Fisheries' 2011 
National Bycatch Report, which was based on information from 2005, 
estimated that nationally 17 percent of the fish caught were 
bycatch.\23\ This is likely an underestimate because bycatch data is 
inconsistently recorded so potentially large sources of mortality are 
not accounted for in either stock assessments or when counting total 
annual catch.
---------------------------------------------------------------------------
    \23\ National Marine Fisheries Service, U.S. National Bycatch 
Report, NOAA Tech. Memo, NMFS-F/SPO-117E, 2011. http://
www.nmfs.noaa.gov/by_catch/bycatch_nationalreport.htm.
---------------------------------------------------------------------------
    In the Southeast, struggling populations like red snapper, speckled 
hind, and warsaw grouper are all subject to high levels of mortality 
from bycatch, and the available data likely undercounts the bycatch 
levels. In some areas of the country, entire schools of forage fish, 
which provide a vital ecosystem link between small, protein-rich 
plankton and top predators, are indiscriminately scooped up and 
discarded dead in large numbers. Surface longlines in the Gulf of 
Mexico kill over 80 other marine species such as billfish, sea turtles 
and sharks along with the target yellowfin tuna and swordfish.
    Bycatch mortality is particularly challenging to monitor in the 
recreational fishery given the sheer number of anglers who take to 
Federal waters off the southeast coast of the U.S. each year. In 2011, 
over 3 million recreational anglers took 23 million trips in the Gulf 
of Mexico, and over 2.3 million recreational anglers took 18 million 
trips in the South Atlantic.\24\ Unlike in many of the inshore 
fisheries managed by state agencies, catch and release fishing in 
deeper, offshore waters too often results in these fish not surviving 
release back into the water. This is because they cannot withstand the 
rapid change in pressure as they are pulled to the surface. There is 
promising evidence from the Pacific coast that rapid descent devices 
may improve the odds of survival for these fish, but more research is 
needed to determine their effectiveness for species in the warmer 
waters of the southeast U.S. This is an area that could benefit from 
additional cooperative research between fishermen and scientists.
---------------------------------------------------------------------------
    \24\ NOAA Fisheries Southeast Regional Office, ``Recreational 
Fishing,'' accessed Nov 12, 2013. http://sero.nmfs.noaa.gov/
recreational_fishing/index.html
---------------------------------------------------------------------------
    Quantifying and reducing bycatch must become a key mandate for 
Federal fishery managers if we are to recover ocean ecosystems and 
fully realize the economic potential of fisheries.
    Forage fish are a key link in the marine food web between the 
microscopic plants and animals that inhabit the sea and the marine 
predators that eat them. Humans are inextricably linked to these tiny 
fish because many of these top level predators are the fish we love to 
catch and eat or the marine mammals and birds we love to watch. The 
Lenfest Forage Fish Taskforce, a group of 13 eminent scientists from 
around the world, spent three years conducting a comprehensive global 
analysis of forage fisheries and found that three quarters of marine 
ecosystems worldwide have predators that are highly dependent upon 
forage fish.\25\ Scientists have estimated that total consumption of 
forage fish by the world's marine mammals can amount to 20 million tons 
a year,\26\ while seabirds require roughly 12 million tons 
annually.\27\ The Gulf of Mexico is home to the largest forage fishery 
in the nation, menhaden, but state-based regulators have resisted 
establishing meaningful limits to ensure this critically important fish 
will continue to meet its role as food for the larger ecosystem. In 
Florida, conservation of forage fish like mullet which support world 
class sport fisheries for red fish, tarpon and snook was dealt a blow 
by a recent Florida circuit court decision that overturned enforcement 
of almost 20 year old protections against the use of gillnets in state 
waters.
---------------------------------------------------------------------------
    \25\ Pikitch, E. et al., 2012. Little Fish, Big Impact: Managing a 
Crucial Link in Ocean Food Webs. Lenfest Ocean Program. Washington, 
D.C. 108 pp.
    \26\ Kaschner, K., Karpouzi, V., Watson, R. and Pauly, D. 2006. 
Forage fish consumption by marine mammals and seabirds. pp. 33-46. In: 
Alder, J. and Pauly, D. (Eds.). On the multiple uses of forage fish: 
from ecosystems to markets. Fisheries Centre Research Reports 14(3). 
Fisheries Centre, University of British Columbia.
    \27\ Cury, P.M., Boyd, L. L., Bonhommeau, S. et al., 2011. Global 
seabird response to forage fish depletion. Science, 334:1703-1706.
---------------------------------------------------------------------------
    These recent actions are unfortunately typical of how the Nation 
manages its forage fish; paying little regard for the critical role 
they play in feeding the larger ecosystem. These species deserve 
special management that accounts for their unique role in supporting 
healthy ecosystems. As the Lenfest Taskforce found, ``conventional 
management can be risky for forage fish because it does not adequately 
account for their wide population swings and high catchability. It also 
fails to capture the critical role of forage fish as food for marine 
mammals, seabirds, and commercially important fish such as tuna, 
salmon, and cod.'' \28\
---------------------------------------------------------------------------
    \28\ Pikitch, E. et al., 2012. Little Fish, Big Impact.
---------------------------------------------------------------------------
    Habitat is critical to healthy fish populations and ecosystems. It 
includes areas for fish to spawn, hide from predators and feed. But 
fishing practices like trawling or dredging can decimate essential 
habitats, often after just one pass. Additionally, pollution from 
industry or land runoff can damage the near-shore and estuarine 
habitats that are important nurseries for ocean fish. These essential 
habitats must be protected from fishing and non-fishing impacts to 
ensure that their essential functions are not interrupted. The 1996 
amendments required NOAA Fisheries and the councils to describe, 
identify, conserve, and enhance essential fish habitats. While each 
fishery management plan describes and identifies these habitats, the 
designations are often so broad that their utility to focus protection 
efforts is limited. In addition, habitat conservation and protection is 
poorly integrated into fisheries management. For example, nearly the 
entire Exclusive Economic Zone in the Gulf of Mexico region is 
designated as essential fish habitat for reef fish species.
    However, the South Atlantic Fishery Management Council has utilized 
Coral Habitat Areas of Critical Concern designations to effectively 
protect five areas of deepwater coral covering 23,000 square miles from 
fishing activity and gears that could damage these sensitive areas and 
to prohibit their harvest.\29\ In addition, all three southeast 
regional Councils have designated small marine protected areas aimed at 
protecting specific species, predominantly snappers and groupers. Many 
of these species are particularly vulnerable to depletion due to their 
biological characteristics. Some, like gag grouper, are protogynous 
hermaphrodites, meaning all start as female and only some develop into 
males as they get older and larger. Heavy fishing pressure can snare 
many females that might potentially turn into males and throw the 
natural process out of balance. In the Gulf of Mexico, male gag had 
dropped from seventeen percent of the population in the 1970s to just 
two percent in the 1990s. Researchers at the Florida State University 
Coastal and Marine Lab found that inside the Madison Swanson Marine 
Reserve, an approximately ten mile by ten mile area designated over a 
decade ago to protect gag, that the percentage of males inside the 
reserve was six times higher than outside the reserve.\30\
---------------------------------------------------------------------------
    \29\ South Atlantic Fishery Management Council, ``Deepwater Coral 
HAPCs,'' accessed Nov 12, 2013. http://safmc.net/managed-areas/
deepwater-coral-hapcs
    \30\ Koenig, C.C. and F.C. Coleman, ``Protection of Grouper and Red 
Snapper Spawning in Shelf-Edge Marine Reserves of the Northeastern Gulf 
of Mexico: Demographics, Movements, Survival and Spillover Effects,'' 
MARFIN Project Final Report. MARFIN project number NA07NMF4330120, 
2011.
---------------------------------------------------------------------------
    Gag and other species also form dense spawning aggregations in the 
same locations each year, which can be quickly wiped out when targeted 
by fishermen. Additional tools to expand protection for critical 
habitat, spawning fish and corals as well as funding to monitor and 
assess these areas could boost these populations and speed recovery of 
depleted species.
Improving fisheries data
    The conservation provisions in the Magnuson-Stevens Act are 
successful because they are grounded by our fisheries science, 
investments in data collection, and our sound, science-based legal 
framework. Managers and scientists have some information about every 
federally-managed fish ranging from the biology, habitat preferences, 
distribution, and catch, to fishery independent surveys and scientific 
assessments of populations health. Our management system is unique in 
its reliance on this extensive body of knowledge, and its commitment to 
basing decisions on science not politics.
    NOAA Fisheries has data on all federally managed fish, but the type 
of information varies, as commercial fisheries tend to have the most 
complete data sets. However, there are a number of methods to establish 
scientifically-sound catch limits without a full stock assessment. 
Catch limits can be based on average catch and the catch trends over 
time. If catches are stable, the limit may be set above the average but 
within the historical catch levels. If the catch is declining over 
time, a more conservative catch level may be required. Catch limits can 
also be set based on basic growth parameters and average lengths of 
fish caught. Where fish exist in groups, one assessed species from the 
group can be used as an indicator species to gauge the health of the 
whole complex. In other words, there are tools available for managers 
to set annual catch limits for all species, even without a stock 
assessment. This proactive approach is intended to prevent overfishing 
and population depletion. The strategy of setting limits on how many 
fish can be caught each year before a fish stock reaches critically low 
levels, should avert tougher, more painful restrictions in the future 
by managing fish populations wisely now.
    The fact that these techniques are available does not mean we 
should be satisfied with the data that is currently available for 
management. Given the challenging budget climate in Washington, we 
should look toward technological or innovative solutions that will 
allow managers to collect and manage data more efficiently.
    Many regions still rely on paper logbooks and dealer reports sent 
through the mail to collect information on catch. Technological 
solutions exist to improve the speed and accuracy of fisheries data 
collection, including electronic logbooks and dealer reports, vessel 
monitoring systems that track vessels' location and whether or not they 
are fishing, as well as at-sea video monitoring. Integrating these 
electronic monitoring systems with targeted at-sea human observer 
coverage and increased dockside monitoring would greatly improve the 
data available on what is caught where, what portion of the catch is 
discarded and how much is landed and sold. These systems are available 
now, but they are not commonly used in the Southeast. In addition to 
electronic data collection systems, more effort must be focused on 
electronic databases that could be used to receive, analyze, and 
disseminate fishery information in near real time. This would allow 
managers to react quickly to prevent catch limit overages and thus 
reduce the uncertainty around compliance with catch limits. Reducing 
uncertainty could lead to additional fishing opportunities because 
managers would have more confidence that the result will not exceed the 
science-based limit.
    The public, including non-federal managers and academics, must also 
have access to fisheries data so that it can effectively participate in 
the management process. Amendments made to the Magnuson-Stevens Act in 
2006 restricted access to observer data. While implementing regulations 
have not been finalized, the proposed data confidentiality rule would 
restrict disclosure of observer data to the public, and fishery 
management council members who are not Federal employees, leaving 
councils in the dark about what is being caught where. Greater 
transparency will lead to better council decision making.
    Greater use of technology must also be supplemented with more 
cooperative research with the fishing industry, state governments, and 
the academic community. NOAA Fisheries can't continue to do the lion's 
share of the data collection on its own. Involving the fishing 
industry, both commercial and recreational for hire, cooperative 
research will provide more data collection opportunities. It will give 
the industry a better understanding of how information is gathered and 
scientists a deeper appreciation of on-the-water expertise held by 
fishermen.
    Finally, Congress should explore securing a dedicated source of 
funding for cooperative fisheries research, monitoring, and management. 
Legislation introduced in the last Congress, would update the 
Saltonstall-Kennedy program which is funded from duties on imported 
fish products, and directed millions of dollars (estimated at $85 
million in FY 2013) to a newly created regional grant program. These 
funds would have provided the regional fishery management councils with 
the opportunity to identify and obtain funding for priority projects 
such as: stock assessments and surveys; recreational data collection; 
testing and deployment of environmentally-friendly fishing gear; 
dockside, at-sea, and electronic monitoring; social and economic 
research; and habitat restoration and protection. Currently the vast 
majority of Saltonstall-Kennedy funds are used by NOAA Fisheries to 
offset the cost of its fisheries data collection and management 
programs. Using these funds for cooperative projects would allow these 
funds to go farther and do more.
Reauthorization of the Magnuson-Stevens Act
    As discussed above, the Magnuson-Stevens Act is working; we are 
turning the corner on preventing overfishing, recovering depleted 
populations, and moving towards a fishing industry that is both 
sustainable and profitable. The Act's focus on scientifically-based 
fisheries management has made U.S. fisheries some of the best managed 
in the world. While we look ahead for ways to further refine our 
current system, we must not alter the strong provisions that have 
gotten us so far. Science-based catch limits that do not allow 
overfishing and the rebuilding requirements are the cornerstone of our 
fisheries success. But while we have made a great deal of progress 
restoring individual fish populations, more focus must be placed on 
restoring and promoting healthy and robust marine ecosystems. Such a 
broader focus will be essential to face the challenges of the 21st 
century.
    As Congress considers updates to the Magnuson-Stevens Act, we make 
the following recommendations for inclusion in a reauthorization bill:
    Maintain the core conservation provisions of the Act, including 
requirements to:

  <bullet> Prohibit overfishing;

  <bullet> Rebuild overfished populations within existing, prescribed 
        timeframes; and

  <bullet> Establish science-based annual catch limits for all 
        federally managed species with accountability measures if the 
        limits are exceeded.

    Maintaining science-based catch limits and accountability measures 
for all federally managed species helps ensure that populations not yet 
depleted or whose status is unknown will not decline. This proactive 
strategy of setting limits before a fish stock reaches critically low 
levels should avert tougher, more painful restrictions in the future. 
Waiting for a crisis before acting is poor fishery management. Through 
wise stewardship now, we can avoid overfishing and depletion of 
valuable fish species and the consequent economic hardship. Weakening 
the Magnuson-Stevens Act's conservation requirements jeopardizes the 
progress fishery managers, scientists, dedicated fishermen, 
conservation advocates, and others are making and places important 
public ocean resources at greater risk.
Adopt an ecosystem-based fishery management approach
    Fishery management typically focuses on the most important 
commercial and recreational species, with an emphasis on the maximum 
sustainable amount of each fish that can be caught. A broader approach 
that considers the health of multiple species, the critical 
interactions among these species, and the quality of the habitat they 
require will help conservation of the ocean ecosystems that sustain our 
fisheries. A Congressionally mandated ecosystem advisory panel 
recommended in 1998 that each regional fishery management council 
develop fishery ecosystem plans.\31\ Several councils have developed 
these plans. However they have done so without the benefit of national 
guidance on what information and analysis should be included, are 
typically advisory, and are not always incorporated into fishery 
management plans.
---------------------------------------------------------------------------
    \31\ Ecosystem Principles Advisory Panel, ``Ecosystem-Based Fishery 
Management.'' 1998. http://www.nmfs.noaa.gov/sfa/EPAPrpt.pdf

---------------------------------------------------------------------------
    Key Magnuson-Stevens Act modifications:

  <bullet> Require councils to develop fishery ecosystem plans and 
        specify how ecosystem-based conservation measures will be 
        incorporated into fishery management plans.

  <bullet> Prohibit the development of new fisheries or fishing in new 
        areas unless and until the impacts of any proposed activity are 
        analyzed and ecosystem protection measures are in place.
Strengthen requirements for assessing and avoiding bycatch
    Bycatch, the unintended catch of non-target fish and wildlife, is a 
persistent problem for fishery managers. NOAA Fisheries estimates that 
17 percent of all the fish caught in the United States are bycatch. The 
vast majority of this wildlife is thrown overboard dead or dying. 
Furthermore, despite the requirement to establish a standardized system 
for assessing the amount and type of bycatch in each fishery, in far 
too many instances information on bycatch is lacking. Strengthening 
national policies to adequately assess bycatch through at-sea 
observation, increasing access to observer data, plus avoiding bycatch 
in marine fisheries will lead to better informed management decisions 
and improved ecosystem health.

    Key MSA modifications:

  <bullet> Require fishery management measures to ``avoid'' bycatch.

  <bullet> Expand the bycatch definition so that it includes seabirds 
        and marine mammals, retained incidental catch, and unobserved 
        mortality due to a direct encounter with fishing gear.

  <bullet> Repeal limits on the access to federally funded observer 
        data.
Strengthen requirements for protecting essential fish habitat
    Healthy coral reefs, deep sea canyons, fish spawning aggregation 
sites, and other ocean habitats provide vital areas for fish to spawn, 
feed, and take shelter. Conserving fish habitat is important for 
maintaining healthy fish populations and productive ocean ecosystems. 
Yet, most management efforts in place today are insufficient for 
addressing the adverse impacts from fishing and non-fishing related 
activities in a manner that ensures essential fish habitat is healthy 
and functional. Strengthening the Magnuson-Stevens Act's requirement to 
conserve fish habitats is a fundamental step Congress must take to 
improve the productivity of our Nation's marine ecosystems.

    Key MSA modifications:

  <bullet> Require fishery management measures to minimize adverse 
        impacts to essential fish habitat caused by fishing.

  <bullet> Enhance protection of ``habitat areas of particular 
        concern'' by codifying this habitat subset in the Act and 
        prevent adverse effects from fishing activities in these areas.

  <bullet> Require councils to designate and protect deep sea corals.

  <bullet> Improve protection of essential fish habitat from non-
        fishing activities by requiring Federal agencies that fund, 
        undertake, or authorize activities that may have an adverse 
        effect on such habitat to minimize the adverse effects, thereby 
        requiring action rather than the typical communication between 
        the agency and Secretary of Commerce currently undertaken.
Ensure an adequate forage base for fish populations and marine wildlife
    Forage fish serve an important role in our ocean ecosystems as an 
essential link between microscopic plants and animals they eat and 
ocean predators, such as larger fish, birds, whales and other marine 
mammals that consume them. Herring, menhaden, sardines, and other 
forage fish provide a vital food source for commercially and 
recreationally sought-after fish species, such as tarpon, cod, striped 
bass, king mackerel, and salmon. Thus, forage fish provide a 
significant foundation for our Nation's fishing industry and coastal 
communities. However, management of many of the Nation's forage fish 
populations does not account for predator needs. Congress should 
require fishery managers to take stock of, protect, and maintain 
adequate forage fish populations and then, amend or establish 
management plans so that they factor in the vital role of forage fish 
in the ecosystem.

    Key MSA modification:

  <bullet> Require Councils to establish measures for managing forage 
        fish that adequately account for the role these fish play in 
        the larger ecosystem.
Conduct thorough scientific assessments and incorporate them into a 
        management plan before allowing a new fishery
    Too often, fishing occurs on new species, is expanded into unfished 
ocean waters, or utilizes new gears without adequate analysis of the 
impact. This practice has contributed to overfishing of many species, 
bycatch problems, and habitat damage. Evaluating a new species' 
population levels, reproductive rate, role in the food web, potential 
impacts of fishing, and other factors to establish an appropriate 
management framework in advance of allowing a fishery to begin is a 
common-sense approach that will help identify potential problems before 
they occur. In 2009, the North Pacific Fishery Management Council voted 
to prevent the expansion of industrial fishing in Arctic waters to 
limit stress on ocean ecosystems. This is a model that should be 
adopted in other ocean waters.

    Key MSA modification:

  <bullet> Establish a more conservative, science-based approach to 
        allowing new or expanded fishing activities by prohibiting: a) 
        introduction of new fishing gear in an area, (b) extension of 
        fishing into current unfished areas, or (c) the reintroduction 
        of a prohibited fishing gear into a closed area, until the 
        Secretary of Commerce determines these new actions will have 
        minimal adverse effects on ecosystem.

    Thank you again for the opportunity to share the views of The Pew 
Charitable Trusts on how the Magnuson-Stevens Act is working in the 
Southeastern U.S. and what modifications should be made in the next 
reauthorization. I look forward to answering any questions you may 
have.

    Senator Begich. Thank you very much. I appreciate your 
attendance and all of you being here.
    Mr. Windes, I'm going to ask you my questions first so then 
we can watch the clock here so you are not caught in a box on 
your time for a plane. And I'm watching the clock. It's 12:07 
for you, just to give you a clock.
    But let me ask you. I understand the Gulf Council--and I'm 
going to read some of this, some of the issues you have brought 
up, some of the problems, that management of red snapper for 
recreational and charter fishing is lacking the flexibility. 
But there are some ideas they put on the table that are being 
considered by the Gulf Council, such as the days at sea program 
that allows those participating a certain number of days to 
fish per year that they would choose, the establishment of an 
inter-sector trading program that would allow charter boat 
permitholders and private anglers to trade allowable catch with 
commercial red snapper fishermen, as well as a tagging program.
    These are a few that I've heard about. Does that start to 
go down the path of giving some flexibility? Tell me your 
thoughts on those?
    Mr. Windes. Yes, sir. Some of that does take us down the 
right path. Some of it to me does not. This limited number of 
head boats that I've signed up for, because the other boats at 
our marina are going to be involved in it, allows the head 
boats to catch red snappers out of season and that would go 
against their historical catch during the season.
    Once again, it's almost like a divide and conquer strategy. 
It puts different boats at the same marina--it makes them cross 
swords, if you will. So I don't know if that's the best way to 
go. It's under trial and certainly we'll watch the progress and 
see how it goes.
    Senator Begich. But you don't disagree--I just want to make 
sure--that there are some efforts, but they're just not all the 
way where you need to be at this point? But there is some 
sampling that's going on that, again, is helpful, but not all 
helpful?
    Mr. Windes. Well, yes, sir. We've been watching this for 
years and years, decades in fact. We all see these articulate 
spokesmen up here talking about what we're going to do and how 
we're going to do it, and here's the white paper on it and, oh, 
we should be implemented by such and such a time. Nothing much 
actually comes to fruition. It's very discouraging and 
frustrating for the local economies when nothing actually 
happens.
    That's why I'm hoping that Congress can--well, there's a 
saying, but I better not use it--guide things along.
    Senator Begich. There we go.
    Mr. Windes. With some helpful hints, because we just don't 
seem to make much progress. We get a lot of talk and not a 
whole lot of action.
    Senator Begich. That's very fair.
    Let me ask you, Mr. Brownlee. I mentioned in the first, and 
I think you echoed it and I just want to make sure--in the 
first panel I talked about more discussion and emphasis on the 
socioeconomic components, that it seems like there's an 
imbalance at times. Science is very important, but also there's 
this economic analysis that sometimes gets lost, I would say, 
not only in recreational, but also in commercial, as I have 
said also on subsistence in Alaska. Did I hear you right, 
that's one of your--you had four items and this was one of 
them. I just wanted to make sure I am saying the same thing, 
that there seems to be good science, but more science can be 
done. The economic piece is really--this is my word--lacking to 
where there's equity in the decision.
    Mr. Brownlee. It's kind of a two-pronged thing, because if 
you have socioeconomic studies done the recreational industry 
almost always comes out as having the highest and best use for 
the Nation as a whole. When I said focus on the economics, I 
really mean look at the way that Magnuson-Stevens is currently 
impacting small businesses. I'm most familiar with Florida. In 
Florida it's been a big hardship, the lack of the ability to 
fish for certain species. It's true in the other Gulf States as 
well. That is something that we need to consider, the economics 
of how this is affecting people.
    Senator Begich. So for example, if a quota was reduced and 
therefore folks doing charters get limited out or limited in 
what they can--or even the size, like what we have in Alaska on 
some of our halibut, then those folks who are booking charters, 
you may have customers say ``not interested.''
    Mr. Brownlee. Absolutely. If you have a 28-day season and 
you're trying to plan a family trip to go somewhere, you can't 
do it because you may not be able to go then. There's so much 
uncertainty. There needs to be as lengthy a season as possible, 
that we can rely on, that these guys can rely on, the charter 
operators.
    Senator Begich. Because otherwise, if it's a smaller, a 
shorter time period, you've got a lot of customers, but you 
only have so many boats, but they can't survive on a 28-day 
cycle. I'll just use that as an example.
    Mr. Brownlee. Well, you're going to be able to take--if 
everybody books the boat for 1 day, you can take 28 people 
fishing.
    Senator Begich. Right. So basically the longer--what you 
like to see over time is how you manage this for a longer 
season, so just predictability, because more than likely--our 
family is in the tourism business. You're planning your 
advertising a good season ahead.
    Mr. Brownlee. Right.
    Senator Begich. I mean, you're doing it right now, 
actually----
    Mr. Brownlee. Absolutely.
    Senator Begich.--for your season next. And when you're 
putting those ads in the magazines and all that stuff and then 
some of the rules get changed, you're hanging out there. Is 
that fair?
    Mr. Brownlee. Absolutely. It's very difficult to stay on 
top of it because it changes so frequently.
    But back to my point about counting fish and counting each 
individual fish, it's impossible. It's an impossible task. So 
we need to be more realistic about that and have stock 
assessments that measure relative abundance rather than 
absolute abundance.
    Senator Begich. Very good.
    Let me ask--Mr. Tucker, thank you. This is always--in 
Alaska we usually have a third person there, on subsistence. So 
we have commercial, charter, and then we'd have another, or 
recreational. How do you--with regards to you had mentioned 
some of the management issues. What is in your mind the biggest 
hurdle in managing, and then at the same time do you think 
folks from your industry are at the table enough? I thought it 
was interesting; what you said was make sure that if there are 
commercial fishermen that they, by requirement, their data, 
their information, is part of being part of the fisheries. If 
they don't submit it they're not part of the fishery.
    Help me understand, because it seems like that is an 
interesting little tool there.
    Mr. Tucker. Well, it seems that way to me. That wasn't in 
reference to commercial fishermen. In commercial fisheries we 
have very rigid reporting requirements. We report a lot of 
data.
    Senator Begich. That's why I was asking, because in Alaska 
we do it all the time.
    Mr. Tucker. In commercial fisheries, the failure--reporting 
the data is a condition of permit renewal. You don't submit the 
data, you don't get your permit renewed. OK, well, that's not 
onerous. But you've got--we've got 3 million recreational 
anglers in the Gulf of Mexico and there's no requirement to 
collect data from these.
    Senator Begich. How do you visualize--let me pause you here 
for a second, and then my time is up here. But I understand the 
commercial--that we in Alaska, it's a certain amount of fleet, 
a certain small amount. We have enough problems trying to 
manage certain things. To now add 3 million reporting 
mechanisms----
    Mr. Tucker. Similar to the way they do it in managing 
migratory game. In migratory game, when I go to buy my 
migratory game stamp for this year----
    Senator Begich. Yes, your duck stamp.
    Mr. Tucker. My duck stamp.
    They collect data from last year, or you don't get your 
duck stamp. It's pretty simple. It's not onerous. Everybody 
does it. But for some reason it doesn't seem to be--if 
everybody submitted data, then the people would say: Hey, the 
data's good because I know because I'm submitting it. But in 
the absence of any submission, it's no wonder people don't like 
the data. The science is good, but the data needs to be 
improved.
    I agree with Dr. Crabtree on the fishery-independent data. 
That's necessary. But as far as catch and effort data for the 
recreational sector, I think it's incumbent upon everybody to 
have a little skin in the game, and I don't think it's too much 
to ask.
    Senator Begich. Thank you very much.
    Let me pause here. I can sense the recreational guys would 
love to respond, but I have to move to Senator Rubio. Maybe you 
could respond in one of his questions.
    Senator Rubio. My first question is, if I--this is 
particularly for Captain Windes, Captain Johnson, and Mr. 
Tucker. If I gave you this notepad, could you write the 
coordinates for the best spots out there? I won't give them to 
anybody. It's just for me, make me look like a hero.
    [Laughter.]
    Senator Rubio. I'm kidding. Trade secret.
    Anyway, let me just ask Commissioner Windes real quickly 
because I know he's got to catch a plane, and I think the 
answer to this is obvious. Just talk a little bit more about 
the economic benefits in the county that the fishing industry 
provides? The reason why I ask you that--and I guess the 
follow-up is, and I would ask this of the entire panel--do you 
think that the economic impact should be more closely 
considered when these fishery management plans come out?
    Mr. Windes. Absolutely. In our particular county we have a 
population of about 190,000 people. Our economic engine is 
driven by three sources: tourism, fishing, boating, beaches in 
the south end; the military, Eglin Field in the center; and 
agriculture, cotton, soybeans, corn, all in the north end. So 
the bay divides us.
    The percentage that our county depends on tourism is very 
substantial, a third or more, probably 40 percent. These 
coastal families and businesses have suffered drastically in 
the last, well, 10 years or so as these restrictions have 
tightened, as these bag limits have become less and less and 
the days of the season has gotten shorter. So it has a domino 
effect or a trickle-down, whatever you want to call it. But it 
just, it has a devastating effect on our county's ability to 
have revenue.
    Senator Rubio. Just following up on that, for Mr. Brownlee, 
our management system requires that we take into account the 
best available science, but oftentimes, especially in 
recreational fishing, that's just not available. So is it 
reasonable to expect that under this current system we have 
we're ever going to have enough data to successfully manage 
recreational fishing? Or are there smarter ways of doing 
business?
    Mr. Brownlee. The best available science is a catch-all 
term that really has not a lot of meaning, because there is no 
science on the vast majority, frankly, of species that are 
under management in one place or another. I believe the 
Caribbean Council, who is represented here today, has never had 
a stock assessment ever. So there's a great deal of management 
going on where we're winging it, and it doesn't work.
    Back to the question on economics, I think it's vital that 
we have economics factored into every decision that we make and 
what the highest and best use of that fish is. We believe the 
recreational fishery does offer that highest and best use in 
almost every case.
    In terms of science, we need to fund more science. We need 
to have a lot more stock assessments going on. But I also do 
believe that there's efficacy in having the states manage 
certain species because I just think they can do it better than 
the Federal Government has shown that they can.
    Senator Rubio. Captain Johnson, something stood out to me 
in your testimony. You talked about the closures in the black 
sea bass fishery during the winter months had a greater impact 
on Florida than, for example, the Carolinas. Just elaborate on 
that a little bit? What is it that's so unique about Florida's 
fishery management?
    Mr. Johnson. Well, people come to Florida in the winter. Of 
course, it's cold down there today, or yesterday. But that's 
usually why people come in the winter months. And we had a 
winter fishing business. It really affected the for-hire fleet 
and the recreational guys because the black sea bass is 
something that's easily accessible. It could be found 
relatively close to shore, it didn't cost a whole lot of money 
to go after them, and it was just a real popular recreational 
fish. And it bites best in the winter in Florida. That's when 
they bite.
    So they really took away the best months out of every 
calendar year for fishing for black sea bass through the 
management decisions that they put in place.
    Senator Rubio. Mr. Tucker, do you think the individual 
fishing quotas, what they call catch shares, is that something 
that should remain a tool for us in the regional councils?
    Mr. Tucker. Absolutely, without a doubt. It's taken--it's 
the only tool I know of where they've reduced the quotas and 
they've managed to extend the seasons to a year-round basis. 
There's nothing that touches it.
    Senator Rubio. Finally, Mr. Crockett. As you know, it has 
become a common practice for the administration to divert in 
their annual budget Saltonstall-Kennedy funds received by NOAA 
away from the authorized uses and into the agency's operational 
and research fund. We've had testimony and questions about that 
here before and we've had those administrative officials before 
us.
    But I guess my question is, do you agree with this 
diversion or do you think these funds would be better used for 
their intended purposes, in addition to the funds appropriated 
by Congress to NOAA for fisheries research?
    Mr. Crockett. No, we don't think that's an appropriate 
diversion. It's not the intended purpose of the law when it was 
first enacted. NOAA now says that they're using that money for 
all these great data collection programs, but 3 years ago when 
Congress asked them they couldn't tell you where the money 
went. It just went into their operating budget.
    There was legislation introduced last Congress by Senators 
Snowe and Kerry to take that money and turn it into a regional 
grant program to fund priority research projects that the 
councils would identify for stock assessments, recreational 
data collection, habitat protection, developing new gear, a 
variety of things like that. I would strongly consider, suggest 
to this committee that they ought to take a look at that 
legislation and perhaps bring that into the reauthorization 
debate, because the idea of that program was to take this money 
and use it to focus on regional priorities, and it gave 
priority to public-private partnerships.
    I agree with a bunch of the testimony today about we need 
more data and especially data on economics and recreational 
fishing, and this would be a pot of money for collecting that 
type of information and using it--doing it in such a way that 
it's the government and the private sector and the State 
governments doing it. I think that's the best way to sort of 
gather the information that we can improve management with.
    Senator Begich. Thank you very much. Actually, I was 
listening to your commentary. As someone who sits on the 
Appropriations Committee, this is always the challenge. I agree 
with your comments and Senator Rubio's that over the years--and 
I can tell you, the harbor maintenance program also. They go in 
there and they tax for the harbor maintenance and then they 
steal half of it for who knows what, some other Federal program 
that was totally unintended. Then when you ask the agencies, 
they always have some reason why: Well, no, it is connected in 
some way. And they give you a long list of reasons.
    So you bring up a good point, something that we should look 
at within this legislation, and then as an appropriator maybe 
what we can do to ensure that those funds go where people 
anticipated those funds to go, which, honestly where--I would 
say on a variety of issues, I think Senator Rubio would agree 
with me on this, that why the public is so mad at the Federal 
Government in many different ways is we say something and then 
when the money's allocated, then it goes to somewhere else. And 
people say: Well, that's not what I thought it was for. They 
don't get the value for the money they put in. You bring up a 
good point.
    Mr. Crockett. That's exactly right. I think your position 
on the Appropriations Committee would be very helpful because 
that committee has not been that receptive to this legislation.
    Senator Begich. That's right.
    Mr. Crockett. So that would be helpful. While NOAA now says 
it's using this money for a bunch of data collection programs, 
I think the big difference here again is taking those decisions 
on how to spend that money out of Washington, taking it to fund 
regional priorities, and then prioritizing public-private 
partnerships.
    Senator Begich. It may not be bad ideas they have. But 
really what you want is, why you've got these regional councils 
set up, is to give input and help direct some of this resource, 
because they're on the ground day to day and talking to 
fishermen and listening to what's going on in the markets and 
trying to figure out what the right approach is.
    Mr. Crockett. Absolutely.
    Senator Begich. I'm new on Appropriations this year, so 
hopefully they'll keep me on there after I start stirring it up 
a little bit. But we'll see.
    Mr. Crockett. Let's hope so.
    Senator Begich. First I want to say to all of you, thank 
you. Fisheries, there's nothing simple about it. The good news 
is I think the Magnuson-Stevens Act is a good baseline. But 
there are improvements that need to be done, there is no 
question about it, in a variety of areas. But I do think at the 
end of the day--I know Senator Rubio and myself and our staffs 
are working closely together to make sure as we move forward on 
this that we do it in a thoughtful way so it's not just a 
reaction, but something down the road we can look back 10 years 
later and say we not only listened to advice, we took it 
forward and improved on what was there.
    Again, as I said to the earlier panel, it's one reason why 
we haven't laid down a bill yet like the House. We want input. 
So many times I get complaints--I don't know if Senator Rubio 
does--we put a bill down and then people say, why didn't you 
ask us. So what we want to do is do something that may be a 
little different in Washington, ask you first, get your input, 
and then try to figure out what the right approach is here.
    It may not be perfect at the end of the day, but we know if 
we can get something on the table after getting all this input 
then we can move forward and try to refine the final steps. So 
your testimony today and the panel before you is very helpful 
for both of us. So I just really want to thank you for that.
    I think the record will be open 2 weeks. The record will be 
open for 2 weeks for other members and ourselves to submit 
additional questions if necessary. Again, I want to thank you 
all for attending this morning's hearing.
    At this time, the hearing is adjourned.
    [Whereupon, at 12:26 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Written Statement of the Gulf Seafood Institute
    The Gulf Seafood Institute (GSI) is pleased to present the 
following written testimony on the reauthorization of the Magnuson 
Stevens Fishery Conservation and Management Act, or MSA. As a voice for 
the Gulf seafood communities in Texas, Louisiana, Mississippi, Alabama 
and Florida, the GSI maintains that, overall, the MSA is working. 
However, there are areas where changes must be made to ensure the long-
term sustainability of both our Nation's fisheries and of the vast 
economy that our fishermen support.
    The mission of the Gulf Seafood Institute is to protect the Gulf's 
unique culture and environment while elevating the Gulf seafood brand 
with consumers, customers and policy leaders through advocacy, 
education and science. The GSI's board of directors represents every 
Gulf state as well as every aspect of the industry--both commercial and 
recreational--and is positioned to be a leading voice on key issues 
including sustainability, seafood safety, disaster mitigation and 
recovery, and data collection. Additionally, GSI will seek to bolster 
fisheries science and research that will help preserve the Gulf seafood 
resource and contribute to the longevity of the industry overall. The 
GSI came together in July 2013 and is currently taking the steps 
necessary to organize under the laws of the state of Louisiana and will 
then seek approval of the IRS for determination of approved 501(c)(6) 
status.
    When it comes to ensuring the sustainability of our Nation's 
fisheries, GSI maintains that the process outlined under MSA is 
working. The Department of Commerce, the National Marine Fisheries 
Service (NMFS) and the eight Regional Fishery Management Councils work 
together to monitor, manage and enforce a program that has led the 
United States to its position as a global leader in responsibly managed 
fisheries and sustainable seafood. Guided by 10 National Standards of 
sustainability, these agencies monitor, manage and legally enforce all 
marine fisheries in the United States under the most restrictive 
regulations in the world. As a result, U.S. fish populations are 
rebuilding and overall fish abundance is improving. According to NOAA's 
most recent Status of Stocks report issued to Congress in 2012, thirty-
two fish stocks in the U.S. have been rebuilt since 2000 meaning that 
routine stock assessments conducted by fishery scientists indicate that 
the abundance of the stock is above the maximum sustainable yield. This 
is good news not only for our Nation's fishery resources but also for 
the fishermen, consumers and business supply chain that rely on healthy 
and wholesome seafood harvested from U.S. waters.
    As Congress moves forward with reauthorizing MSA, GSI would like to 
see the following issues addressed in draft legislation:
Flexibility in Rebuilding Timelines:

  <bullet> Timelines for rebuilding fisheries must be relaxed to 
        enhance flexibility for fishery managers. The current MSA 
        requirement for rebuilding overfished fisheries within ten 
        years, with certain exceptions, is an arbitrary time frame and 
        totally unrelated to the biological needs at hand. Similarly, 
        the requirement to end overfishing immediately considers no 
        other factors. These strict, arbitrary timelines for rebuilding 
        fisheries lead to significant disruptions for the seafood 
        community while the fishery is usually capable of a far more 
        gentle transition.

  <bullet> A recent National Research Council (NRC) report issued in 
        September 2013 \1\ addresses the existing rebuilding needs and 
        realities. GSI is in full agreement with NRC's recommendations 
        pertaining to a biologically-based approach to rebuilding 
        plans. We urge incorporation of those recommendations into the 
        revised MSA. Establishing a biological basis to rebuilding 
        strategies is a fundamental change to achieve success for the 
        fish stocks and the populace.
---------------------------------------------------------------------------
    \1\ National Research Council. Division of Earth Life Sciences. 
Ocean Board. Evaluating the Effectiveness of Fish Stock Rebuilding 
Plans in the United States. Washington, D.C.: U.S. National Academies 
Press, 2013.
---------------------------------------------------------------------------
Annual Catch Limits:

  <bullet> The process for establishing ACLs should be revised to 
        increase flexibility, particularly in cases where a fish stock 
        lacks enough data to make sound management decisions.

  <bullet> In order for fishery managers to set appropriate ACLs, data 
        collection must be improved by accounting for actual ``take,'' 
        both retained and discarded. While upcoming revisions of the 
        National Standard 1 Guidelines might well address this concern, 
        it should be explicitly defined in MSA.
New Funding Sources:

  <bullet> Monies collected from marine enforcement actions and 
        permitting fees should stay within the region in which they 
        were collected and not be transmitted to the general fund. 
        These funds should be managed by the relevant Regional Fishery 
        Management Council.

  <bullet> Balance should be incorporated into MSA's enforcement 
        language to ensure that the collection of fines does not drive 
        the process, but instead helps to achieve the true objective of 
        100 percent compliance and $0 in fines.
Role of Science and Statistical Committees:

  <bullet> In today's fast-moving world, we should be able to react 
        swiftly by calling SSC and other Council meetings in a more 
        timely manner. The current 28-day notice period for meetings 
        should be more flexible to help address very time-sensitive 
        matters quickly and efficiently. The process is overly long and 
        needs better integration with the demands of NEPA requirements 
        to achieve a balance in time, public access, and reasonable 
        deliberation.
Regional Fishery Management Council Accountability:

  <bullet> Strict accountability measures should be established for the 
        Councils and their actions. Measures might include a revision 
        of the Council membership and appointment process to ensure 
        fair and equitable representation from both the commercial and 
        recreational communities as well as consumers. This could be 
        accomplished by simply reinserting the expired subparagraph 
        Sec. 302(b)(1)(D)(i) from the current MSA.

    The GSI looks forward to working closely with the Senate Commerce 
and House Resources Committees over the next several months to address 
these and other relevant issues as MSA reauthorization moves forward. 
For more information, please feel free to contact our interim Chairman 
of the Board Harlon Pearce.
                                 ______
                                 
                     South Atlantic Fishermen's Association
                                Little River, SC, November 18, 2013

Hon. Mark Begich,
Chairman
United States Senate
Senate Commerce, Science, and Transportation Committee
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard
Washington, DC.

Hon. Marco Rubio,
Ranking Member
United States Senate
Senate Commerce, Science, and Transportation Committee
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard
Washington, DC.

Dear Chairman Begich and Ranking Member Rubio:

    On behalf of the South Atlantic Fishermen's Association (SAFA), 
which represents fishermen and other stakeholders in South Atlantic 
fisheries, I would like to request that the attached statement from 
SAFA regarding the upcoming reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA) be included in the record 
of the November 14, 2013 hearing entitled, ``Southeast Regional 
Perspectives on Magnuson-Stevens Reauthorization.''
    SAFA is a supporter of the MSA and believes that participation in 
the reauthorization process is an important role for the organization 
and its members. For that reason, we welcome the opportunity to work 
closely with the Committee and Subcommittee as it develops its 
reauthorization bill.
            Sincerely,
                                              Matthew Ruby,
                                   Commercial Fisherman, President,
                                South Atlantic Fishermen's Association.
cc: The Honorable Jay Rockefeller
The Honorable John Thune
                                 ______
                                 
                               Attachment
    Statement of Matthew Ruby, Commercial Fisherman and President, 
                 South Atlantic Fishermen's Association
    The South Atlantic Fishermen's Association (SAFA) offers this 
statement regarding the upcoming reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act (MSA). As the 
Subcommittee considers changes to improve the MSA, SAFA wants to focus 
its comments in two areas: (1) ensuring a suite of tools, including 
catch shares, are available to regional fishery management councils and 
(2) improving data collection and science in fisheries management. SAFA 
believes that each of these two elements is crucial to any successful 
reauthorization of the MSA.
    SAFA is a growing organization made up of fishermen and seafood 
lovers from North Carolina to the Florida Keys. We work to protect the 
Southeast's fishing heritage by advocating for sustainable year-round 
fishing rules, collecting better fishery science, and connecting 
consumers and businesses with fishermen to improve the abundance and 
accessibility of local seafood. We also want to pass on our fishing 
heritage to future generations.
    Commercial fishing in the South Atlantic is an important part of 
the economy, and local fishing supports jobs and the seafood industry, 
generating more than $7 billion in annual sales and supporting 137,000 
jobs. Unfortunately, those jobs and economic activity are in jeopardy 
because current management is not working, and as a result, the 
commercial fishing industry is facing difficult times.
    Many fisheries in the South Atlantic are failing. Catch limits are 
increasingly exceeded. Fishing seasons are getting shorter. In the race 
to fish, fishermen have been less successful in targeting species, 
thereby increasing regulatory discards. As revenues are decreasing from 
these factors, fishermen's costs are increasing. Consequently, 
commercial fishermen in the region are losing their jobs and 
businesses, and local businesses in communities that rely on the 
fishing industry are suffering.
    Too many of our key snapper grouper species have closed for the 
year. The closures are as follows: Golden tilefish on May 5, the jacks 
complex (lesser amberjack, almaco jack and banded rudderfish) on June 
18, gray triggerfish on July 7 (except for 16 open days in late 
October/early November), snowy grouper on August 10, red snapper on 
October 8, gag grouper on November 13, and bluerunner on November 14. 
With a split season, the vermillion snapper fishery was closed from 
February 13 to July 1 and now is operating under a 500 pound trip limit 
as of October 16, 2013 because 75 percent of the quota has been caught. 
These closures are illustrative of the failures of current fisheries 
management to make fishing a sustainable, year-round enterprise in the 
South Atlantic.
    Operating a successful commercial fishing business, providing for 
seafood consumers, and feeding our families is nearly impossible with 
so many fisheries closures. Thus, once again South Atlantic commercial 
fishermen are seeing the inefficiency of the current fishery management 
system at work. The recent string of early closures highlights the need 
for us to explore other fishery management options that would enable 
year-round fishing.
    The vermillion snapper, golden tilefish, and black sea bass 
fisheries are derbies, where fishermen race against each other to catch 
as many fish as possible before the total catch limit is reached and 
the season closes. This is dangerous. It forces us to fish in bad 
weather. It is less profitable because our costs are high and fish 
prices are typically low because the market is flooded. The derbies are 
hard on fishermen, our vessels, and the environment. This approach to 
fisheries management is not good for fish or fishermen.
    We want management that gives commercial fishermen flexibility and 
more time on the water. We want year-round fisheries so we can go 
fishing when the weather and the markets are most favorable. We want to 
explore new gear and fishing techniques that could enhance efficiency 
and environmental protections. We don't want to waste valuable 
resources because of regulatory discards. We want more predictability 
and stability in our businesses.
    SAFA believes it is critical that catch share programs--which were 
first explicitly authorized in the last MSA reauthorization--continue 
to be a management tool available to the regional fishery management 
councils. Catch share programs are proven to be an effective market-
based approach for improving the economic viability of fisheries and 
the conservation of fishery resources.
    In every region of the country, catch shares have been shown to 
increase season lengths, improve safety, increase yields and revenues, 
reduce bycatch and discards, and improve full-time employment in the 
fisheries. Given their demonstrated success in other regions, it is 
critical that all regions--and especially the South Atlantic--continue 
to have catch share management as an option. We strongly oppose any 
effort in Congress that would prohibit funding for catch shares or seek 
to prohibit fishermen from working with the regional fishery management 
councils to develop and/or implement catch share programs.
    We acknowledge that catch shares may not be appropriate in every 
fishery. However, under the circumstances, with traditional fisheries 
management failing, we do not see any justification for Congress to 
limit fishery management options. In enacting the MSA in 1976, Congress 
created a unique structure whereby initial management responsibility 
was given to eight regional councils comprised primarily of 
stakeholders in the fisheries managed by those respective councils. 
Taking away the ability of local stakeholders--the people most impacted 
by these management decisions--to help manage their own fisheries is 
inconsistent with the MSA's intent. It is wrong for Washington, D.C. to 
dictate to these various regions which measures they can consider and 
which measures they cannot. All options should be available to the 
regional councils.
    We are asking Congress to allow regional fishery management 
councils to do the work of managing and conserving these fisheries, 
with input from fishermen and other stakeholders in the regions who 
truly understand the importance of these valuable natural resources and 
rely on them to provide for their families and for seafood consumers.
    The red snapper fishery in the Gulf of Mexico is a close-to-home 
example of the substantial benefits of catch share programs. For 
decades the Gulf of Mexico Fishery Management Council tried to reduce 
the decline of red snapper stocks through a number of management 
options, such as fishery closures, limiting the number of commercial 
licenses in the fishery, and restricting the size of fish that could be 
caught. None of those measures worked. Instead, those traditional 
management tools simply endangered fishermen, who raced to harvest as 
much red snapper as possible in the short time allowed, further 
depleted red snapper stocks, depressed fish prices, and unnecessarily 
killed other fish and marine life not intended for harvesting. The Gulf 
Council implemented a catch share program that took effect in 2007. 
Since then overfishing has ended and the red snapper stock has begun 
its recovery. The commercial sector is accountable and adheres to its 
catch limit every year. The commercial fishery operates year-round and 
is safer and more profitable. It is a win for the environment and a win 
for the industry.
    SAFA is simply asking for the same opportunity in the South 
Atlantic--to be able to evaluate catch share management--instead of 
legislatively being forced down the path of having to try the same 
failed conservation and management techniques that did not work in the 
Gulf. The future of our region's commercial fishing industry is at 
stake. We need fisheries that are healthy and sustainable over the long 
term--both for the fish as well as for the fishermen--and catch shares 
are a management tool that could help us achieve this.
    Finally, we also wish to express our support for changes to the MSA 
that would improve data collection and the science upon which 
management decisions are based. Rep. Rob Wittman introduced a bill in 
the House, H.R. 3063, which would require more frequent stock 
assessments, improve fisheries science by allowing fishermen to provide 
data that could be incorporated into stock assessments and other 
scientific studies, and provide for cost-effective fishery monitoring 
and transition of monitoring costs from government to industry. More 
data and better science will enable fishery managers to make more 
informed decisions, and allowing fishermen to more actively participate 
in that process will result in more collaboration between fishermen and 
fishery managers. Moreover, it can improve the trust between fishermen 
and regulators. For these reasons, we fully support H.R. 3063 and urge 
the Subcommittee to consider similar measures in the Senate as a way to 
improve data collection and enhance fisheries management through better 
science.
    Thank you for your consideration and SAFA looks forward to working 
with you again this year to improve the future health of our Nation's 
fisheries, enhance jobs in the industry, and improve the economic 
viability of its fishermen.
                                 ______
                                 
                                                   December 1, 2013

Chairman Mark Begich,
U.S. Senate Committee on Commerce, Science, and Transportations'
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard
Washington, DC.

Re: ``Southeast Regional Perspectives on Magnuson-Stevens 
Reauthorization.''

Chairman Begich and Fellow Committee Members,

    This letter represents the owners of the last two remaining 
commercial seafood docks located in Port Canaveral on the East coast of 
FL, their hundreds of small business commercial fishermen, and their 
thousands of non boating consumers who depend on commercial fishermen 
for this impeccable protein source. Port Canaveral was established in 
the early 1950s as a `Commercial Fishing & Military Port. Today this 
Port is it on its way to being the largest Cruise Ship Port in our 
Nation. So we as commercial fish houses are trying to maintain a 
delicate balance between the forward motion of change & development and 
raising the awareness of the Federal Government to the importance of 
protecting one aspect of the food supply through commercial fishing.
    We listened attentively to this hearing as it is discussing our 
region of the United States. To our frustration we did not hear much 
reference to commercial fishing and almost nothing regarding the South 
Atlantic, with the exception of the SAFMC Chairman. While there were 
many references to MSA not working for the Recreational Sector, please 
know it is not continually productive for the Commercial Sector either.
    Look at the state of affairs in the South Atlantic; Red Snapper has 
now been closed for over 3 years. The devastation and damage this 
continual closure has caused is no less than criminal. The South 
Atlantic Council closed the red snapper fishery on a 7-6 vote over 3 
years ago; common sense will tell you there was considerable conflict 
regarding this decision from the beginning. So now we are 3+ years from 
that incredible decision and we are given 3 days, here and there to 
fish for red snapper, because our already less than perfect science has 
NONE or very limited data to even begin to extrapolate the condition of 
this fishery. So on ``7-6 vote,'' we damaged jobs, coastal communities, 
culture, restaurants, bait & tackle shops, fuel companies, marine 
repair shops, and most of all the FOOD SUPPLY! Magnuson-Stevens goal 
must be to strive for optimum sustainable harvest of this valuable 
natural resource that supplies this Nation with the ``cleanest, safest 
protein source in the world'' per Dr. Steve Otwell, University of 
Florida.
    In the next table you will see current closures in the South 
Atlantic, with the percentage of ACL met by species. So please note the 
South Atlantic Red Snapper ACL is 21,447 lbs. of gutted weight 
(compared to the 11 million pounds in the Gulf of Mexico). The South 
Atlantic Red Snapper ACL has been drastically adjusted downward due to 
multiple scientifically derived precautionary factors. Discard 
mortality rate is a major reduction factor that the Southeast Science 
Center has admitted (SAFMC council meeting) cannot be calculated 
because the models are not meant to work with such small amounts of 
data. Again, common sense says we are impacting jobs, businesses', 
people's lives, the food supply on information that is less than 
stellar, under the guise of ``best available science''.
    Current Commercial Fishing closures in the South Atlantic--taken 
from the NOAA site, (http://sero.nmfs.noaa.gov/sustainable_fisheries/
acl_monitoring/commercial_sa/index.html)

----------------------------------------------------------------------------------------------------------------
                                                    Total                                              Current
                   Commercial                      Landings       ACL                     % of ACL      Status
----------------------------------------------------------------------------------------------------------------
Blue runner                                          182,444      177,506        ww          102.78       CLOSED
Gag (h)                                              315,911      326,722        gw           96.69       CLOSED
Golden tilefish (j)                                  539,422      541,295        gw           99.65       CLOSED
Goliath grouper                                           --            0        ww              --       CLOSED
Gray triggerfish                                     278,713      272,880        ww          102.14       CLOSED
Jacks (c)                                            315,190      189,422        ww           166.4       CLOSED
Nassau grouper                                            --            0        ww              --       CLOSED
Red Snapper                                           23,489       21,447        gw          109.52       CLOSED
Snowy grouper                                         84,748       82,900        gw          102.23       CLOSED
Speckled hind                                             --            0        ww              --       CLOSED
Warsaw grouper                                            --            0        ww              --       CLOSED
----------------------------------------------------------------------------------------------------------------

    When looking at the Reauthorization of the Magnuson-Stevens Act, at 
minimum we think the following is necessary:

  1.  Science that is beyond reproach, not just extrapolated. This must 
        include cooperative science inclusive of all sectors.

  2.  Flexibility in rebuilding stocks. Reduce the opportunities for 
        ``eNGOs'' to sue NOAA for not meeting rebuilding schedules.

  3.  Place more emphasis on the economics of the individuals, 
        businesses and communities that are dependent on this valuable 
        natural resource.

  4.  Never allow a moratorium on a fishery. Red Snapper on the east 
        coast is a poster child for why this does not work.

  5.  MPAs (Marine Protected Areas): there must be undisputable science 
        that supports implementation of an MPA. MPAs must have sunset 
        dates of no greater than 10 years, after which, scientific 
        evidence must support their renewal. MPA creation must require 
        a super majority to pass in council.

  6.  If we are truly implementing Magnuson for healthy fisheries 
        management, we must have accountably among all sectors. So if 
        VMS, (vessel monitoring systems), are important for managing a 
        stock then it needs to be implemented on all sectors that 
        access that stock. If one sector needs to report all of their 
        fish electronically then so do the other sectors.

  7.  There must be as much pressure to optimally and sustainably 
        harvest this valuable natural resource, as there is to not 
        overfish it.

    The fisheries in the Southeast Region are a complex, emotionally 
and politically charged mixture of recreational, commercial and charter 
usages. We have to quit eliminating this industry & culture by making 
data poor decisions both on the stocks and the economics. This 
opportunity to reauthorize and refresh Magnuson-Stevens is now and we 
must get it right. This is the people of this Nation at risk.

            Sincerely,
                                     Michael S. Merrifield,
                 Cape Canaveral Shrimp Co., d.b.a., Wild Ocean Seafood.

                                          Sherylanne McCoy,
                 Cape Canaveral Shrimp Co., d.b.a., Wild Ocean Seafood.

                                                 Jim Busse,
                                                      Seafood Atlantic.

                                               Linda Busse,
                                                      Seafood Atlantic.

                                         Jeanna Merrifield,
                 Cape Canaveral Shrimp Co., d.b.a., Wild Ocean Seafood.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Dr. Roy E. Crabtree
    Question 1. Given the remarkably tumultuous twists and turns of 
Federal red snapper management decisions in the Gulf over the last 
several years and the demands of all 5 Gulf State Governors and 
numerous Senators and Members of Congress for increased state 
management of this fishery, is there not a way to better integrate 
innovative state management in this important fishery?
    Answer. NOAA supports the states' interest in assuming greater 
responsibility for recreational red snapper management, and has 
actively worked through the Gulf of Mexico Fishery Management Council 
process to help the states reach agreement on an approach that works 
for all. As you know, there is currently broad interest in a regional 
management strategy that would allocate the recreational catch limit 
among the states, then delegate each state the authority to manage its 
individual allocation to better serve local needs while meeting Gulf-
wide conservation goals. But the Gulf Council has not yet finalized 
such a proposal because the states are still working to determine the 
appropriate state-specific allocations. Once the Council develops a 
proposal, it will submit it to NOAA for review.
    The Gulf Council is scheduled to discuss regional management again 
in February 2014, and may hold additional public hearings before 
approving a final proposal. Any proposal to be implemented for the 2015 
fishing season should be approved by June 2014--and no later than 
October 2014--to enable NOAA sufficient time to publish implementing 
regulations.
    If properly implemented and supported by the states, a regional 
management strategy could effectively resolve the current challenges 
created by inconsistent state jurisdictions and regulations. However, 
the benefits of such a strategy (and other alternative approaches to 
status quo management) may be limited by Section 407(d) of the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act), which requires the red snapper recreational fishery to be 
closed for the remainder of the fishing year when the overall 
recreational quota is met, regardless of whether or not a state has met 
its allocated portion of the recreational quota. The language of 
Section 407(d) does not take into account the new catch limit and 
accountability provisions included in sections 302(h)(6) and 
303(a)(15), which were added by the 2006 amendments to the Magnuson-
Stevens Act (P.L. 109-479), and which afford the same broad protections 
found in Section 407(d) while providing much greater flexibility in 
implementation.

    Question 2. The Councils in the South Atlantic and Gulf of Mexico 
seem unable or unwilling to consider reallocations of mixed-use 
fisheries. Most of these allocations are decades old. Do you view this 
as a problem and if so, what does NOAA think should be done to remedy 
the situation within or without MSA?
    Answer. Reallocation is a controversial issue because it is often 
perceived as benefitting one sector at the expense of another and there 
are many different perspectives on what is fair and equitable and in 
the best national interest. NOAA believes the allocation of fishery 
resources among user groups is a regional decision requiring the 
expertise of the regional fishery management councils and consideration 
of specific fishery goals and objectives. However, in response to a 
letter from Senator Vitter, Secretary of Commerce Penny Pritzker and 
Acting Assistant Administrator for Fisheries Sam Rauch recently 
reiterated to the councils the importance of reviewing fishery 
allocations on a regular basis to ensure fishery management is 
achieving the goals of the Magnuson-Stevens Act.
    NOAA has produced technical papers in support of allocation 
discussions and presented information to the Gulf of Mexico Fishery 
Management Council on the fundamentals of allocation in June of 2012. 
That council reallocated gag (2008), red grouper (2008), greater 
amberjack (2008), gray triggerfish (2008) and black grouper (2012) 
between the commercial and recreational sectors in recent years, and is 
currently reviewing the king mackerel allocation. Also, the Gulf 
Council has been discussing the red snapper allocation for several 
years. In keeping with NOAA's commitment to work with the councils on 
allocation issues, NOAA National Marine Fisheries Service (Fisheries) 
Southeast Regional Administrator Roy Crabtree asked the Gulf Council to 
reinitiate discussion of the red snapper allocation at their February 
2014 meeting. To support that discussion, the agency presented 
preliminary information on the potential economic effects of red 
snapper reallocation to the Council's Socioeconomic Scientific and 
Statistical Committee in November 2013 and is scheduled to have a 
follow-up discussion with that committee in January 2014.
    The South Atlantic Fishery Management Council established new 
commercial/recreational allocations for most federally managed species 
in recent years, including black sea bass (2006), red porgy and snowy 
grouper (2008), gag (2009), golden tilefish (2010), and the remaining 
snapper-grouper species, dolphin, and wahoo (2012). During its December 
2013 meeting in Wilmington, North Carolina, the South Atlantic Council 
approved for scoping an amendment that would review the current Spanish 
mackerel allocation. Also, the South Atlantic Council discussed 
amendments that would review current allocations of dolphin, wahoo and 
snapper-grouper species, and asked NOAA Fisheries to present on this 
topic at its April 2014 Scientific and Statistical Committee meeting; 
specifically about the availability of data to support analyses of 
reallocation impacts.
    NOAA would support any allocation proposed by the Gulf or South 
Atlantic Councils if it is fair, and equitable, as required by the 
Magnuson-Stevens Act, and is consistent with the Council's allocation 
policy and fishery objectives.

    Question 3. What percentage of the NOAA fleet will be used this 
year to address fishery data collection in the Gulf of Mexico and South 
Atlantic? Please provide the number as a percentage of both the total 
fleet and the number of total days of the year as compared to the other 
council regions in the United States.
    Answer. The table below shows the number of planned days at sea for 
fishery and ecosystem data collection aboard NOAA ships in Fiscal Year 
2014 broken down by fishery management council region. These are based 
on the draft FY 2014 Fleet Allocation Plan as of December 16, 2013. The 
FY 2014 days at sea breakdown could change mid-January pending final 
appropriations.

----------------------------------------------------------------------------------------------------------------
                              Council Region                                   Days at Sea         % of Total
----------------------------------------------------------------------------------------------------------------
New England & Mid Atlantic (NEFSC)                                                        171                20%
----------------------------------------------------------------------------------------------------------------
South Atlantic (SEFSC)                                                                     49                 6%
----------------------------------------------------------------------------------------------------------------
Caribbean (SEFSC)                                                                           0                 0%
----------------------------------------------------------------------------------------------------------------
Gulf of Mexico (SEFSC)                                                                    225                26%
----------------------------------------------------------------------------------------------------------------
Pacific (NWFSC & SWFSC)                                                                   155                18%
----------------------------------------------------------------------------------------------------------------
North Pacific (AFSC)                                                                      138                16%
----------------------------------------------------------------------------------------------------------------
Western Pacific (PIFSC)                                                                   119                14%
----------------------------------------------------------------------------------------------------------------
Total Fisheries-related Days at Sea                                                       857               100%
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
      Response to Written Question Submitted by Hon. Tim Scott to 
                          Dr. Roy E. Crabtree
    Question. Dr. Crabtree, you stressed in your testimony the need for 
the highest quality fishery science. Pretty much everyone here agrees 
we need even better data and research to better understand the 
realities of the stock levels and to set more realistic quotas. The 
Southeast Region manages more species than any other region in the 
country, but it is my understanding that it receives the least amount 
of funding. Can you comment on how determinations are made within the 
Fisheries Service about how to allocate resources for research and data 
collection?
    Answer. While the Southeast Region manages more species than any 
other region in the country, it is an unfortunate misconception that 
they receive the least amount of funding. Overall, NOAA allocates funds 
for research and data collection across all of the fisheries science 
centers to address the most critical and urgent needs. Investments in 
research and data collection specifically for the Southeast Region are 
substantial and come from a combination of major budget lines 
distributed across all fisheries science centers.
    For example, in FY 2013, out of the six Science Centers, the 
Southeast Fisheries Science Center (SEFSC) received 18 percent of the 
funds from the Expand Annual Stock Assessment budget line, 24 percent 
of the Survey and Monitoring funds, and 29 percent of the Cooperative 
Research Program funds. This represents the largest proportions of 
funds distributed to a single fisheries science center from these major 
research and data collection budget lines. Additionally, the SEFSC 
receives funds from several budget lines directed 100 percent towards 
the Southeast, such as the Southeast Area Monitoring and Assessment 
Program and the Marine Resources Monitoring, Assessment, & Prediction 
Program.
    Finally, over the past several years, NMFS has focused funds toward 
research on advanced sampling technologies, especially in the Southeast 
where many stocks are in habitats currently inaccessible using 
conventional survey techniques. The FY 2014 President's Budget request 
included additional funds in the Expand Annual Stock Assessments budget 
line to further develop these advanced sampling technologies and 
alternative sampling platforms to improve surveys and increase data 
quality. Progress is continually made and NOAA is dedicated to 
furthering its investments in research and data collection in this 
region for years to come.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                             Douglass Boyd
    Question 1. Could you please describe what sort of socio-economic 
data your councils look at when considering new fishery management 
decisions? Do you get data specifically addressing recreational fishing 
and sportfishing-dependent businesses? Do you think NMFS should do a 
better job of providing such information to the Councils?
    Answer. Relative to the amount of resources allocated to addressing 
biological components of fisheries management, there is a dearth of 
resources dedicated to socioeconomic analyses, studies, and data 
collection efforts. In this era of limited financial resources, the 
Council hopes that more funds would be allocated to NMFS to address 
economic and socio-cultural issues in fisheries management.
    Currently, we use a range of datasets in considering fishery 
management decisions. These include:

  <bullet> Accumulated landings system (from dealer reports) and 
        logbook data; both provided by the Southeast Fisheries Science 
        Center (SEFSC)

  <bullet> Marine Recreational Fisheries Statistics Survey (MRFSS)/
        Marine Recreational Information Program (MRIP), including 
        separate effort estimates for private and for-hire vessels

  <bullet> Headboat Survey, SEFSC Beaufort Lab

  <bullet> Permit data, Southeast Regional Office (SERO) permit office

  <bullet> Individual fishing quota (IFQ) program database, SERO

  <bullet> Recreational Choice Experiments Surveys (SEFSC)

  <bullet> Economic add-on to logbooks (SEFSC)

  <bullet> Social indicators database, SERO

  <bullet> Census Bureau

    These various datasets are augmented by surveys and reports, such 
as those produced through Marine Fisheries Initiative (MARFIN) grants.
    The data used from these sources depend on the issue being 
analyzed. More information is available for commercial fishing than 
recreational fishing. In part, this is due to Federal permit 
requirements for commercial vessels and dealers. To maintain these 
permits mandatory reporting via logbooks or dealer reports is required. 
On the other hand, there is no such Federal permit nor requirements for 
individual recreational anglers to provide information. Most 
recreational anglers agree that improved data collection systems are 
needed. However, there is a delicate balance between the needs of 
Federal fishery managers to obtain recreational data, and the privacy 
concerns of recreational anglers who may not wish to provide such 
information to the Federal Government.
    Within the recreational sector, federally permitted charter vessels 
and headboats are the businesses most dependent on federally managed 
sport-fishing. These vessels are required to possess a Federal permit. 
In addition, headboats are required to report their landings 
electronically. The Council recently completed an action to increase 
the reporting frequency of headboats to no less than weekly. The 
Council is also working on an amendment to require electronic reporting 
by charter vessels. Although such data from charter vessels would be 
valuable for socioeconomic analyses, some for-hire operators may 
consider it confidential.
    While it would be useful to have more data on sport-fishing 
dependent businesses, such businesses likely cater to all anglers, 
regardless of target species or frequency of fishing activity. For 
example, the local popularity of state-managed species (spotted 
seatrout, red drum, snook, flounder, etc.) often overshadows many 
federally managed species. Fishery management decisions are made 
through the amendment process; amendments are developed to address a 
specific problem and most often address a single or limited number of 
species. To use data on fishing-dependent businesses, commercial or 
recreational, it would be necessary to isolate the relative impact to 
the business from a particular management action for a single or 
limited number of species. This would require the business owner to 
provide data that are not currently available, and which some business 
owners may consider confidential.
    Returning to the list of existing socio-economic datasets, an 
example can help illustrate the application of available socio-economic 
data, and some issues arising from unavailable data. The accumulated 
landings system includes information on commercial landings, vessel 
crew size, and other effort variables for the commercial sector, which 
has reporting requirements. Commercial landings data are available at 
the community level which enables a regionally focused analysis as 
required by National Standard 8. With community-level commercial 
landings information, the relative importance of a particular species 
among other landed species can be assessed for a given community (local 
quotient). With these data, the communities with the greatest landings 
for a given species (regional quotient) can also be determined. 
Further, this analysis can examine change in the engagement and 
reliance of communities on different stocks over time.
    On the other hand, landings data by community are not available for 
the recreational sector; landings and effort data are only available at 
the state level. Staff social scientists have used the distribution of 
recreational for-hire permits and private vessel registrations by 
community, compared with commercial communities with significant 
landings of a given species, as a proxy to identify recreational 
communities which may be significantly involved in fishing for that 
species. Given available data, the analysis identifies those 
communities which are likely to be more reliant on recreational fishing 
than other communities. However, the analysis cannot specify 
recreational communities' involvement with a specific species, but 
rather, with fishing in general which may include inshore, state 
managed species. Furthermore, the assumption that communities with 
abundant commercial landings for a given species correspond with 
abundant recreational landings of the same species, may or may not be 
true.
    In addition to recreational landings at the community level, other 
socio-economic data are needed to improve required analyses. Executive 
Order 128989 (environmental justice) requires consideration of any 
disproportionate impacts of proposed regulations on minority and low-
income populations. However, information on race, ethnicity, and income 
status for groups at the different participation levels (captains, 
crew, employees of fish houses, and other fishing related commercial 
and recreational businesses) is not available. In the absence of these 
data, the environmental justice analysis has used Census Bureau data, 
which provides proportions of the population that are minorities or 
living in poverty, at the county level. However, the overlap between 
identification of these populations and involvement in fisheries is 
unknown. Collecting demographic information on commercial and for-hire 
captains and crew, and those employed in fishery-dependent businesses 
is a critical socio-cultural data need. Collection of this information 
should include additional demographic variables (education, household 
size, occupational skills) and be updated regularly.
    Additional data needs include ethnographic community profiles of 
fishing communities to assist in determining fishery reliance and 
dependence. Collecting community level data requires on the ground 
fieldwork and regular updates to assess change and impacts over time. 
This requires in-depth, ethnographic study of the fishing sectors and 
sub-groups within the sectors, including different participation roles 
(for-hire crew and passengers) and fishing preferences (offshore and 
inshore fishermen). Other important information could be provided 
through studies addressing occupational motivation and satisfaction; 
attitudes and perceptions concerning management; constituent views of 
their personal future of fishing; psycho-social wellbeing; and cultural 
traditions related to fishing (identity and meaning).
    To summarize, we use several socio-economic datasets, although the 
available data is often inadequate to assess the impacts on communities 
from a specific management decision. Should additional funds be 
allocated to NMFS to address these socio-economic data needs, better 
coordination among agencies (NMFS Southeast Fisheries Science Center, 
NMFS Southeast Regional Office, Council staff, and State marine 
divisions) would be important for identifying and prioritizing new 
socio-economic data collection initiatives.

    Question 2. Do you believe that we have a problem with the Councils 
when it comes to being able or willing to seriously examine, on a 
regular basis, allocations in mixed-use fisheries?
    Answer. Difficulties in the regular evaluation and adjustments to 
existing allocation of fisheries resources between the commercial and 
recreational sectors mainly stem from the inherently challenging nature 
of resource apportionment between competing user groups. Differing 
objectives and fishing behavior between the commercial and recreational 
sectors have resulted in a deep polarization on the issue of 
reallocation. The Council has been discussing and considering the 
allocation of several reef fish species, including red snapper, gag, 
and red grouper, at numerous Council meetings since 2006. In addition, 
the Council has requested economic analyses from the South East 
Fisheries Science Center (SEFSC) to support its allocation discussions. 
Analyses provided by the SEFSC have been reviewed routinely by the 
Council's Socioeconomic Scientific and Statistical Committee. In early 
2009, the Council adopted an allocation policy which provides 
principles, guidelines, and suggested methods for allocating fisheries 
resources between or within sectors. In addition, proposed 
reallocations must be consistent with the provisions of the Magnuson 
Stevens Act, including the relevant National Standards. Most recently, 
the Council has begun a review of the king mackerel allocation.
    Reef Fish Amendment 28, considers reallocating the red snapper 
quota between the recreational and commercial sectors. Since its 
initiation, the scope of the amendment has been modified to consider 
reallocation decisions for several other reef fish species and the 
division of the recreational quota into private angler and for-hire 
sectors (sector separation). Most recently, the Council decided to move 
forward with sector separation in a separate document, and Reef Fish 
Amendment 28 now focuses on reallocating the red snapper quota between 
the recreational and commercial sectors. The Council reviewed the 
amendment at its February 2014 meeting, selected a preferred 
alternative, and added an additional alternative for analysis. Public 
hearings on Reef Fish Amendment 28 will be held around the Gulf in 
March. The Council expects to take final action on the document at the 
end of May 2014.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                             Ben C. Hartig
    Question 1. Are the ten-year rebuilding timelines mandated in the 
last MSA reauthorization working for your Councils and the stocks you 
manage? Would it make sense to give your Council some reasonable 
latitude to deal with rebuilding stocks for which this ten-year time-
frame simply doesn't make sense?
    Answer. Most of the stocks managed by the South Atlantic Council, 
and the majority of those assessed to-date, are long lived and 
therefore rebuilding times are generally much longer than 10 years. As 
a result, few rebuilding plans are limited by the 10-year provision. 
Therefore, the South Atlantic Council's concerns with the 10-year 
provision are the lack of consistency it creates across stocks of 
differing life history and the needless complexity it adds to 
estimating rebuilding time. The Council strongly supports including 
latitude to deal with rebuilding, applying a simple and consistent 
approach for all rebuilding plans, and applying an approach that treats 
all stocks equally, regardless of life history characteristics.
    The Council recommends that the maximum rebuilding time for all 
stocks be specified as the time to rebuild at F=0 + 1 mean generation. 
This simpler approach incorporates the criteria currently in place and 
applied for many stocks, while removing the complexity of the 
additional caveats necessary with the 10-year requirement. It also 
avoids creating different classes of stocks, with regard to rebuilding 
requirements, based on life history traits. Finally, this approach 
removes the expectation that stocks will rebuild under the theoretical 
(but impossible) conditions of a complete F=0 moratorium.
    The 10-year provision fails to make sense on both extremes of fish 
life histories, the short-lived and the long-lived. Long-lived fish 
usually show low productivity and considerable lags between creating 
problems (overfishing) and identifying them (stock assessment) due to 
their tendency to build up large amounts of biomass. As a result, few 
assessments of long-lived fish indicate possible rebuilding in 10 
years. The 10-year requirement becomes nonsensical due to the much 
larger scale of population dynamics for such stocks. Short-lived fish 
are, not surprisingly, quite the opposite. Their populations can change 
dramatically over just a few years, sometimes on a scale that is 
shorter than the typical interval between assessments. Ten years may 
represent several generations for such stocks, so allowing 10 years to 
rebuild can require very little in the way of conservative management.
    The 10-year provision, as currently implemented, does not treat all 
stocks equally, and particular stock circumstances can lead to 
illogical outcomes. An example easily illustrates the logical 
inconsistency. Consider a single stock, overfished with declining 
abundance, which is being assessed for the first time. Since it is a 
hypothetical example of a single stock with declining abundance, the 
ability of the stock to rebuild in more or less than 10 years is 
determined by when the overfishing is identified. An assessment done 
this year finds that the stock can rebuild in 9.5 years under F=0, 
forcing the most stringent management possible. If the assessment were 
instead done next year, on the same stock, with the same overfished 
status and the same trajectory of declining abundance, simple passing 
of time dictates that biomass will be lower and status relative to 
biomass will be worse, i.e., the stock is found to be ``more 
overfished'' by this assessment because it occurs later. This 
assessment finds that the slightly lower stock biomass cannot be 
rebuilt in 10 years at F=0, it will take 11 years, allowing the 
rebuilding plan to be extended to F=0 + one generation. Regardless of 
the generation time, this is a more liberal outcome than before. The 
net result is that less stringent management can be required when 
overfishing is identified at a lower biomass than is required if 
overfishing is identified at higher biomass. It is nonsensical to 
require a moratorium when a stock needs 9.5 years to rebuild but not 
require it if the stock needs 10.5 years to rebuild.
    However, the biggest risk to fisheries posed by the arbitrary 10 
year requirement arises when stocks actually can just achieve 
rebuilding within the 10 year period, thereby requiring that a Council 
implement rebuilding through an F=0 moratorium. This is a particular 
concern to the South Atlantic Council. One reason is due to the many 
long-lived species managed, because such a circumstance is much more 
likely to occur for long-lived stocks than short lived stocks. Another 
reason is that the South Atlantic manages a mixed-stock complex in the 
Snapper Grouper FMP, and the impacts of the moratorium assumed in the 
F=0 calculations will fall upon many species in a mixed species 
fishery, not just the one overfished species that is impacted in a 
largely directed, single species fishery. In other words, the 
moratorium on Atlantic Coastal striped bass did not remove 
opportunities to fish for bluefish, flounder, weakfish or croaker. 
However, a considered moratorium on South Atlantic red snapper 
threatened to end fishing for any of the 60 snapper grouper stocks from 
Cape Canaveral, Florida to Cape Hatteras, North Carolina. Under the 
simpler and consistent approach proposed by the South Atlantic Council, 
rebuilding requirements will never demand a moratorium because every 
stock, regardless of its status at time of assessment or life history 
characteristics, will be allowed some time to rebuild in excess of the 
theoretical moratorium calculation.
    Another problematic aspect of the 10 year rebuilding timelines that 
was not anticipated involves the negative economic and social affects. 
Imposing faster rebuilding timelines, especially on longer-lived 
species, can have large negative short-term effects. While a rebuilt 
stock potentially will result in greater positive long-term affects, 
the severity of the negative short-term affects is often overlooked. 
Many commercial and recreational fishing businesses are severely 
impacted because of the management measures that must be imposed to 
meet the rebuilding timelines. Many businesses cease to operate and are 
not around in order to enjoy the benefits of a rebuilt stock.
    In addition to these potential negative long-term effects on 
fishing businesses, the relationship between the Council and the 
stakeholders may also be compromised. The public's trust in the process 
is challenged when commercial and for-hire businesses and recreational 
fishermen have restricted or no access to the resource for a period of 
time, particularly when what fishermen see on the water is inconsistent 
with results of assessment models. In the long term, stakeholders may 
start to feel that their input has little value, and their important 
involvement and faith in the process declines.

    Question 2. Could you please describe what sort of socio-economic 
data your councils look at when considering new fishery management 
decisions? Do you get data specifically addressing recreational fishing 
and sportfishing-dependent businesses? Do you think NMFS should do a 
better job of providing such information to the Councils?
    Answer. The primary source of commercial economic data considered 
by the Council comes from the logbook economic add-on survey. While 
these data are helpful there are two main drawbacks. First is that 
these data are collected monthly, but only on those trips that occurred 
in the EEZ. The logbook fails to collect data from trips where the 
Council species come from state-managed waters, creating gaps of 
missing data. The second issue is that the logbook landings data 
associated with the economic information contained in the surveys 
usually does not match the data that are used to measure the biological 
effects which come from a different data source. The logbook economic 
surveys include data on trip costs and the value of the landings, etc.
    The primary source of data for recreational economic analyses comes 
from many sources. Very little economic information is collected as a 
part of the MRIP program, or from its predecessor, MRFSS. Data used to 
estimate values of consumer surplus or net operating revenue (NOR), if 
they are available at all, come from independent research and typically 
can only directly be applied to a portion of the area where the species 
are caught, or just a segment of the fishery (such as the headboat or 
charterboat industry, but not bait/tackle shops). The Council does not 
receive data specifically addressing recreational fishing and 
sportfishing-dependent businesses except in the rare occasions when 
such data are published in peer reviewed journal articles. Industry 
generated surveys may have built in data collection or analysis biases 
and, therefore are not typically referenced.
    It certainly would be helpful if NMFS were able to collect unbiased 
information on all the allied businesses that are impacted by fisheries 
management, both commercial and recreational. Commercial fisheries 
management impact fish houses, restaurants, gear suppliers, etc. 
Recreational fisheries management decisions impact for-hire operations, 
bait/tackle shops, the coastal tourist industry and so on.
    For social data on the commercial sector, the primary source is 
landings and logbook information. The data are analyzed at the 
community level to provide expected effects of potential management 
decisions.
    Currently the southeast region does not have recreational data for 
a comparable analysis of potential effects on the recreational sector, 
with the exception of some headboat landings and for-hire permit 
information. However, social effects analysis also includes social 
indicators,
    which provides information about both commercial and recreational 
engagement and dependence on a certain stock for each community to 
better understand how regulations may affect a local community and 
economy.
    Analysis of social effects is also incorporated into the cumulative 
effects analysis to demonstrate the `larger picture', which includes 
multi-fishery participation, a defining characteristic of the southeast 
region. By looking at how fishermen switch target fisheries depending 
on economic and environmental factors is crucial to understanding the 
broader effects of potential regulations on one species, because 
southeast fishermen commonly participate in several fisheries 
throughout the year in both the recreational and commercial sector.
    The most significant challenge for non-economic social data 
collection and effects analysis is the limitation on staff time and 
resources. With only four non-economist social scientists working on 
social effects analysis for amendments in both the Gulf of Mexico and 
South Atlantic regions, there is little time for additional projects to 
expand social data collection about important recreational and 
commercial communities.
    Even with the lack of sufficient social and economic data the 
Council does make every effort to consider the economic and social data 
that are available in making management decisions. In all Fishery 
Management Plans, Amendments or other actions to be submitted to the 
Secretary of Commerce there is an Economics Effects section and a 
Social Effects section for each management action being considered. 
Within these sections socioeconomic impacts of the specific action are 
analyzed.

    Question 3. Do you believe that we have a problem with the Councils 
when it comes to being able or willing to seriously examine, on a 
regular basis, allocations in mixed-use fisheries?
    Answer. No, our Council doesn't have a problem with seriously 
considering reallocation when there is adequate justification and basis 
for doing so. But it's not an easy process; because when allocations 
are changed there will always be winners and losers.
    I can't speak for the other Councils specifically, however, I 
suspect they have encountered the some of the same problems we have 
when considering modifying or changing allocations. When allocations 
between the various user groups were first established, the allocations 
were based largely on historical harvest of the fishery resource. 
Generally, the Council looked at the average commercial and 
recreational landings of a particular species over a period of time 
(series of years). Whatever percentage of harvest each group achieved 
over the agreed to historical time-frame was then established as their 
allocation.
    We are currently dealing with 51 separate allocations for the 
snapper grouper complex species alone. These allocations vary from 
primarily commercial species such as golden tilefish, where the 
commercial fishery gets 93 percent of the allocation, to primarily 
recreational species such as mutton snapper where the recreational 
fishery receives 83 percent of the allocation. For other species the 
allocations are more evenly divided (e.g., black sea bass 43 percent 
commercial and 57 percent recreational, gag grouper 51 percent 
commercial and 49 percent recreational).
    There was considerable controversy when the initial allocations 
were established. In many instances the time series of years used in 
determining each group's historical catch made a big difference in 
their allocation. Understandably the Council is reluctant to go through 
that controversy (and associated pain) again without good reason. 
However, I believe our Council is willing to seriously examine 
allocations when there is good justification. We have a history of 
addressing changes in allocations over time. Spanish mackerel is a good 
example. In 1987 when the initial allocation was established it was 76 
percent commercial and 24 percent recreational (based on historical 
landings). In 1989 it was determined that Spanish mackerel were 
overfished and the quota (now referred to as Annual Catch Limit or ACL) 
was lowered. At the same time since the commercial harvest was high and 
the recreational harvest was low, the allocation was changed to 50 
percent commercial and 50 percent recreational. In 1998 the allocation 
was changed again to 55 percent commercial and 45 percent recreational, 
as the Spanish mackerel stock was rebuilt and the recreational sector 
was not harvesting it's allocation. Another recent example of where the 
Council has addressed reallocation is wreckfish. Wreckfish are a 
deepwater species that occur far offshore. The fishery was initially 
developed by the commercial industry and managed under an ITQ program, 
with the allocation being 100 percent commercial. More recently a deep 
drop charter fishery has developed and recreational interest in 
harvesting wreckfish has grown. In response the Council amended the 
Snapper Grouper FMP in 2013 to change the wreckfish allocation to 95 
percent commercial and 5 percent recreational, which now allows for 
recreational harvest of wreckfish.
    Future shifts in allocation for snapper grouper complex species 
will be considered as part of the Council's long-term ``vision'' for 
managing the snapper grouper fishery into the future, which is 
currently in progress.

    Question 4. Would you please elaborate on the Atlantic Coastal 
Cooperative Statistics Program? How does it work and why hasn't it yet 
been implemented in the southeast?
    Answer. The Atlantic Coastal Cooperative Statistics Program or 
ACCSP is a partnership between the Atlantic states, Potomac River 
Fisheries Commission, District of Columbia Fisheries and Wildlife 
Division, Atlantic States Marine Fisheries Commission, 3-East Coast 
Councils, U.S. Fish and Wildlife Service, and the National Marine 
Fisheries Service. ACCSP (www.accsp.org) is a cooperative state-federal 
program that designs, implements, and conducts marine fisheries 
statistics data collection programs and integrates those data into a 
single data management system that will meet the needs of fishery 
managers, scientists, and fishermen. In 1995, representatives from 23 
coastal resource agencies along the Atlantic coast signed a Memorandum 
of Understanding to become partners in the ACCSP.
    The Atlantic Coastal Cooperative Statistics Program (ACCSP) 
Strategic Plan for 2002-2006 outlined the Program's overall goals and 
strategies for implementation of its standards for data collection and 
management for commercial, for-hire, and recreational fisheries. Upon 
approval of the Strategic Plan, the ACCSP Coordinating Council also 
recognized the need for a more specific plan to address partner status 
and more detailed tasks, given that needs are projected to exceed 
resources. The ACCSP 2004-2008 Implementation Plan (the Plan) outlined 
actions the ACCSP partners and program staff must take to implement a 
coast-wide program over the next five years (2004-2008).
    The program partners are now implementing the Program's standards 
within their respective areas. The Atlantic Coast Fisheries Data 
Collection Standards document, available on the website, includes 
details on the Program's standards, policies, and procedures. The 
latest version of this document and its accompanying appendices were 
approved May 2012.
    One of the primary goals of ACCSP was that of transparency. There 
was and still is a great deal of concern on the part of fishermen and 
other stakeholders about the data being used. To address this, the 
partners had a common goal of using data available from ACCSP for 
fishery management (landings, tracking quotas, bycatch, etc.). In this 
way, a fisherman or other member of the public could reproduce the data 
being used by a Council, NMFS, or other partner to verify that the 
correct data were being used. The Southeast Fisheries Science Center 
and Southeast Regional Office have not implemented this system. The 
following points outline issues that continue today:

  1.  Lack of Transparency--while data from the ACCSP program are 
        compiled in the southeast, these data are not used directly for 
        analyses or quota tracking. This makes it impossible for a 
        fisherman or other member of the public to reproduce the data 
        being used by visiting the ACCSP website. This results in the 
        SAFMC using proprietary NMFS data, not data from the ACCSP 
        website, which reduces transparency.

  2.  Separate data systems--the use of the separate ACCSP and NMFS 
        data systems in the southeast result in a number of errors 
        (ACCSP and NMFS data often differ) and the NMFS data cannot be 
        verified by anyone outside of the NMFS Southeast program. In 
        addition, there is an ongoing cost to maintaining these 
        duplicative datasets.

  3.  Commercial quota monitoring system--rather than expand the 
        existing ACCSP Quota Monitoring System used from North Carolina 
        northwards and used by the Northeast Fisheries Science Center, 
        the Southeast Fisheries Science Center decided to contract for 
        a new, stand-alone system. The costs to extend the ACCSP 
        program would have been minimal and it would have been ready 
        when the South Atlantic Council moved to ACLs as required by 
        the last revision to the Magnuson-Stevens Act. The contracted 
        system is just now becoming effective and once the mandatory 
        dealer reporting is implemented, the accuracy should improve. 
        The extensive delay and expenditure of limited funds was 
        unnecessary.

  4.  Tracking recreational ACLs--the Southeast Fisheries Science 
        Center uses a different method of expanding for weight and 
        numbers than is done in the rest of the United States. This 
        methodology results in delays and errors in addition to the 
        length of time required for MRIP to produce estimates of the 
        recreational catch in numbers of fish.

  5.  ACCSP Bycatch Program--this program details the level of samples 
        and observers necessary to produce reliable estimates of 
        bycatch. This program was implemented in the northeast but not 
        the southeast. NMFS has expressed concern about funding 
        shortfalls to meet the minimum level of observer coverage. At 
        the Council's March 2013 meeting, where the Council was 
        finalizing an amendment to implement the ACCSP Bycatch Program, 
        NOAA GC offered to prepare a report on how the agency is 
        meeting the Magnuson-Stevens Act bycatch reporting requirements 
        through existing programs at the September 2013 meeting. We are 
        still waiting for this report.

    In summary, we suggest an implementation meetings be held in the 
southeast with ACCSP, NMFS, State, and Council staff to determine how 
best to fully implement ACCSP, how to minimize duplicative/redundant 
data systems, and how to move to using data from the ACCSP website for 
FMP analyses to the greatest extent possible. These meetings should be 
held in 2014 with the goal of implementation being January 2015.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                            John D. Brownlee
    Question 1. In your opinion, why do you think the Councils seem so 
unwilling or unable to consider reallocations of mixed-use fisheries?
    Answer. Reallocating quotas between commercial and recreational 
users is understandably contentious, and can bring harsh reaction from 
the party being asked to relinquish some of its share. The Councils 
have too often taken the easy road and been hesitant to engage in 
reallocation discussions given the inevitable confrontations that will 
result, especially given the litany of other issues that face the 
Councils. However, there is too much at stake in terms of economic 
impacts and social benefits to continue to ignore reallocation. The 
Councils should be more willing to explore allocations, especially in 
instances where it is clear that the present allocation is not the 
highest and best use of fishery resources.

    Question 2. Why do you think MSA has to date not dealt more 
directly with recreational fishing?
    Answer. It's important to remember that the original Act sought to 
create the 200-mile Exclusive Economic Zone in U.S. waters, with the 
primary goal of expelling foreign commercial fishing fleets that had 
encroached upon our shores and displaced some of our domestic 
commercial fleet. MSA was, from the beginning, a tool to manage 
commercial activity. In a way, this makes sense when you consider that 
98 percent of all finfish are harvested commercially, compared to only 
two percent harvested recreationally. However, from an economic 
standpoint, the two sectors have similar impacts to the nation, which 
makes a much stronger case for improved focus on recreational fisheries 
management. In addition, recreational fishing has experienced 
tremendous changes and growth since the original passage of MSA in 
terms of participation, technology and fishing practices. Congress and 
fishery managers alike have only recently begun to recognize these 
changes and view the recreational fishing industry as a vital and 
vibrant economic force.

    Question 3. What have the consequences of this been for anglers and 
sport fishing businesses in the South Atlantic and Gulf?
    Answer. The most pressing problems with MSA and how it relates to 
the recreational industry began with the 2006 reauthorization of the 
Act, during which the rigid Annual Catch Limits and Accountability 
Measures were adopted. Coupled with the lack of adequate science for 
many species of fish, this led to questionable or outright 
unjustifiable closures in many fisheries, as managers were forced by 
law to comply with these new managers. This created great hardship for 
many small businesses in the Gulf and South Atlantic.

    Question 4. What kind of adjustments to MSA could bring the statute 
up-to-date if you will, given all of the information you have laid out 
in your testimony regarding the number of people who fish in saltwater 
and the amount of economic return that comes from this fishing?
    Answer. Fishery managers need the ability to manage on a case-by-
case basis, taking appropriate action where overfishing is clearly 
occurring, but also being given the latitude not to act in a strict and 
arbitrary manner where the data is less compelling, or in fact, non-
existent. It simply makes sense to manage this way as opposed to the 
``one size fits all'' approach we've endured since 2006. It's time to 
consider the economics of management actions in terms of how these 
myriad small businesses are affected by them as being equally important 
as doing the right thing biologically for the fish. Finally, it's time 
to recognize that our current management system is tailored towards 
commercial fishing. We need managers to consider alternative management 
approaches for recreational fisheries that meet the needs and goals of 
anglers.

                                  [all]
</pre></body></html>
